<html>
<title> - AFTER THE BEEF RECALL: EXPLORING GREATER TRANSPARENCY IN THE MEAT INDUSTRY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
   AFTER THE BEEF RECALL: EXPLORING GREATER TRANSPARENCY IN THE MEAT 
                                INDUSTRY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2008

                               __________

                           Serial No. 110-189

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-700                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DIANE E. WATSON, California          DAN BURTON, Indiana
CHRISTOPHER S. MURPHY, Connecticut   CHRISTOPHER SHAYS, Connecticut
DANNY K. DAVIS, Illinois             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
BRIAN HIGGINS, New York              CHRIS CANNON, Utah
BRUCE L. BRALEY, Iowa                BRIAN P. BILBRAY, California
------ ------
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 17, 2008...................................     1
Statement of:
    Eggleston, Bev, owner, Ecofriendly Foods, LLC; Joel Salatin, 
      owner, Polyface Farms; and Patrick Boyle, CEO, American 
      Meat Institute.............................................   101
        Boyle, Patrick...........................................   118
        Eggleston, Bev...........................................   101
        Salatin, Joel............................................   108
    Grandin, Dr. Temple, professor, Colorado State University; 
      Dr. Richard Raymond, Under Secretary for Food Safety, Food 
      Safety and Inspection Service, USDA; Stan Painter, 
      chairman, National Joint Council of Food Inspection Locals, 
      American Federation of Government Employees; and Lisa 
      Shames, Director, GAO, Natural Resources and the 
      Environment................................................     8
        Grandin, Dr. Temple......................................     8
        Painter, Stan............................................    37
        Raymond, Dr. Richard.....................................    15
        Shames, Lisa.............................................    57
    Pacelle, Wayne, CEO, Humane Society of the United States; 
      John J. McGlone, fellow, American Humane, and professor, 
      Texas Tech University; and Adam Aronson, CEO, Arrowsight...   142
        Aronson, Adam............................................   171
        McGlone, John J..........................................   163
        Pacelle, Wayne...........................................   142
Letters, statements, etc., submitted for the record by:
    Aronson, Adam, CEO, Arrowsight, prepared statement of........   173
    Boyle, Patrick, CEO, American Meat Institute, prepared 
      statement of...............................................   121
    Eggleston, Bev, owner, Ecofriendly Foods, LLC, prepared 
      statement of...............................................   104
    Grandin, Dr. Temple, professor, Colorado State University, 
      prepared statement of......................................    10
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Followup questions and response..........................   128
        Letter dated April 15, 2008..............................   138
        Prepared statement of....................................     3
    McGlone, John J., fellow, American Humane, and professor, 
      Texas Tech University, prepared statement of...............   166
    Pacelle, Wayne, CEO, Humane Society of the United States, 
      prepared statement of......................................   145
    Painter, Stan, chairman, National Joint Council of Food 
      Inspection Locals, American Federation of Government 
      Employees, prepared statement of...........................    40
    Raymond, Dr. Richard, Under Secretary for Food Safety, Food 
      Safety and Inspection Service, USDA, prepared statement of.    18
    Salatin, Joel, owner, Polyface Farms, prepared statement of..   111
    Shames, Lisa, Director, GAO, Natural Resources and the 
      Environment, prepared statement of.........................    59


   AFTER THE BEEF RECALL: EXPLORING GREATER TRANSPARENCY IN THE MEAT 
                                INDUSTRY

                              ----------                              


                        THURSDAY, APRIL 17, 2008

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, Watson, 
Tierney, and Issa.
    Staff present: Jaron R. Bourke, staff director; Noura 
Erakat, counsel; Jean Gosa, clerk; Charisma Williams, staff 
assistant; Cate Veith, legislative assistant, Office of 
Congressman Dennis J. Kucinich; Leneal Scott, information 
systems manager, full committee; Alex Cooper, minority 
professional staff member; Larry Brady, minority senior 
investigator and policy advisor; and Meredith Liberty, minority 
staff assistant and correspondence coordinator.
    Mr. Kucinich. The Subcommittee on Domestic Policy of the 
Committee on Oversight and Government Reform will now come to 
order. Today's hearing will explore how transparency can 
enhance compliance with humane handling and food safety laws in 
the Nation's slaughterhouses. We will also examine the means 
for achieving such transparency.
    Without objection, the Chair and the ranking minority 
member have 5 minutes to make opening statements followed by 
opening statements not to exceed 3 minutes by any other Members 
who seek recognition. Without objection, Members and witnesses 
may have 5 legislative days to submit a written statement or 
extraneous materials for the record.
    In January, American consumers watched the Humane Society 
undercover video with horror. They saw cows enduring simulated 
drownings, being pushed by forklifts and dragged by chains, 
cows that for many of the viewers would become the protein in 
their families' meals. For these consumers this was probably 
the first time they were bearing witness to what happens behind 
slaughterhouse walls. The impact of their national gaze was 
tremendous. The USDA oversaw the largest voluntary beef recall 
in U.S. history.
    In press briefings concerning the beef recall, USDA 
officials repeatedly affirmed that the incidents at Westland/
Hallmark represented an aberration in the meat industry. Dr. 
Kenneth Petersen said, ``Food Safety Inspection Services 
believes this to be an isolated incident of egregious 
violations to humane handling requirements and the prohibition 
of non-ambulatory, disabled cattle from entering the food 
supply.''
    However, upon investigation the subcommittee discovered 
that USDA had conducted two audits at Westland/Hallmark in the 
past 3 years, one in December 2005 and again in May 2007. The 
2005 audit cited minimal infractions. In 2007, the USDA noted 
no infractions and instead gave Westland/Hallmark a faultless 
report. Yet only a few months later a Humane Society undercover 
investigation revealed the USDA's findings were a dismal 
reflection of reality at Westland/Hallmark.
    The contrast between the Humane Society's investigation and 
the USDA audits raises significant questions. Did the USDA 
audit consider actual practices at the plant or the company 
paperwork assertions about practices instead? In general, does 
the USDA rely upon direct evidence or accompanying assertions? 
Are the abuses documented by the Humane Society but missed by 
the USDA really unique to this plant? How reliable are USDA's 
assurances about other plants when its auditors failed to 
discover the widespread violations at the Westland/Hallmark 
plant?
    Then again perhaps USDA knows more than has been made 
public. We will hear from the head of the Food Safety 
Inspectors Union. He himself has been an FSIS inspector for 
22\1/2\ years and he tells us that there is a severe shortage 
of inspectors, which often results in inadequate or incomplete 
inspections. And he tells us something else, too, there is a 
suppression of inspectors who blow the whistle on unsafe 
practices and policies.
    In today's hearing we will examine how the Humane Society's 
undercover video is an object lesson in the value of 
transparency in shaking up a company, a regulator in an 
industry to improve compliance with and enforcement of humane 
handling and food safety laws in the Nation's slaughterhouses. 
We will consider how we might encourage greater transparency as 
a means to improve both industries compliance with the laws and 
USDA's enforcement of them.
    The Chair would be pleased to recognize either Mr. Tierney 
or Mr. Cummings for an opening statement.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T1700.001

[GRAPHIC] [TIFF OMITTED] T1700.002

[GRAPHIC] [TIFF OMITTED] T1700.003

    Mr. Tierney. Thank you, Mr. Chairman. I have no particular 
opening statement. I am anxious to hear the witnesses, but I 
thank you for having this hearing.
    Mr. Kucinich. Thank you. Mr. Cummings.
    Mr. Cummings. I will be brief. I thank you for holding this 
vitally important hearing to examine the compliance with humane 
handling and food safety laws in the Nation's slaughterhouses. 
The American people expect that the meat that they purchase at 
local grocery stores and the butcher shops is safe for 
consumption, as they should. And so the public was rightfully 
disturbed to learn of the horrific practices by the Hallmark/
Westland Meat Packing Co. of California.
    The video of the plant that was released to the media 
reviewed inhumane handling of downed cattle and raised serious 
concerns about tainted meat making its way into our food supply 
and to the dinner tables of Americans. Public outcry following 
the incident led to the swift action by the government and by 
the company itself. Hallmark/Westland voluntarily recalled 143 
million pounds of fresh and frozen beef dating back to February 
1, 2006. I'm glad, as I know many Americans are, that the 
potentially tainted meat will not make it to our families' 
kitchen tables.
    But this recent incident raises larger questions about 
whether it was an isolated event involving just one plant or 
part of a more widespread problem in our meat packing industry. 
All indicators, Mr. Chairman, lead one to conclude the latter. 
Investigations by the Government Accountability Office and the 
U.S. Department of Agriculture Inspector Generals reveal 
serious concerns with regard to the way that we regulate the 
meat packing industry. The time is long overdue for us to 
strengthen practices at the USDA and to explore new methods of 
oversight such as video surveillance.
    To be sure, the recent incident at Hallmark/Westland Meat 
Packing Co. is nothing new. The 2001 book, Fast Food Nation, 
reported that similar conditions with regard to downed cows are 
present at meat packing plants across the country. Not since 
Upton Sinclair's eye opening 1906 book, The Jungle, have we 
seen such widespread concerns raised about our Nation's food 
supply.
    Mr. Chairman, our response today must be just as aggressive 
as it was back then. So I look forward to the testimonies of 
today's witnesses, and I yield back.
    Mr. Kucinich. Thank you very much, Mr. Cummings, for your 
statement. I appreciate the presence of the Members here. Mr. 
Issa is expected momentarily. As ranking member he will be 
entitled to an opening statement.
    If there are no additional opening statements, the 
subcommittee will now receive testimony from the witnesses 
before us today. So I want to start by introducing our first 
panel.
    I want to start by introducing our first panel. Dr. Richard 
Raymond was first appointed as Under Secretary for Food Safety 
in 2005. In this position Dr. Raymond is responsible for 
overseeing the policies and programs of the Food Safety and 
Inspection Service [FSIS]. He chairs the U.S. Codex Steering 
Committee, which provides guidance to U.S. Delegations to the 
Codex Commission. Prior to joining USDA, Dr. Raymond served as 
the Director of the Nebraska Department of Health and Human 
Services Regulation and Licensure Division, where he oversaw 
regulatory programs involving health care and environmental 
issues. A life long resident of Nebraska, Dr. Raymond practiced 
medicine in rural Nebraska for 17 years.
    Mr. Stan Painter is the chairman of the National Joint 
Council of Food Inspection Local Unions that is affiliated with 
the American Federation of Government Employees [AFL-CIO].
    The National Joint Council represents some 6,000 
nonsupervisory inspectors who work for the Food Safety and 
Inspection Service of the U.S. Department of Agriculture. He 
has been an FSIS inspector for nearly 23 years and served as 
the chairman of the Joint Council for nearly 5 years. Prior to 
coming to work for FSIS, he worked in the poultry processing 
industry for 3 years.
    Linda--and how do you pronounce that?
    Ms. Shames. Lisa Shames.
    Mr. Kucinich. Shames. Linda Shames is the GAO's Director 
for Food Safety and Agriculture Issues. In that capacity she 
oversees GAO evaluations on livestock health, USDA and FDA 
oversight and management capacity, farm program payments, 
agricultural conservation and many other issues. Last year she 
managed the designation of the Federal Oversight of Food Safety 
on GAO's high risk list. She has worked at GAO since 1978.
    Dr. Temple Grandin has worked as a consultant to the meat 
industry for over 30 years. She has either designed animal 
handling equipment or worked on training employees for many 
major meat companies. She's also a professor of animal science 
at Colorado State University, where she teaches a course on 
livestock handling and is author of the American Meat Institute 
Guidelines. She has received numerous awards for her work in 
animal welfare groups. Some of her awards are from the American 
Meat Institute and the Humane Society of the United States. She 
is author of the New York Times best seller on animal behavior, 
livestock handling and slaughter, called Animals in 
Translation.
    Thank you for appearing to the subcommittee today. It is 
the policy of the Committee on Oversight and Government Reform 
to swear in all witness before they testify. I would ask that 
all the witnesses please rise.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect the witnesses answered 
in the affirmative.
    I'm asking that each of the witnesses give a brief summary 
of their testimony. I would ask that you keep in mind that your 
entire written statement will be included in the hearing 
record, but try to keep your summary under 5 minutes in 
duration. And so I would ask you to watch the clock, because 
sometimes these machines are not the most effective. We're 
going to start with Dr. Grandin who has some flight 
obligations, and we want to take note of that and we'd like you 
to be so kind as to begin with your testimony. Please stay 
close to that mic so everyone can hear you. Please proceed.

  STATEMENTS OF DR. TEMPLE GRANDIN, PROFESSOR, COLORADO STATE 
   UNIVERSITY; DR. RICHARD RAYMOND, UNDER SECRETARY FOR FOOD 
SAFETY, FOOD SAFETY AND INSPECTION SERVICE, USDA; STAN PAINTER, 
  CHAIRMAN, NATIONAL JOINT COUNCIL OF FOOD INSPECTION LOCALS, 
 AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES; AND LISA SHAMES, 
      DIRECTOR, GAO, NATURAL RESOURCES AND THE ENVIRONMENT

                STATEMENT OF DR. TEMPLE GRANDIN

    Ms. Grandin. Thank you very much. I feel honored to be 
here. I have worked with the meat industry for over 30 years as 
an industry consultant and in the last 18 years as professor of 
animal science, and I have seen a lot of changes. When I first 
started out in the industry in the 1970's, 1980's and early 
1990's, things were really bad. And I want to add that video at 
Hallmark just made me absolutely sick.
    One of my biggest frustrations as an equipment designer is 
getting people to operate equipment correctly. Good equipment 
gives you the tools for good handling, but you have to have the 
management to go with it.
    In 1996, the USDA hired me to do a survey of practices in 
over 20 plants in the United States, and only 30 percent of the 
big plants were able to stun 90 percent of the cattle on the 
first shot. That's just absolutely atrocious.
    The No. 1 problem was maintenance. They just didn't take 
care of the equipment. In 1999, McDonald's Corp. and Wendy's 
and Burger King--I don't know if Burger King was in 1999 but 
Wendy's and McDonald's was--hired me to institute their 
auditing program and I used the objective scoring system that I 
originally developed for the USDA.
    The thing is we need to get much more even enforcement and 
have clear standards. I mean right now what does excessive prod 
use mean? That's not clear. One person's excessive prod use 
would be you'd use it on a few animals, another person's 
excessive prod use would be to poke every pig once with it, 
there is too much variation. You can read the entire objective 
scoring system in my testimony handout, but it measures 
outcomes of bad practices, animals can fall down because the 
floor is slippery or they are too old or they've been handled 
roughly and they have been poked too many times with prods.
    I want to address the issue of announced versus unannounced 
audits. In the beginning when we started, like in 1999, 2000, 
it didn't make any difference because plants didn't know how to 
behave. Today plants know what they are supposed to be doing so 
they can behave well during an audit and sometimes the auditors 
have gotten paid not so well. And basically I have found 
there's kind of two different sectors in the industry, ones 
that behave well all the time and ones that don't. And where 
you have the problem is mainly in the handling.
    I do want to add that the overall--there has been an 
overall improvement trend since the early 90's. When we 
implemented the McDonald's and Wendy's audits there was big 
improvements compared to what we had before. I can remember 
working night shift on the plants and it was just four broken 
stun guns out there. I mean that was the enforcement. It was 
disgusting.
    I want just to overview some of my experiences with using 
video. One of my first experiences was around 20 years ago at a 
pork plant. They installed a closed circuit camera over the pig 
shoot area with a TV down in the manager's office. And they 
know that people are watching all the time. Then a few years 
ago another one of the plants had their own internal audit 
system--internal video camera system, and when I did prod 
scoring I was standing there. It was lower than when I was 
looking through the video camera.
    I want to just end up very quickly because some kind of 
buzzer is going off.
    Mr. Kucinich. Listen, that's--you have a couple more 
minutes.
    Ms. Grandin. That's what I figured. I figured I had a 
couple more minutes.
    Mr. Kucinich. That buzzer is not for you.
    Ms. Grandin. Oh, OK, OK. But on the--the stunning score 
stayed about the same between the video and being--that's so 
dependent on the maintenance of the equipment, but the prod 
score went up some. Now I want to add it didn't go back to the 
bad old days of the 1980's and early 1990's. I have done some 
consulting with Arrowsight, on their over-the-Web video 
auditing.
    I just want to conclude that I recommend that the USDA work 
on more objective scoring, preferably some numerical scoring 
systems so we get more even enforcement because how does an 
inspector interpret excessive prod use. And there are some 
management people that need oversight, and there are a lot of 
good people out there that do a really good job of running 
their plants.
    And I'm really sorry that I do have to go to the airport. 
There are 500 people waiting for me in Atlanta, waiting for me 
tonight, and they would be very upset if I didn't show up. I'm 
going to have to do written questions. I am going to give you 
my phone number if someone wants to call me, (970) 229-0703, 
and leave a message so I can call you back. I'm really sorry I 
have to go to the airport. I had to jam this hearing in between 
two other engagements.
    I thank you for having me.
    [The prepared statement of Ms. Grandin follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.004
    
    [GRAPHIC] [TIFF OMITTED] T1700.005
    
    [GRAPHIC] [TIFF OMITTED] T1700.006
    
    [GRAPHIC] [TIFF OMITTED] T1700.007
    
    Mr. Kucinich. First of all, thank you. We appreciate you 
being here. We understand you have to go. We will give you 
written questions and we will need your response, and we do 
appreciate very much your presence here and your testimony, 
which is very important and will be included in the record of 
the hearing.
    Ms. Grandin. And how soon will I be getting the written 
questions?
    Mr. Issa. 5 legislative days.
    Mr. Kucinich. You will get the questions at the beginning 
of next week.
    Ms. Grandin. OK, good.
    Mr. Kucinich. If you need to leave right now.
    Ms. Grandin. I probably do need to leave right now. I don't 
want to get caught behind the Popemobile.
    Mr. Kucinich. What we're going to do, we have a vote on, 
but we're going to defer to the ranking member of the 
committee, who we are pleased to have with us, Congressman Issa 
from California. He's going to make his opening statement and 
then when we return after the votes, welcome back to continue 
the statements. So Mr. Issa.
    Mr. Issa. I thank the chairman and thank you for holding 
this bipartisan committee hearing, and I apologize, one of my 
other committees required that I be there for a bit.
    This issue hits very close to home for me. Chino, CA, where 
Hallmark is located, is very near my district.
    Ensuring safety of our public food supply is critical and 
not just to our Nation, but we lead the world in food safety. I 
know that some people have noted the European Union's food 
safety standards, but when it comes to delivering consistently 
edible food safely and at the lowest price we do lead the 
world.
    America's the No. 1 supplier of food around the world and 
there's a good reason, we do have stringent health standards 
and the most advanced agricultural technology in the world.
    Having said that, for these reasons that are among others 
Hallmark is a matter that is particularly disturbing to me. Let 
me make this very clear, there can be no excuse, no 
rationalization for not having the very best food safety 
regulations obeyed. More importantly as a technology leader 
here and around the world, there is no excuse not to employ 
modern technologies to further leverage food safety.
    I'm aware of the 2004 GAO report indicating that incomplete 
and inconsistent inspection records made it difficult to 
monitor enforcement. Certainly when it comes to recordkeeping 
the government has spent enough that we should be able to do it 
among the best. The Inspector General of the Department of 
Agriculture noted in December 2007 that some of the issues the 
GAO raised in 2004 were every bit as relevant as they had been 
then.
    I do not want to prejudge the outcome of this hearing, but 
to me it is clear that the inspection program and the process 
has failed and will continue to fail unless Congress takes an 
appropriately close eye at it. We must get to the root cause of 
this failure.
    Do we have more inspectors than we did 20 years ago? We 
certainly have more people, more livestock and more need. Have 
the number of inspectors increased as our population has 
increased? That's a self-known answer. Has the number of 
inspectors increased as the food supply has increased? How many 
inspectors do we employ overseas? And I say that because it's 
not just lead based paint being put onto toys that comes into 
America and can represent a poison, but in fact an amazing 
amount of imported foods.
    One of the most important issues is what is the current 
level of technology that we are using? Do we employ cameras? 
And what other technologies could we use that are available or 
that are at our expense or leveraged expense could we develop? 
I'm aware that there are IT systems involved that may not be 
functioning in the best way possible today. We need to do more 
and we need to do it now.
    It is unclear that our food supply standards are keeping 
pace with advances being made in other sectors, such as safety 
standards for toys and pharmaceuticals. The highest food 
standards must be our first priority. This committee on a 
bipartisan basis I believe will ensure and insist that both 
sufficient personnel and sufficient and appropriate technology 
be brought to bear to solve these problems and to make America 
once again not just the safest in the world, but the safest 
that it can be.
    With that, I yield back and thank the gentleman.
    Mr. Kucinich. I want to thank my colleague for his opening 
statement, which does reflect that there is no space between us 
on these issues and we are working together.
    At this point the committee is going to recess. We'll 
probably be back in a half hour.
    Mr. Issa. A little less, maybe.
    Mr. Kucinich. Or a little less. We have a number of votes, 
25 minutes to a half hour. The committee stands in recess. I 
would ask our witness to please be back here, and we are about 
to get into an even more interesting phase in this hearing, 
thanks.
    [Recess.]
    Mr. Kucinich. The House has concluded its business for the 
day, so the committee hearing can be expected to continue from 
this point on uninterrupted. The witnesses are already sworn 
and we are going to return to your testimony. I will repeat 
that I would ask that your testimony be kept to 5 minutes or 
less in duration, your full statement will be included in the 
record of the hearing.
    I would ask Dr. Raymond to begin. Thank you, sir.

                STATEMENT OF DR. RICHARD RAYMOND

    Dr. Raymond. Thank you, Mr. Chairman and members of the 
subcommittee, thank you for having me here today. I am Dr. 
Richard Raymond, Under Secretary for Food Safety at the U.S. 
Department of Agriculture.
    While there are a number of agencies at the Department 
working together on the Hallmark/Westland matter, the agency 
for which I have responsibility is the Food Safety and 
Inspection Service. We are the public health regulatory agency 
responsible for ensuring that domestic and imported meat, 
poultry, and processed egg products are safe, wholesome and 
accurately labeled. The agency enforces several longstanding 
Federal acts that relate to these foods that are outlined in 
our submitted testimony.
    Like many Americans, I was appalled by the Humane Society's 
video which was released on January 30th. Immediately upon its 
release Secretary Schafer called for an investigation into the 
matter. The USDA's Office of the Inspector General is leading 
that investigation with support from FSIS and the Agricultural 
Marketing Service. This investigation is ongoing, and in the 
meantime FSIS has implemented a series of interim actions to 
verify and analyze humane handling activities in federally 
inspected establishments.
    I remain confident in the safety of U.S. food supply, and 
to help ensure its safety we take a number of steps to prevent 
food borne illnesses. The agency currently employs over 9,000 
personnel, including 7,800 full time in plant and other front 
line personnel to protect the public health in approximately 
6,200 federally inspected establishments nationwide. Agency 
personnel must be continuously present for slaughter operations 
to provide ante-mortem, or before slaughter, inspection for all 
animals and carcass-by-carcass inspection after slaughter, and 
they must also inspect processing plants at least once per 
shift per day. To protect against exposure to bovine spongiform 
encephalopathy, or Mad Cow Disease, the Federal Government has 
an interlocking system of safeguards, as explained in detail in 
my submitted testimony, the most important of which for the 
protection of human health is the removal of specified risk 
materials which is confirmed by our inspection work force.
    When we learned of the problems at Hallmark, we took 
immediate steps to determine if the allegations made public by 
the Humane Society of the United States were accurate. We 
suspended inspection at that time on February 4, 2008, based on 
our findings that the establishment failed to prevent the 
inhumane handling of animals at the facility as required by 
regulations and by the Humane Methods of Slaughter Act.
    It is important to note that certain cattle while 
ambulatory when they pass the ante-mortem inspection, may 
become nonambulatory from acute injury or another circumstance. 
Regulations in effect since January 2004 require that if such a 
situation occurs our public health veterinarians must inspect 
the animal again and determine if the animal did indeed suffer 
from an acute injury before that animal is permitted to go to 
slaughter, otherwise the animal is condemned.
    Evidence from the ongoing investigation demonstrates that 
over the past 2 years this plant did not always notify the 
public health veterinarian when cattle became nonambulatory 
after passing the ante-mortem inspection as required by our 
regs. This failure by Hallmark is what led to the company's 
February 17, 2008 voluntary recall and its subsequent request 
for withdrawal of inspection.
    I would like to stress that the establishment's failure to 
notify the FSIS inspector was not as some of have implied as a 
result of a shortage of inspectors at Hallmark. There were no 
impact vacancies at that establishment during these 2 years, 
and time spent on humane handling activities as verified by the 
humane activities tracking system [HATS] as we know it, was 
reasonably constant over that period of time at about 90 
minutes per day.
    Overall as of March 29, 2008, our nationwide vacancy rate 
in slaughter and processing establishments was 6.1 percent. For 
fiscal year 2007 the agency requested and received additional 
appropriation to hire 184 additional inspectors, and by October 
27, 2007, we achieved a net gain of 194 inspection personnel, 
surpassing the goal of 184 for which the President had 
requested this budget increase.
    This particular plant had five assigned full-time 
inspectors. There were three on-line inspectors, one public 
health veterinarian and one off-line inspector. Over the last 3 
years they inspected over 370,000 cattle and carcasses and they 
condemned 4.6 percent, or nearly 1 out of every 20 cattle that 
went to this plant were condemned either ante- or post-mortem 
to protect the public's health.
    While it is extremely unlikely that this recalled meat 
product posed any risk to human health, the recall action was 
deemed necessary because the establishment didn't fully comply 
with our regulation.
    The USDA has taken a number of steps to strengthen our 
humane activities inspection system. We have temporarily 
increased the amount of time allocated per shift by inspection 
program personnel to verify humane handling activities. The 
agency is also conducting surveillance activities to observe 
the handling of animals outside the approved hours of operation 
from vantage points both within and adjacent to the official 
premises and also doing more observation without being 
observed.
    FSIS has conducted the reported humane handling 
verification audits at all 18 federally inspected beef 
slaughter establishments that as of March 2008 were under 
contract and were actively participating in the USDA's Federal 
food assistance programs. We will continue to audit additional 
establishments based on priorities that have been established 
by the agency.
    In conclusion, I want to state that FSIS is committed to 
improving its approach to inspection to focus on public health 
and risk. We will make the necessary changes after our 
increased surveillance is completed, our audits concluded, and 
the results of the OIG investigation are available to us.
    Again, I thank you for the opportunity to appear before you 
today and I look forward to taking your questions.
    [The prepared statement of Dr. Raymond follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.008
    
    [GRAPHIC] [TIFF OMITTED] T1700.009
    
    [GRAPHIC] [TIFF OMITTED] T1700.010
    
    [GRAPHIC] [TIFF OMITTED] T1700.011
    
    [GRAPHIC] [TIFF OMITTED] T1700.012
    
    [GRAPHIC] [TIFF OMITTED] T1700.013
    
    [GRAPHIC] [TIFF OMITTED] T1700.014
    
    [GRAPHIC] [TIFF OMITTED] T1700.015
    
    [GRAPHIC] [TIFF OMITTED] T1700.016
    
    [GRAPHIC] [TIFF OMITTED] T1700.017
    
    [GRAPHIC] [TIFF OMITTED] T1700.018
    
    [GRAPHIC] [TIFF OMITTED] T1700.019
    
    [GRAPHIC] [TIFF OMITTED] T1700.020
    
    [GRAPHIC] [TIFF OMITTED] T1700.021
    
    [GRAPHIC] [TIFF OMITTED] T1700.022
    
    [GRAPHIC] [TIFF OMITTED] T1700.023
    
    [GRAPHIC] [TIFF OMITTED] T1700.024
    
    [GRAPHIC] [TIFF OMITTED] T1700.025
    
    [GRAPHIC] [TIFF OMITTED] T1700.026
    
    Mr. Kucinich. Thank you very much. The Chair recognizes Mr. 
Painter.

                   STATEMENT OF STAN PAINTER

    Mr. Painter. Good afternoon, Chairman Kucinich.
    Mr. Kucinich. If you could speak closely to that mic, thank 
you.
    Mr. Painter. Good afternoon, Chairman Kucinich, Ranking 
Member Issa and other members of subcommittee. My name is Stan 
Painter. I'm the chairman for the National Joint Council of 
Food Inspection Locals that is affiliated with American 
Federation of Government Employees, AFL-CIO. The National Joint 
Council represents some 6,000 nonsupervisory inspectors who 
work in the Food Safety and Inspection Service of the U.S. 
Department of Agriculture. We are the inspection work force 
that enforces the provisions of the Federal Meat Inspection, 
Poultry Products Inspection and Egg Products Inspection Acts to 
ensure that consumers receive safe, wholesome and unadulterated 
products under USDA jurisdiction. I welcome the opportunity to 
share our views on four important points, the Hallmark/Westland 
recall, letting the system work when dealing with FSIS 
violations, employee intimidation and inspector shortages.
    One, Hallmark/Westland recall. The recent recall of some 
143 million pounds of beef products from Hallmark/Westland Meat 
Co. in Chino, CA, the largest recall in USDA history, is an 
event that we hope will shed some light on the deficiencies 
under the current inspection process. It highlights one of the 
problems that we have attempted to raise with the agency ever 
since 1996, when the Hazard Analysis and Critical Control 
Points [HACCP], inspection was put into place.
    As I show in my written testimony, in the Hallmark/Westland 
event it points out an inspection system that can be gamed by 
those in industry who want to skirt the law. There have been 
some who have argued that since there were five inspection 
personnel assigned to the plant how did this happen. That is a 
good question, and I hope the investigation being conducted by 
the USDA's Office of Inspector General produces some answers, 
but the bottom line is that plant management creates a culture 
for those employees to skirt around emphasized regulations. 
They can usually find a way do it because the inspection 
personnel are usually outnumbered.
    I also hope that the investigation explores what the agency 
management did know about the possible past violations at this 
plant, because it would not be the first time that the agency 
sat on information about regulatory violations and did nothing 
about it.
    Letting the system work when dealing with violations. My 
members are very passionate about their jobs. Consumer 
protection is the first thing that we think about when we go to 
work every day. We are trained to enforce the various laws and 
regulations under FSIS jurisdiction. When we see a violation we 
are trained to document and write noncompliance reports. 
However, in practice this does not always occur. It frustrates 
me and many of my members when we are told by our supervisors 
to let the system work when we see violations of FSIS 
regulations and we are instructed not to write noncompliance 
reports in order to give companies a chance to fix the problem 
on their own. Sometimes even if we write noncompliance reports 
some of the larger companies use their political muscle to get 
those overturned at the agency level or by going to the 
congressional delegation to get this inspection staff to back 
off.
    As a result of the agency data base not--as a result, the 
agency's data base may not contain accurate information about 
the compliance history of meat and poultry plants because of 
pressure being applied not to write them up for violations, 
employee intimidation. Some of the members have been 
intimidated by agency management in the past when they came 
forward to try to enforce regulations and policies.
    I will give a personal example. In response to the December 
2003 discovery of BSE in a cow in Washington State, FSIS issued 
a series of interim final rules in January 2004 to enhance the 
safety of the beef supply. Among those new regulations included 
the ban on meat from downed animals from entering the food 
supply and the removal of the SRM, Specified Risk Material, 
from slaughtered cattle over the age of 30 months before the 
meat of these animals could be processed and enter commerce.
    In late 2004, I became aware and received reports that new 
SRM regulations were not being uniformly enforced. I wrote a 
letter to Assistant Food Administrator Field Operations at the 
time conveying to him what I had heard. On December 23, 2004, I 
was paid a visit at my home in Alabama by an FSIS official who 
was dispatched from the Atlanta regional office to convince me 
to drop the issue. I told him I would not. Then the agency 
summoned me to Washington, DC, where agency officials subjected 
me to several hours of interrogation, including wanting me to 
identify the sources of the information on the SRM removals. I 
refused to do so.
    I was then placed on disciplinary--under disciplinary 
investigation status. The agency even contacted the USDA Office 
of Inspector General to explore the possibility of filing 
criminal charges against me. Those charges were never filed. 
Both my union, AFGE, and the consumer group Public Citizen 
filed separate Freedom of Information Act requests in December 
2004 for the noncompliance records in the data base that would 
support my allegation. It was not until August 2005 after 1,000 
noncompliance reports weighing over 16 pounds were turned over 
to both AFGE and Public Citizen. These reports proved that the 
information received was correct and that some beef slaughter 
facilities were not complying with the SRM regulations.
    Consequently on the same day that the records were released 
I received written notification from the agency that they were 
dropping their disciplinary investigations into the actions, 
some 8 months after the investigation began. While I was 
completely exonerated of this incident, it caused a chilling 
affect on others in my bargaining unit to come forward and 
stand up when agency management is wrong.
    Inspector shortages. As you know both the Federal Meat 
Inspection Act and the Poultry Product Inspection Act require 
that FSIS provide continuous inspection in meat and poultry 
facilities in the operation. Continuous inspection has come to 
mean that in slaughter facilities FSIS inspectors must be 
present at all times and to provide carcass-by-carcass 
inspection.
    In processing facilities FSIS inspectors must visit plants 
at least once per shift. Unfortunately, we are experiencing 
severe inspector shortages in many parts of the country and the 
agency would seem to be very aware of those shortages.
    In July 2007, the consumer group, Food and Water Watch, 
submitted a Freedom of Information Act request that the agency 
asking for in plant-inspection personnel vacancy data by FSA's 
district for the 2007 fiscal year. Food and Water Watch 
received this response in October 2007. While the data shows 
some progress in filling inspection vacancies, it also shows at 
the end of 2007 fiscal year FSIS was short 800 plant inspection 
personnel, running a 10.25 percent national vacancy rate. There 
was also wide variations in vacancy rates among the FSIS 
districts, ranging from 6.03 in the Jackson district to a 
whopping 21.25 percent in the Atlanta--excuse me, Albany 
district.
    These are not our numbers. These are the agency numbers. 
These shortages are putting consumers at risk because FSIS 
inspectors are not able to do a thorough job in inspecting meat 
and poultry products because there is not enough of us to do 
it.
    In closing, I thank you for your attention and would be 
happy to answer any of your questions.
    [The prepared statement of Mr. Painter follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.027
    
    [GRAPHIC] [TIFF OMITTED] T1700.028
    
    [GRAPHIC] [TIFF OMITTED] T1700.029
    
    [GRAPHIC] [TIFF OMITTED] T1700.030
    
    [GRAPHIC] [TIFF OMITTED] T1700.031
    
    [GRAPHIC] [TIFF OMITTED] T1700.032
    
    [GRAPHIC] [TIFF OMITTED] T1700.033
    
    [GRAPHIC] [TIFF OMITTED] T1700.034
    
    [GRAPHIC] [TIFF OMITTED] T1700.035
    
    [GRAPHIC] [TIFF OMITTED] T1700.036
    
    [GRAPHIC] [TIFF OMITTED] T1700.037
    
    [GRAPHIC] [TIFF OMITTED] T1700.038
    
    [GRAPHIC] [TIFF OMITTED] T1700.039
    
    [GRAPHIC] [TIFF OMITTED] T1700.040
    
    [GRAPHIC] [TIFF OMITTED] T1700.041
    
    [GRAPHIC] [TIFF OMITTED] T1700.042
    
    [GRAPHIC] [TIFF OMITTED] T1700.043
    
    Ms. Shames. Chairman Kucinich----
    Mr. Kucinich. I thank the gentleman. I just want the make 
sure the record reflects that Ms. Shames' first name is Lisa. 
And thank you very much for proceeding.

                    STATEMENT OF LISA SHAMES

    Ms. Shames. Chairman Kucinich and members of the 
subcommittee, I am pleased to be here today to discuss three 
issues, FSIS recordkeeping related to the Humane Methods of 
Slaughter Act [HMSA], challenges that FSIS faces, and more 
generally the Federal oversight of food safety.
    First, concerning FSIS recordkeeping, in 2004 we reported 
that it was difficult to determine the extent of humane 
handling and slaughter violations. We were told that some 
inspectors did not always document violations because they were 
unsure about regulatory requirements. In addition, FSIS could 
not provide a complete set of records for the period we were 
reviewing and the records that were available did not 
consistently document the scope and severity of the violations. 
For example, some cited ineffective stunning but did not 
provide additional information on the cause or number of 
animals affected.
    We also reported that FSIS took inconsistent enforcement 
actions. For example, in one case a plant's operations were not 
suspended after 16 violations related to ineffective stunning. 
In contrast, another plant's operations were suspended when it 
failed to provide access to water and to maintain acceptable 
pen conditions.
    In response, FSIS has taken actions and issued additional 
guidance. Among other things, this guidance clarifies the 
categories for the types of causes of violations to be 
reported. It also provides examples of egregious inhumane 
treatment that would warrant immediate enforcement. However, we 
have not assessed how effectively the guidance is being applied 
in day-to-day operations.
    Central to the purpose of today's hearing, greater 
transparency in the meat industry, is that in 2002 the Congress 
urged the Secretary of Agriculture to report annually on HMSA 
violations and trends. However, FSIS last reported to the 
Congress in March 2003. At that time FSIS indicated there were 
very few infractions related to humane handling and slaughter. 
However, our review of the records arrived at a different 
finding. Whereas, FSIS sampled about half of the noncompliance 
records, we reviewed them all and found that one-fourth 
documented ineffective stunning.
    I should note that in the last few years USDA has provided 
some information at the request of House and Senate 
Appropriation Committees as part of their budget process.
    Second, regarding challenges, unlike the budgets of other 
Federal agencies responsible for food safety, FSIS has seen a 
marked increase since 1988, from $392 to $930 million. When 
adjusted for inflation the increase is about 47 percent. 
However, the number of FSIS employees has declined since fiscal 
year 1995 by 4 percent. Agency officials attribute this overall 
decline in part to industry consolidation. Vacancy rates for 
its inspectors have declined to about 4 percent. But two 
districts, Boulder and Des Moines, reported vacancy rates of 
about 22 and 11 percent respectively.
    During my site visits last week to two slaughterhouses in 
Colorado, veterinarians told us that they were stretched thin 
and often had to backfill for the inspectors. On a positive 
note FSIS staff levels are estimated to grow in 2008.
    As a backdrop the quantity of meat and poultry inspected by 
FSIS has increased over the last 20 years from 65 to more than 
100 billion pounds. This is due mostly to the expanding poultry 
market. In addition, while the number of recalls has declined 
from 125 to 58 in the last 5 years, the quantity of meat and 
poultry recalled has sharply increased. Further, two of the 
biggest recalls in U.S. history occurred in the last 6 months 
at Tops and Westland/Hallmark Meat Companies.
    Third, regarding the Federal oversight of food safety, 15 
agencies collectively administer at least 30 food safety laws. 
This fragmentation is a key reason we designated the Federal 
oversight of food safety as a high risk area that needs 
governmentwide reexamination. Over the last 30 years we have 
reported on inconsistent oversight, ineffective coordination, 
and inefficient use of resources.
    Most noteworthy for today's hearing is that Federal funds 
have not kept pace with the volume of foods regulated or 
consumed by the public. We have reported that USDA receive most 
of the Federal food inspection funds even though it's 
responsible for about 20 percent of the food supply. In 
contrast, FDA received about a quarter of the funds, even 
though it is responsible for regulating about 80 percent of the 
food supply.
    Taken as a whole, now is the time to look across agency 
programs. To that end GAO has recommended, among other things, 
comprehensive and risk based food safety legislation, a 
reconvened President's Counsel on Food Safety and a 
governmentwide performance plan.
    In conclusion, FSIS must assure the Congress that animals 
are being handled and slaughtered humanely. In view of the 
challenges FSIS faces, public reporting, including the annual 
reports urged by the Congress, is in the public interest and 
promotes transparency and government operations.
    This concludes my statement, and I would be pleased to 
respond to any questions.
    [The prepared statement of Ms. Shames follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.044
    
    [GRAPHIC] [TIFF OMITTED] T1700.045
    
    [GRAPHIC] [TIFF OMITTED] T1700.046
    
    [GRAPHIC] [TIFF OMITTED] T1700.047
    
    [GRAPHIC] [TIFF OMITTED] T1700.048
    
    [GRAPHIC] [TIFF OMITTED] T1700.049
    
    [GRAPHIC] [TIFF OMITTED] T1700.050
    
    [GRAPHIC] [TIFF OMITTED] T1700.051
    
    [GRAPHIC] [TIFF OMITTED] T1700.052
    
    [GRAPHIC] [TIFF OMITTED] T1700.053
    
    [GRAPHIC] [TIFF OMITTED] T1700.054
    
    [GRAPHIC] [TIFF OMITTED] T1700.055
    
    [GRAPHIC] [TIFF OMITTED] T1700.056
    
    [GRAPHIC] [TIFF OMITTED] T1700.057
    
    [GRAPHIC] [TIFF OMITTED] T1700.058
    
    [GRAPHIC] [TIFF OMITTED] T1700.059
    
    [GRAPHIC] [TIFF OMITTED] T1700.060
    
    Mr. Kucinich. Thank you very much for your testimony. We 
are now going to proceed with questions, and I would like to 
begin with Dr. Raymond.
    Dr. Raymond, USDA has said publicly and repeatedly that the 
animal handling abuses and other violations documented at 
Westland/Hallmark were an aberration, an isolated incident. Is 
that your testimony today as well?
    Mr. Raymond. Mr. Chairman, as I mentioned in my testimony, 
we have done audits of the 18 plants that were contracted to 
provide food to the Federal programs and we have increased our 
surveillance in plants that also slaughter. And that's been 
going on for about 45 days now, the increased surveillance. 
When we did the audits, we found no evidence of this type of 
egregious behavior fortunately. We did suspend inspection in 1 
of the 18 plants because of repeated failures of adequate 
stunning. That plant has corrected that problem and is now 
operating again.
    In the increased surveillance that we have done, we have 
suspended inspections as a result of that, partly as a result 
that. We haven't suspended inspections in 22 plants so far this 
year. That's compared to 12 plants last year, but again they 
were for situations such as inadequate pens, inadequate 
stunning, etc. None of them were for the egregious behavior 
that we saw in those videos from Hallmark.
    Mr. Kucinich. Is it true that there's more than 600 plants 
worth looking at, not just 18.
    Mr. Raymond. The 18 that I referenced were the plants that 
were contracted in March to provide food to the school lunch 
program and other Federal programs. We are doing audits in all 
of the plants and we are doing them systematically based on the 
type of--the priorities we've established. For instance, the 
old cull cows which are at the highest risk of inhumane 
handling, the next set of plants we'll audit, we'll go through 
every single one of our slaughter plants, yes, sir.
    Mr. Kucinich. Isn't it true that the USDA conducted two 
audits at Westland/Hallmark in the past 3 years, one in 2005 
and again in 2007, and that the 2005 audit cited minimal 
infractions; namely, that the client used his electronic prod 
excessively. The plant responded that the excessive use was due 
to lack of battery power in the equipment and immediately 
rectified this shortcoming. That's what we were told. Isn't 
that true?
    Mr. Raymond. That is true. There are also some other 
shortcomings in the 2005 audit.
    Mr. Kucinich. And in the 2007 audit isn't it true that the 
audit noted no infractions and instead gave Westland/Hallmark 
glowing reports?
    Mr. Raymond. We noted no infractions and I don't know if I 
would use the word ``glowing'' but we noted no infractions, 
yes, sir.
    Mr. Kucinich. And yet only a few months later the Humane 
Society investigation revealed that the USDA's findings were a 
dismal reflection of the underlying reality at Hallmark/
Westland?
    Mr. Raymond. When we do the audits, sir, there are nine 
specific areas we look at and then the overall system effect. 
If we had seen this egregious behavior going on, of course they 
would not have passed audit, they would not have had inspection 
the rest of that day. We did not see that behavior going on. 
The rest of the humane handling that we do enforce includes 
safety, the pens, adequate water, shelter from inclement 
weather.
    Mr. Kucinich. You--at a press briefing we had Dr. Kenneth 
Petersen saying that the FSIS believes this to be an isolated 
incident of egregious violations of human handling requirements 
and prohibition of non-ambulatory disabled cattle from entering 
the food supply. This was said somewhat prematurely, wasn't it?
    Mr. Raymond. I believe the egregious behavior that we saw 
on those tapes was isolated. We are doing the increased 
auditing to confirm that. We do not need to--perhaps it was 
slightly premature to say that until we completed our audits 
and our increased surveillance.
    Mr. Kucinich. Those statements were made prior to the 
completion of an audit?
    Mr. Raymond. Yes, sir.
    Mr. Kucinich. And so I want to go to Mr. Painter.
    You are head of the union of USDA inspectors; is that 
correct?
    Mr. Painter. Yes, sir.
    Mr. Kucinich. I want to ask you the same question. Are the 
animal handling abuses and other violations documented at 
Westland Hallmark an aberration, an isolated incident?
    Mr. Painter. I'm of the opinion, no.
    Mr. Kucinich. Why or why not?
    Mr. Painter. Because the agency has a policy enforced 
across the Nation and were allowing and not only allowing, were 
requiring plants to police themselves.
    Mr. Kucinich. You are--repeat that.
    Mr. Painter. Yes, sir. I'm saying that I do not believe 
this is an isolated incident. The reason I'm stating this is 
because of the HACCP program, Hazard Analysis and Critical 
Control Program, where the agency has turned a lot of the 
process over to the plants.
    Mr. Kucinich. Is the agency sitting on regulatory 
violations?
    Mr. Painter. Excuse me. I'm sorry, would you repeat that, 
please?
    Mr. Kucinich. You made an assertion in your opening 
statement that it wouldn't be the first time the agency sat on 
information about regulatory violations and did nothing about 
it.
    Mr. Painter. That's--that's the truth.
    Mr. Kucinich. And what do you have to base that on?
    Mr. Painter. Yes, sir. That was based on information that 
came to me back in the fall of 2004 regarding SRM violations. 
And the--ones I brought this to the agency's attention, the 
agency didn't want to admit there was a problem, placed me 
under personal misconduct investigation for some 8 months, and 
then finally produced over 1,000 documents actually stating 
exactly what--what I had said. I see one of two things going 
on. Either they knew it or they didn't know it. If they knew 
it, they skirted the problem. If they didn't know it, then they 
have a lot of explaining to do to Congress and the consumer 
public.
    Mr. Kucinich. Can you cite any information from your 
recollection, discussions that you've had with any of your 
members with respect to noncompliance reports being written and 
companies using, as you state in your remarks, political muscle 
to get noncompliance reports overturned at the agency level?
    Mr. Painter. Yes, sir. I actually experienced that myself.
    Mr. Kucinich. Tell me about that.
    Mr. Painter. I have--I held product for an entire run one 
night at a processing facility. I tagged the product, I 
documented that noncompliance through NNR, and the plant called 
their Congressman and worked through congressional channels to 
get that product released.
    Mr. Kucinich. And what happened as a result? You cited a 
violation and you're saying that there was no enforcement 
because an effort was made that was political in nature?
    Mr. Painter. Correct.
    Mr. Kucinich. Did that have an effect on the enforcement, 
that there was a lack of enforcement consequently?
    Mr. Painter. Well, it was told to me in the future, you 
know, if this is the kind of process that's going to take 
place, you know, if you see this in the future don't even 
bother with it because it is going to go through the same steps 
and be released.
    Mr. Kucinich. So is it possible that inspectors could be 
discouraged from doing their job if they think there will be 
political influence overruling their judgment?
    Mr. Painter. Yes, sir, most definitely.
    Mr. Kucinich. This committee is very interested in any 
document that you want to provide us with respect to--with 
respect to what you've just said and with respect to any of the 
other individuals who you are working with who have had their 
inspections, data essentially overruled by what you described 
as political interference. We take that very seriously and we 
are going to need more information.
    My time for asking questions has concluded on this round. 
We're going to go to another Member, but we're going to come 
back for one more round of questioning on this panel. I will go 
to Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    You know, I think your line of questioning was a very good 
start and hopefully I will just follow on. Dr. Raymond, an 
answer that I asked for and was given from I believe USDA's 
legislative person earlier tells us that in 1988 there were 
7,600 Federal inspectors covering 6,900 establishments. Today 
there's approximately 7,800 covering 6,200 establishments. Seem 
about right?
    Mr. Raymond. Yes, sir.
    Mr. Issa. So about a 25 percent increase in population and 
probably pretty proportional increase in consumption--perhaps 
from our waist lines we consume a little more than 
proportional--we haven't kept pace. The number of workers 
clearly has not increased proportional to the population or to 
the amount of food we consume. Would that be fair to say?
    Mr. Raymond. Yes.
    Mr. Issa. And then if we assume that the reason is because 
you are leveraging technology and efficiencies, what are those 
technologies and efficiencies that would allow us to believe 
that part of the problem isn't simply not enough eyes on the 
process?
    Mr. Raymond. Yes, sir. First of all, I would preface my 
response by saying of course we do not base the number of 
inspectors on the population of the United States. That would 
obviously not be a wise thing to do.
    Mr. Issa. How about the population of the cattle, pigs and 
chickens passing through the process?
    Mr. Raymond. Yes, sir. What we have seen over the last 20 
years is more of the meat and the poultry products passing 
through larger plants where there are efficiencies of scale. 
That 6,900 establishments that were present 20 years ago, if 
you look at our records you will probably find that most of the 
closures have been very small plants located primarily in very 
rural areas. That was our--as Mr. Painter will tell you, a lot 
of inspectors have plants, many plants that they inspect in 1 
day, sometimes too many plants in 1 day due to inspector 
shortages. I think that was in his written testimony. And so if 
you have an inspector going to four plants in a day and driving 
between each one of those plants, that inspector is spending a 
lot of time on the road that we are paying for, but it's not 
doing anything for the safety of the food supply. If one of the 
four plants closes its doors, we're not going to need--that 
inspector can do a better job in the three plants that are 
left. So when we lose those plants it is not necessarily 
technology, it is the fact that there is less travel time and 
inspectors spend more time in the plants.
    Mr. Issa. I appreciate that.
    Mr. Painter, if we assume that there is for all practical 
purposes a 1:1 ratio, one inspector per plant, it is slightly 
better than that, but only slightly better, 1\1/2\ per, and we 
assume people have vacation, they have sick leave, they have 
training days, by the time you get through the available on any 
1 day, there is probably less than 1 inspector per plant per 
day in any way, shape or form available. Is it sufficient, 
particularly in line with such things as forklifting a live 
animal in what certainly did not seem to be an appropriate way 
from my watching the video? Is there any way you can do 
anything about that if you don't have cameras or some other 
kind of data collection system? If in fact there's only one or 
less inspector that can have eyes anywhere in a plant no matter 
how large or efficient it is, you still only have one inspector 
per day at the most at a plant.
    Mr. Painter. Ranking Member Issa, we currently have at 
least one visit per day in processing. Slaughter operations are 
different, but you know you're going to have--in most slaughter 
operations you're going to have three stations, you're going 
have the head and the viscera and carcass station. So like in 
the Westland/Hallmark situation, of the five people that were 
there for inspection three of them were tied up every single 
day on the slaughter line. That's required by law. A carcass-
by-carcass and bird-by-bird inspection is required by law. And 
if there is a shortage, if someone is out as you mentioned due 
to vacation or what have you and there is no one available to 
take their place, that floor person has to go, that would 
normally be in a position to go to the yard, you know, have 
full range of the plant, things of that nature, would have to 
go to the line. That would only leave one person on the floor 
to do all animal mortem, to do all floor work, and to give the 
required breaks and the necessary breaks that the inspectors 
would actually need on the line.
    And you know, we have had some locations, especially the 
Northeast, that one inspector would be assigned 21 facilities 
to go to. And I don't care if they are right across the street 
from one another, you know, you cannot physically go to 21 
facilities in a day. The agency has said well, we assigned 
those people that job to do, so therefore that position was 
covered.
    Mr. Issa. And I'm hoping for a second round, but on that 
round if I could just do a little followup. Technology in 
addition to more human beings, let's just assume we gave you 
enough people to have one inspector on each shift in each plant 
without leveraging additional eyes, sensors, capability, 
essentially other things do the checking and you check the 
checking. If we don't do that, is there any way that you can 
quantumly improve inspection to where you can say that events 
such as the forklifting of a cow aren't occurring? And I say 
this as someone who has been a manufacturer and ultimately our 
entire process had to depend on our quality assurance people 
being able to essentially train and trust people down the line 
and then just check them. Don't you have a situation in which 
today two sets of eyes, no matter even if you had 10 of them in 
a plant there are things they are not going to see, don't you 
need a quantum leap in the tools available to your inspectors 
if we are going to begin to assure the public that these things 
aren't going to go on?
    Mr. Painter. Certainly I think that the agency and Congress 
needs to explore different ways of doing and looking at things. 
It was mentioned about video surveillance, and the question 
that I would have would be who would then do the video 
surveillance and who would maintain the cameras? We work in an 
environment that is extremely hot, it's extremely cold, and 
it's extremely wet. Could the video cameras survive in that 
kind of arena?
    But that is not going to show direct product contamination 
that you would be looking for. That would not show product 
contact surfaces that a person could physically go and look and 
see and feel and be aware of what is happening.
    But as far as the process with the humane slaughter, 
certainly anything that would give us a position to be able to 
monitor more closely would be helpful. Because I worked for 
industry prior to becoming an FSIS inspector, and I see it even 
today. Plants have radios, and they radio ahead and say the 
inspector is coming. They tell when we're coming through the 
gate that the guardspeople are told to notify the 
superintendent that we are on the way.
    Mr. Issa. Ms. Shames, perhaps, from your perspective, is 
any of this something that from you past inspections that you 
think you could weigh in on?
    Ms. Shames. Certainly from our 2004 report we would want to 
look at the noncompliance records and to see if, in fact, the 
guidance that FSIS issued subsequent to our report was actually 
taking some traction and, in fact, if there has been more 
consistency and more thoroughness in the recording. And the 
other thing we would be looking for is what USDA and FSIS in 
particular is doing with that data to see if there are any 
trends in terms of the violations, the causes, to then be able 
to take any remedial action.
    Mr. Issa. Thank you, and I look forward to another round. 
But, Mr. Chairman, I certainly think that this is a great non-
gotcha type of hearing, one in which we are trying to figure 
out and get answers to how we can improve safety, and I think 
that is the most important thing this committee can do.
    Mr. Kucinich. Thank you very much.
    The Chair recognizes the distinguished gentlelady from 
California, Diane Watson.
    Ms. Watson. Mr. Chairman, I want to thank you also for 
holding this important hearing, one of the largest beef recalls 
in American history.
    I'm interested in knowing, do we have to have an Inspector 
General, Mr. Painter, come in and see if--say we had a video--a 
video process where we could look in and see what is happening 
on any normal day. Would we need something like that? Because 
I'm going to associate it to the fact that we were over in 
Korea and we were trying to establish free trade. Well, they 
didn't want our beef because of mad cow; and I'm thinking they 
really aren't going to want it when they find out that--some of 
the processing and the tainted meat that is in these plants.
    So I was sitting here listening to your testimony, the two 
of you, and hoping that we could find a way, Mr. Chairman, to 
enforce the transparency so we would not have to depend on 
these, shall I say, spared visitations and the fact that I 
understand that we are under supply of inspectors. And so would 
we have to have some group come in to oversee?
    Mr. Painter. Yes, ma'am. I am of the opinion, yes. Because, 
like I said earlier, someone to be there to physically see what 
is going on. Because I look at plant documentation, and then I 
go into the plant. And you may have some trivial things 
documented, a person that wasn't wearing a pair of gloves, you 
know, and which may be a plant policy.
    When you go into the plant and you may see beaded 
condensation directly over product, you may see--you may find 
fragments of metal and ice that go directly onto the product. 
And certainly that is something that could not be detected 
under video surveillance, those types of direct product 
contaminations and the monitoring of surfaces as well for 
direct product contact.
    If someone knew they were under the eyes of a camera 
regarding the video surveillance of the monitoring of the 
antemortem pens, I think that would certainly help and 
certainly be a deterrent. But I don't think it would totally 
take the place of someone physically going to actually do the 
antemortem to make sure that what is going on is going on.
    I think we saw from the video a lot of these cattle came in 
on the trailers, that they were actually trained to get off the 
trailers, that they were, you know, trying to get them to stand 
by using the batons, to hit them in the eyes and prodding them 
and, you know, and the cattle just screaming. And, you know, it 
is like if I could get up, I would. And, you know, if something 
cannot physically get up, you know, that--money in my opinion 
is the driving factor.
    Ms. Watson. Let me ask Dr. Raymond. What would you think 
about video surveillance and some overall agency like the 
Inspector General taking a look on a random basis?
    Dr. Raymond. First of all, the Inspector General, of 
course, is taking a look. It is obviously not random. They are 
taking a very long and thorough look at what did transpire at 
the Hallmark/Westland meat company to try to figure----
    Ms. Watson. Yeah, that one meat company.
    Dr. Raymond. As far as video cameras, they are used by the 
industry voluntarily. I can't tell you to what degree of the 18 
plants that we did the audits that----
    Ms. Watson. What would you think about compulsory----
    Dr. Raymond. Pardon?
    Ms. Watson. What would you think about compulsory?
    Dr. Raymond. I would like to defer giving you my answer 
until we are done with our----
    Ms. Watson. I mean, what would you think about it? You 
know, I know you're looking into it, but what would you think 
about having video, you know, surveillance in all these plants?
    Dr. Raymond. I think it would be very expensive to do it 
right.
    Ms. Watson. Oh, so you're going to look at--what about the 
technology of it? Are you looking at the cost only?
    Dr. Raymond. No, no, ma'am. But it is not as simple as a 
camera. If you're going to do 24-hour----
    Ms. Watson. I know all that. But what would you think about 
having surveillance? I just want to get your opinion. Is it a 
good way to monitor?
    Dr. Raymond. Human eyes are a good way to monitor, also; 
And if the human eyes are working well in the other 800 
establishments----
    Ms. Watson. I asked about video surveillance.
    Dr. Raymond. Pardon?
    Ms. Watson. I asked you about video surveillance.
    Dr. Raymond. I don't think video surveillance can replace 
the human factor. The human factor can detect things that video 
surveillance cannot.
    Ms. Watson. OK. And I understand that we are short 
inspectors and the agency now, FSIS, is spread too thin at this 
particular time; is that true?
    Dr. Raymond. No, it is not, ma'am. Last year we asked for 
and received $27.4 million so we could hire an additional 184 
inspection work force. At this time, we are above that number. 
In fact, in December, we were plus 220 inspectors from where we 
had been the year before. We recognized the shortage last year, 
and we came to you, and we asked for help, and we got the help. 
And within about 6 months, we had hired those additional 184 
inspectors, which I do believe gives us an adequate work force.
    At the current time, we do have a vacancy rate of 
approximately 6.1 percent. That is the lowest it has been since 
I have been here, and we are continuing to hire.
    Ms. Watson. These are the eyes you're just talking about. 
Can these eyes do the kind of inspection that can catch the 
tainting of the cattle and the mishandling and the working 
below the standards? Do you have enough eyes now to do that?
    Dr. Raymond. In this particular plant, we had five full-
time inspectors. We had no vacancies. We are trying to figure 
out how this could happen.
    Ms. Watson. No, not just that plant but the Food Safety and 
Inspection Service within the Department of Agriculture. Do you 
have an adequate number now?
    Dr. Raymond. Yes, we do.
    Ms. Watson. All right. And they are not stretched too thin?
    Dr. Raymond. There are instances where we have temporary 
shortages that they are stretched thin. Yes, I will acknowledge 
that. Our goal is to avoid that.
    Ms. Watson. OK. Do you think that--we're trying to look for 
solutions; and if you will work with us on that, it would be 
very helpful. Do you think video surveillance, then, can 
complete that? If you do have vacancies, then we can use video 
surveillance. Would that help out?
    Dr. Raymond. At the current work force that we have today, 
it would not. Because someone would have to spend their time 
looking at that camera instead of doing some of the other 
things----
    Ms. Watson. Yeah, that's what I'm saying. You know, I 
mentioned--I opened up and said, do we need an oversight agency 
like the Inspector General called in?
    Dr. Raymond. And they are our oversight agency, and they do 
do audits on a very regular basis of the Food Safety and 
Inspection Service.
    Ms. Watson. Everything is fine? We don't even need to 
bother about this issue is what I'm hearing you say?
    Dr. Raymond. No, ma'am. I said----
    Ms. Watson. And you don't need anymore personnel?
    Dr. Raymond. I said in my testimony that we are looking for 
ways to always do better at the job that we do to guarantee----
    Ms. Watson. That's what I'm trying to get you to help us 
with.
    Dr. Raymond. And you did, when I asked for $27.4 million so 
I could hire----
    Ms. Watson. So we have everything we need now. I am 
wondering how Hallmark and Westland meat packing got into the 
condition they are in if we have everything we need.
    Dr. Raymond. We are wondering that, too, ma'am; and that's 
why we are waiting anxiously for the OIG audit report to tell 
us how this could happen.
    Ms. Watson. I think my point is being addressed. And I'll 
just explain to you, Mr. Chairman, I think that we need some 
way to look at video surveillance to be used at the behest of 
some agency. Because I don't think that there are enough 
inspectors or they are inspecting regularly enough. I mean, 
there is an expose on television all the time, and it is really 
worrisome to me in terms of our food supply.
    I see my red light on. But, anyway, I'd like us to discuss 
that maybe at another time.
    Mr. Kucinich. I think the gentlelady.
    The Chair recognizes Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    You know, one of the things that concerns this subcommittee 
and the Congress, actually, is that we are seeing what I call a 
culture of mediocrity when it comes to the trust that--I mean, 
when it comes to various agencies. We see it--I sit on the 
Transportation Committee. We see it in the aviation folk who 
are supposed to be inspecting planes, and they inspect some and 
don't inspect others, and the ones they do inspect, they let 
them fly. We have seen problems at the FDA. We have seen--when 
it comes to accountability, this very committee has seen a lot 
of problems with the spending in Iraq.
    And, you know, the problem is that in Covey's book--Steve 
Covey's book entitled The Dispute of Trust, he talks about how 
when people lose trust, it slows the processes down.
    And I have to tell you that when it comes to--I mean, while 
our--you know, our Agriculture Department, the USDA, may be 
doing the right things. Sadly, because of what we have seen in 
this case and a few others, that trust is evaporating. And when 
you think about something as massive as meat on dinner tables 
and when you just think about just the supermarkets that sell 
meat, the idea that we have to wonder about whether that meat 
is fit for human consumption is a major, major, major, major, 
major problem.
    So, Ms. Shames, when the GAO investigated the practice by 
the USDA in 2004, in a report entitled, ``Humane Methods of 
Slaughter Act, the USDA has Addressed Some Problems but Still 
Faces Enforcement Challenges.'' That is a long title. But can 
you describe for us what recommendations GAO made in that 
report and which of the recommendations were followed by the 
USDA?
    Ms. Shames. We made six recommendations in that report, and 
they generally fell into two categories. The first category of 
recommendations was to try to encourage that the reporting on 
FSIS's part be more consistent and more detailed. So we 
recommended that there be categories of violations to then 
better be able to track what was going on. Because we had found 
that there were inconsistencies.
    We also suggested in another set of recommendations that 
FSIS come up with a means to determine the resources that it 
needed.
    In response, as I said in my statement, FSIS has issued 
some guidance. They have put in place information systems that 
are to track the time that inspectors are spending on humane 
activities. That was mentioned by Dr. Raymond. HPSD is one of 
those systems.
    One recommendation that I feel is outstanding is that we 
recommended that FSIS do a needs assessment in terms of the 
work force that it needs. We have been talking in the aggregate 
in terms of whether or not FSIS has full staffing. That really 
ought to be disaggregated and look in terms of the 
veterinarians that it has, the food inspectors, as well as the 
consumer safety inspectors. USDA data show that there are 
pockets with some high vacancy rates, and that is something 
that really I think needs to be done on a wholesale matter. 
Again, it gets back to human capital challenges that are 
typical for many Federal agencies.
    Mr. Cummings. Now, let me make sure I'm clear what you're 
saying. You said there were two categories. And I guess your 
concerns came in that second category; is that right? Did you 
have concerns in the first category?
    Ms. Shames. The first category, guidance was issued. But 
the caveat with that is that we haven't gone back to assess how 
effectively that guidance is being applied. It is one thing to 
issue the guidance. It is another thing to make sure that it 
becomes inculcated in day-to-day operations.
    Mr. Cummings. And how would that normally be done? Because, 
see, you are getting to the very point that I just made. We can 
put out all the regulations, put out all the laws we want, but 
if we don't have anybody enforcing it, we might as well--I 
mean, we might as well not write them. Is that what you are 
basically saying?
    Ms. Shames. Yes.
    Mr. Cummings. I'm sure you would have said it better than 
what I said it.
    Ms. Shames. No, sir.
    Mr. Cummings. So this piece, this second piece, the 
second--that you just talked about a moment ago about the 
personnel, how significant is that? In other words, you talked 
about having--needing personnel. I mean, how important is that? 
You talked about veterinarians.
    Ms. Shames. It is absolutely critical. Because these are 
the individuals that are really looking at the extent to which 
animals are being treated humanely. It looks to the extent that 
they are being slaughtered humanely. And, ultimately, it gets 
to inspecting the meat as it is being processed. These people 
are on hand to see what is going on as operations continue, so 
it really is something that requires, you know, onsite 
supervision, onsite presence.
    Mr. Cummings. I see my time has run out. But just one other 
thing. In 2000--this report came out in 2004; is that right?
    Ms. Shames. Yes.
    Mr. Cummings. And so you mean these recommendations or 
these requests that you just talked about that fall into two 
categories, you mean to tell me that, in 3 or 4 years, they 
have not been carried out to the satisfaction of GAO?
    Ms. Shames. That is not completely accurate.
    Mr. Cummings. Well, make it completely accurate.
    Ms. Shames. FSIS has implemented action in response to five 
of the six recommendations, and GAO has closed them out. In 
other words, we felt that the action was responsive to our 
recommendations. There is still one open one. We've been 
discussing with FSIS the actions that we have taken. We're 
still evaluating to determine if that was really in the full 
spirit of----
    Mr. Cummings. And what was that you're still evaluating?
    Ms. Shames. It is the last recommendation, and let me read 
it to you. Is that FSIS periodically assess whether the 
staffing level is sufficient to effectively enforce the Humane 
Methods of Slaughter Act.
    Mr. Cummings. And can you tell us whether you can assess 
whether USDA's response to your recommendations have been 
adequate? So you said you closed them out. Does ``close them 
out'' mean, you know, you got 100 percent and I give you an A? 
Or does it mean that we think you tried, but we are not sure, 
but we know you tried? What does that mean?
    Ms. Shames. To close out a recommendation is that an agency 
was responsive. We don't give any credit for trying or for 
wanting to do something. In our evaluation, the agency was 
responsive to what we wanted. We do not close out 
recommendations if it is not clear to us that it was fully 
implemented or that they took one step but not carry it out to 
the degree that we expected.
    Mr. Cummings. And that is where the No. 6 recommendation 
that you just talked about formed?
    Ms. Shames. Yes.
    Mr. Cummings. All right. Thank you.
    Mr. Kucinich. Dr. Raymond, did you testify today that you 
believed those bad practices at Westland/Hallmark were an 
aberration? Did you not say that?
    Dr. Raymond. I said we were doing enhanced surveillance in 
all of our slaughter plants, and we're doing the audits to try 
to determine for sure that was an aberration. I do not believe 
I said----
    Mr. Kucinich. Were they an aberration or not? Were they or 
were they not an aberration, the practices at Westland/
Hallmark?
    Dr. Raymond. I know of no other plants that have had that 
type of activity, but we are trying to determine to make 
certain that was an aberration, sir.
    Mr. Kucinich. Mr. Painter, did you testify that you believe 
that the violations evidenced at Westland/Hallmark were not an 
isolated incident? Did you say that or did you not?
    Mr. Painter. I'm of the opinion, yes, that is correct.
    Mr. Kucinich. Now, members of the committee, it is 
troubling to hear two different answers. What is the American 
public to think when they hear that the top management of the 
regulatory agency says one thing, while the head of the 
inspectors of that regulatory agency says another? Mr. Painter.
    Mr. Painter. I would say, with all due respect, that Dr. 
Raymond is not in touch with the field; and as I have worked in 
the field and I continue to work in the field, with all due 
respect, I don't think he is in touch with the field.
    Mr. Kucinich. Dr. Raymond, let's go to the May 2007, audit 
and discover what serves as a basis for your previous opinion 
that Westland/Hallmark was in compliance with humane animal 
handling laws. How much of the May 2007, audit's findings and 
conclusions is based on direct observation by USDA auditors and 
how much is based on assertions made by plant's management?
    Dr. Raymond. The auditing was there for the full day; and 
observations were made of the handling of, I believe, 100 head 
of cattle. Observations were made in improvements that were 
made in the safety of the pens based on recommendations from 
the previous audit. Some observations were made of stunning--
inadequacy of stunning. There were also--you know, there was 
input from the plant regarding some paperwork that is required 
that we did review. We were there for just that 1 day, sir.
    Mr. Kucinich. Let's get into this a little bit more. Let's 
talk about some specific findings.
    The audit notes that, ``per establishment managers, all 
employees who handle livestock get humane training at least 
monthly.'' Again, per establishment managers. However, in a 
conversation with subcommittee staff, the Humane Society 
undercover investigator said he never received any formal 
training. Instead, a plant manager gave him an employee 
handbook and an informal run-through the materials which lasted 
about 5 minutes. So, Dr. Raymond, were your auditors right to 
believe what plant management reported or were they not right 
to believe what plant management reported?
    Dr. Raymond. They had no evidence or reason at that 
particular time to not believe what the plant reported to them.
    Mr. Kucinich. Was it sufficient to base their assessment on 
the assertion of the plant management? Is that sufficient?
    Dr. Raymond. Our assessment was of the humane handling 
system of that plant and the physical plant. Our assessment 
does not involve how many hours or how much detail is spent in 
training the employees. It is the outcome. It is the results 
that we are interested in.
    Mr. Kucinich. Now, isn't it true that the video makes it 
indisputably clear that Westland/Hallmark violated Federal law?
    Dr. Raymond. Yes, it does, sir.
    Mr. Kucinich. Now, a picture is worth a thousand words; 
and, in this case, the words of plant management weren't worth 
very much, were they?
    Dr. Raymond. That's correct, sir.
    Mr. Kucinich. So, in light of this, you should be able to 
answer confidently that FSIS inspectors should have done more 
to determine compliance, rather than just take management's 
word for it. Is that or is that not correct, Dr. Raymond?
    Dr. Raymond. In the May audit, there was no evidence of any 
inhumane animal handling that we found at the time of the 
audit. And so to assume plant management is telling the truth, 
I think you have to have an element of trust.
    Mr. Kucinich. Are you saying that the circumstances in May 
and November are not related, then?
    Dr. Raymond. No, I'm not, sir. But I'm--of all the audits 
that we do, of all the plants that we are in, for all the 
reasons that we are, we have to have a working relationship 
with plant management. We have to have an element of trust, but 
we are there to verify that trust. In this case, we were--we 
did not verify that we shouldn't be trusting them, and we're 
trying to find out why that happened.
    Mr. Kucinich. Mr. Painter, trust--you're an inspector. 
When--can inspectors just go to the plant, and the plant says 
trust me?
    Mr. Painter. We are to work with the plant to meet 
regulatory compliance, but the plants are there to make a 
profit. We are there to regulate the people. And, as I 
testified to earlier, what you see in the plant does not look 
like their documentation. So, you know----
    Mr. Kucinich. What does that mean, then? If it doesn't look 
like their documentation, what are you suggesting?
    Mr. Painter. Their documentation, if any, will show minimal 
or trivial issues, nothing that would be major, nothing that 
would get them shut down, nothing that would produce major 
violations.
    Mr. Kucinich. Do they know you're coming?
    Mr. Painter. Oh, without a doubt. I have physically been 
standing by a supervisor in a plant before, and I am hearing 
the radio, beware, Stan is coming your way.
    Mr. Kucinich. If you show up announced, is that any 
different than if you show up unannounced?
    Mr. Painter. Well, I was trained as an inspector that you 
do two things. No. 1, you be consistent on your calls. If you 
call a violation today, you call it tomorrow. And you be 
inconsistent on your visits. But we--especially in processing 
facilities, we are one person, and they have radios, and the 
supervisors, you know, let each other know when you're coming 
when you come in the door.
    Mr. Kucinich. So if they know when you're coming, they can 
talk together and say, hey, watch what you are doing when the 
inspectors are here? Does that happen?
    Mr. Painter. Yes, it happens. It happens often. And, as I 
said earlier, I worked for industry prior to becoming an--
becoming an FSIS employee and, you know, I kind of know the 
inside workings of the plant operations.
    Mr. Kucinich. These May and November incidents, are they 
comparable? The May incident, November incident that this 
committee has been talking about, are they comparable?
    Mr. Painter. I'm sorry. Could you be more specific, please?
    Mr. Kucinich. Let me go on. I want to talk about the--given 
your extensive experience at slaughterhouses--the USDA audit 
notes that, per establishment managers, if a nonambulatory cow 
is on a trailer and arrives at night, it is euthanized in its 
place by an establishment employee. However, the undercover 
investigator explained to my staff, in many instances, that 
downer cows were stacked on one side of the truck, that were 
dragged off--and that were dragged off the truck, rather than 
euthanized. What do you have to say about that?
    Mr. Painter. That doesn't surprise me at all.
    Mr. Kucinich. Dr. Raymond, were plant managers telling the 
truth to your auditors?
    Dr. Raymond. No, they were not, sir.
    Mr. Kucinich. Let me point out another incident to you, Dr. 
Raymond. In a 2007 audit, the USDA notes that, per 
establishment managers, a number of changes have been made to 
address the non-compliance and concerns--that is about the 
excessive prodding--identified during a previous verification 
visit. In contrast, the undercover investigator told my staff 
he had personally witnessed the electric prods that were 
systematically, rather than exceptionally, used on animals 
while they are in the chute. Dr. Raymond, were the plant 
managers telling the truth to your auditors?
    Dr. Raymond. No, they were not, sir.
    Mr. Kucinich. So would you say that your auditors rely on 
assertions made by the management of the plant they are 
auditing to draw conclusions about compliance with the law? In 
other words, your enforcement of humane animal handling laws 
relies on the self-interested assertions of management of the 
plant that you are auditing; isn't that right?
    Dr. Raymond. No, It is not--it's not--no, it is not, sir. 
That's why we have the inspection work force in those plants on 
a continuous basis when the plant is operating, so we can 
verify what the plant is telling us.
    Mr. Kucinich. Mr. Issa.
    Mr. Issa. Dr. Raymond, I know your answers are not 
necessarily as somebody skilled in business practices and what 
is in the good--best interests of a beef slaughterhouse or any 
other kind of operation, but you certainly can appreciate a 
couple of things, and I'll run you through them, and if you 
feel uncomfortable answering them, just tell me.
    But whether it is bone chips, metal chips in hamburger or 
E. Coli in beef products, including hamburger, isn't it 
basically in the slaughterhouse's best interest to catch that? 
I mean, essentially, there is nothing to be gained by sloppy 
work that leads to large-scale recalls or shutdowns of their 
facility on a net basis, wouldn't you say?
    Dr. Raymond. Absolutely. And the great majority of our 
slaughterhouses and processing plants would agree with you, 
also.
    Mr. Issa. Although I have never visited this 
slaughterhouse, I have been to the one in Brawley in the 2003/
2004 timeframe. It is a co-op unit but very large. And, you 
know, I was impressed. I had worked for a rabbi growing up in 
Cleveland in a very small slaughterhouse and, by definition, 
attempting to be humane. And--but I was impressed with the 
professionalism, the chemicals, their cleaning cycles, 
everything they did to try to make sure that, on a 24-hour 
cycle basis, they delivered absolutely safe meat products.
    Can we and should we as a government either assist them in 
some way or mandate them in some way that they improve the 
tools at their disposal so that, in fact, they can catch these 
problems?
    And I'm going onto the food safety for a moment and leaving 
humane for a moment. But these large-scale recalls, 
particularly of hamburger, although it is not your area, the 
widespread recall of spinach last year--or year before last--in 
which we knew or should have known where it came from and yet 
we recalled it all, aren't these all signs that the Federal 
Government needs to intervene at some level to assist or to 
promote behavior that is in their best interest?
    Dr. Raymond. Yes, sir. And I do believe that we actively do 
intervene with the industry, sometimes through recommendations, 
sometimes through rules and regs and sometimes through statute. 
And I find the industry for the most part to be very 
cooperative. They do want a safe product. They do not want the 
embarrassment or the cost of a recall, and they certainly do 
not want people getting sick from eating their product and 
losing confidence. As Mr. Cummings mentioned, confidence is 
important. It is not important when you keep reading about 
recalls.
    Mr. Issa. You know, I guess it was now a year before last 
when the tainted or E. Coli-tainted spinach was recalled. 
Although that is not your side of USDA. My understanding, we 
knew right down to the field based on the bags where it came 
from. And yet I was told there wasn't sufficient confidence in 
the data base to only recall that product but, rather, we 
recalled it all. And for several weeks there was no spinach 
available anywhere in America.
    On the government side, on your side of the house, can you 
say with confidence that wouldn't or shouldn't happen with meat 
products, that you can--you do have the tools you need or the 
industry provides the tools that would allow you to isolate 
these problems down to only the area of recall that needs to 
occur?
    Dr. Raymond. We aren't there yet. We're getting there. We 
are doing better. We have more tools now than we had a while 
back.
    The spinach was discovered because of something called 
PulseNet, which is a cooperative venture between the USDA, the 
FDA and the CDC. It used to be those were sporadic outbreaks, 
never linked to a farm in California.
    It is the same with beef. Oftentimes, we have a recall that 
is for 1 day's lot production or sometimes even just a portion 
of a day's production based on recordkeeping of the plants. 
Other plants, unfortunately, have recordkeeping that is less 
than stellar.
    An example would be the recall for Tops last year that went 
back for a whole year, and that was because of inadequate 
recordkeeping. When that happens in a plant, our confidence 
goes down, the recall gets big, and the plant generally closes.
    But, again, if you look at our recalls, you'll see many of 
them are for one production date from one plant. And we do the 
best we can, and we try to trace back from not only the 
processing plant that may have been in the hamburger, but the 
slaughter plant that provided the carcass that was contaminated 
with E. Coli as a result of the slaughter process. We try to 
get upstream and work with those plants, also. So sometimes 
there will be two recalls due to one product.
    Mr. Kucinich. Now, today, RFID chips can cost roughly a 
dollar a chip, but there are new technologies that have been 
publicized with a 10 cent RFID chip. Do you believe that this 
Congress and this government should start looking at that level 
of unique IDs so that in fact--we'll call it 10 cents a bulk 
package or perhaps even 10 cents an individual package--we can 
track with specificity a serial number that can be 
electronically checked right at the checkout register?
    Dr. Raymond. If you're talking about animal ID, at this 
particular time, animal ID, in the opinion of the USDA, is it 
is a voluntary program, and it is growing on a regular basis 
with a number of establishments.
    As far as establishing food as it goes through the chain to 
where it can be identified at the store where it was bought, I 
have seen that technology. I do not--I do not know that we have 
taken any particular position on that at this point in time.
    Mr. Issa. If you don't mind, when you go back, if you can 
see what additional thoughts you have on the feasibility. 
Because I'm very interested in whether or not the ID systems 
that, for example, UPS and FedEx use so successfully to tell 
you exactly which truck and which location, even down to a GPS 
coordinate your package is, it seems like if the private sector 
is doing that in one area, can we as the government implement 
it or cause it to be implemented so as to dramatically reduce 
the amount of a recall if, in fact, what we are talking about 
is one shift line, one part of 1 day?
    Dr. Raymond. We can look into that. I believe anything we 
can do to make recalls more efficient, more effective is good. 
I don't like recalls, but as long as we are going to have them, 
I want to make sure we do them better.
    We're having a 2-day summit in May where we'll bring all of 
our public health partners, the consumers and industry together 
to take a look at that specific topic. And we also, of course, 
as most everyone in this room knows, are trying to get a final 
rule to be published that would identify retail stores, the 
time of a recall; and I believe that would be another benefit 
to the consuming public.
    Mr. Issa. OK. Last question for me on this round.
    The test for E. Coli particularly, getting tests that are, 
if you will, more advanced, whether they are chemical, electro 
fiber optic, whatever, so that we can be looking right down to 
the meat slicer as it passes the assembly line, the whole 
process, how much--and I know that is not, per se, your exact 
line, but it is obviously symbiotic to you. How much of that 
should Congress be funding? How should we do it? How soon can 
we see, if you will, advancements that would allow us to know 
that food safety--essentially, that a food hasn't gone bad or 
hasn't been tainted in a more advanced way than we do today so 
that we could, you know, essentially get down to quality 
control, sort of like when you want to candle an egg to figure 
out, you know, whether it is good or not. Do we have that 
technology on the horizon and should we be contributing to that 
process?
    Dr. Raymond. That technology, sir, you do contribute to; 
and it is improving. The research service which is part of the 
USDA is doing extensive research in that area which Congress is 
funding. You're also funding us for the large amount of 
surveying that we do, the surveillance that we do through 
testing for listeria, monocytogenes, escherichia Coli 157:H7, 
salmonella, campylobacter and other pathogens and residues.
    When I say it is getting better, it wasn't too many years 
ago that it took at least 48 hours to turn around an E. Coli 
test. That is a long time for a plant to hold product, 
especially if it is a large plant that is making maybe a 
million pounds of ground beef a day. And that is product they 
have to have refrigeration for, and they certainly aren't 
selling it, and it is becoming less fresh on a daily basis.
    We now have that technology down to what we use is about 8 
hours. I have had industry come in and show me a 4-hour test 
that could be turned around. You know, if we can get to where 
we do that in the plant, then all plants should hold and test 
the product.
    We had 21 recalls last year for E. Coli, and 11 of those 
were for a product that tested positive. There were no 
illnesses associated with that we know of, but it was out in 
commerce, and we know that it tested positive. If we could get 
all plants to hold and test by having more rapid technology 
that could be done in plant, that is 11 recalls that aren't 
going to happen and that is 11 times the American public won't 
be exposed to that.
    So, yes, sir, you are helping us, and I thank you for that, 
and we are making progress.
    Mr. Issa. Thank you, Doctor. And I hope we can underline 
this part, that, in fact, if there is a 4-hour test we could, 
in fact, see 100 percent testing before hamburger and other 
appropriate meats leave the plant so that we would prevent, as 
you said, 11 recalls that occurred last year.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes Ms. Watson.
    Ms. Watson. Mr. Chairman, I was sorry that I was late 
coming in.
    But, Mr. Painter, when I came in, I thought I heard you 
talking about your personal experiences with the agencies and 
their treatment of whistle-blowers. And we don't have to go 
over all of that, but I think you said that the chilling effect 
of the inspection or the investigation of the whistle-blower 
allows bad practices to continue.
    And, Dr. Raymond, in speaking with you, you mentioned the 
cost when I talked about video surveillance. I'm curious to 
know why the focus would be placed more on the whistle-blowers 
than on the procedures that are used in these slaughterhouses. 
Why are the whistle-blowers investigated? You can't trust them 
or you feel that they are not really doing thorough inspections 
enough? What is going on there?
    Mr. Raymond. Well, Ms. Watson, this is one area where Mr. 
Painter and I do have a difference of opinion, although we 
agree on a lot of things, and I think we work together well. 
I'll give you some examples.
    Last year, we suspended 66 plants. That is 66 plants that 
didn't have inspections, so they could not process, could not 
slaughter. That is a huge economic impact on those plants. And 
that is because of the good work of our inspection work force 
that found reasons to suspend.
    Of those 66 suspensions, 12 of those were in slaughter 
plants for non--for inhumane handling practices. That is an 
inspection work force that is seeing something that is 
egregiously wrong and saying, we are going home. You're shut 
down for the rest of the day. Those cows in the pen, you'll 
have to find something else to do with them, because we're 
going home.
    And I don't believe the entire work force is cowering from 
us. I get regular e-mails from our work force telling me things 
they want to see done differently. I don't think they are 
afraid to e-mail me.
    I don't know Mr. Painter's experience back in 2004. I was 
not here then. He and I have talked about it.
    Ms. Watson. Let me see if I can make a distinction between 
those special forces and a whistle-blower. Do you make a 
distinction between the two? Is the whistle-blower in a 
different category than these special forces?
    Dr. Raymond. A whistle-blower is someone--I don't know the 
exact definition--but is someone that sees something that is 
wrong and wants to bring it to someone's attention who can 
correct it. And Mr. Painter used the example of inadequate 
removal of specified risk materials, of which there were 1,000 
noncompliance reports written out of 8 million procedures done 
that year. That is 1,000 times our inspectors saw a problem and 
wrote it up.
    As long as we want to talk about whistle-blowers, if Mr. 
Painter has evidence, as he has indicated, that there is 
egregious behavior going on in plants like we saw on this 
Hallmark, it is their obligation to bring that to our 
attention. So that is inhumane handling, and it is against the 
law, and we will act on it if it is brought to our attention.
    Ms. Watson. Mr. Painter, maybe you can help me understand. 
Because I hear a little difference between what is perceived as 
a whistle-blower and a special force. Can you help me 
understand the difference?
    Mr. Painter. Yes, ma'am. Not only in my case but in other 
cases as well, this agency has traditionally gone after the 
whistle-blower; and there is a definite distinction between the 
whistle-blower and the agency taking regulatory action on 
something, you know, based on noncompliance reports and things 
of that nature.
    You know, when you go directly to someone in Washington and 
tell them there is a problem and they don't want to look into 
the problem, they only want to investigate the individual--I 
went through 9\1/2\ hours of interrogation and interviews based 
on this issue; and, instead, the agency should have been out 
looking at the problem instead of trying to haul me in to 
interrogate.
    And there has been a number of people in the field that 
have said my inspectors that I represented, they say we don't 
want to have to be hauled into Washington to have to go through 
what you went through.
    Ms. Watson. What really bothers me--I'm a consumer born in 
the city. You know, I don't go out to slaughter plants, hardly 
know what a cow looks like except what I see on a milk carton, 
you know. But what does bother me--I watch a lot of television 
and get caught up--you know, there is always a revelation of 
what is going on in these places.
    And I really think our food supply is very vulnerable at 
this particular point. We talk about protection of our homeland 
from terrorists. Boy, if they can put a few of these people in 
our slaughterhouses and allow for poisoning and contamination, 
we are in real trouble; and, as a consumer, I think we need to 
really, really focus the light on this. So that is why I 
started off asking about video surveillance. To me, that is 
focusing the light on.
    And, Dr. Raymond, you said the cost. Well, you know, you 
have to choose priorities. That is what we do. We, the 
policymakers, have to set priorities in our budget; and I don't 
think there is any other higher priority than protecting the 
integrity of our food supply.
    If somebody sees something wrong and reports it, why would 
you spend all that time and money investigating the whistle-
blower and not the problem that the whistle-blower is 
identifying? Can you explain that to me? As I said, I'm an 
urban dweller. I don't know a lot about this.
    Dr. Raymond. I'll try to do it from a--coming from a 
slightly different angle.
    In this particular plant, Hallmark, in the largest meat 
recall in history, which I hated to be the undersecretary 
during that time, it was not about food safety. It was not 
about tainted meat. It was about a plant that did not follow 
the rules. And because the plant did not follow the rules, we 
took swift and decisive action and pulled the inspection from 
that plant; and, of course, it has since gone out of business. 
It was not about food safety. It was about rules and 
regulations. We had five inspectors there for food safety----
    Ms. Watson. Hold on. I need to understand. What are the 
rules and regulations? They all go to food safety, don't they?
    Dr. Raymond. In this particular----
    Ms. Watson. They all go to food safety, don't they? Yes or 
no?
    Dr. Raymond. I don't know that I would say yes.
    Ms. Watson. Why do you promulgate standards when you're 
working with food and they don't go to keeping that food safe, 
the integrity of that food?
    Dr. Raymond. The majority are for food safety. Some are for 
our workers' safety. Some are for--you know, for--the majority 
is for food safety, yes.
    Ms. Watson. So the product that they produce will be safe 
for consumers. I'm one of those consumers.
    Dr. Raymond. Yes, ma'am. So am I.
    Ms. Watson. So I think we are talking about the same thing. 
And if--OK, let me have you go ahead. I'm trying to really 
understand this.
    Dr. Raymond. If they did not follow our rules, it was a 
rule that was put there for food safety, yes, as part of an 
interlocking system which I will go into, if you would like me 
to. But, first, I really want to say this was a humane handling 
issue. It was not a food safety issue. Our inspectors----
    Ms. Watson. Humane handling is a food safety issue? Is 
humane handling of cattle a food safety issue? Humane handling?
    Dr. Raymond. Humane handling is--yes, it can be. Our five 
inspectors that were there were not only in charge of humane 
handling, but they are also there to make sure that the Federal 
Meat Inspection Act was being followed and that our rules and 
regulations were being followed.
    In the last 3 years, those inspectors condemned about 
16,000 cows that went into that plant because of very obvious 
food safety issues, diseases, tainted meat, etc. That is 1 out 
of every 20 cows that went in there did not enter the food 
supply that you and I would eat. On a very rare occasion there 
was a cow that did enter the food supply that had been examined 
by the veterinarian, was considered to be healthy enough to 
enter the food supply and then subsequently went down and did 
not get back up.
    And by our rules, the only way that animal can enter the 
food supply is that the veterinarian comes back out and 
determines there was an acute injury, and they did not follow 
that step, and that's what the recall was all about. It 
wasn't--it wasn't about the stuff that we saw on the video with 
those cows that were terribly old and terribly sick and 
terribly weak that were being terribly mishandled. Those cows 
did not go into our food supply.
    Ms. Watson. Well, taken as a whole, I would think that 
standards are a major part of the inspection to be sure we have 
a product out there that we believe has integrity. I think 
following standards--you've got to take this all as a whole.
    Mr. Painter, why do you think that you were under such 
interrogation for 8 hours? Was there intimidation involved?
    Mr. Painter. Most definitely, from the get-go, you know.
    Ms. Watson. Why?
    Mr. Painter. I'm sorry?
    Ms. Watson. Why?
    Mr. Painter. Like I said earlier, I have been with this 
agency almost 23 years; and, in my career, anytime that a 
person has blown the whistle regarding a problem, the agency 
has always, always gone after the whistle-blower. And I have--
you know, instead of looking at the problem, they go after the 
whistle-blower. And it seems to me that the reason--I can't--I 
can just speculate as to a reason why it is easier to shut that 
one individual up or a few individuals versus make a change 
nationwide.
    Ms. Watson. Because it might mean a matter of their profit, 
right?
    Mr. Painter. It could be for plants, correct.
    Ms. Watson. You know, I have really been concerned lately 
about the greed factor in this capitalistic system of ours in 
many other areas beside consumable goods, edible consumable 
goods. There is a greed factor. And the more I look at this--
and, remember, I'm the city girl. The more I look at this, the 
more I see that we are really not focusing on the integrity of 
the product that comes out of the slaughterhouse and we are 
looking on, you know, let's just keep things as they are, guys, 
and look the other way. That is what I'm hearing from you.
    Now if you want to try to narrow my perception and get it 
more along with yours, speak up. Because I'm hearing that we 
would rather protect these plants rather than the people that 
we send in to inspect them and we take that input and we start 
doing something about the problems.
    I'm horrified when I hear about these recalls, because I'm 
seeing how many thousands and ten thousands of consumers have 
taken these products believing that stamp on them means that 
they are OK. And what will the effect on whatever the product 
is, if it is edible, what is the effect going to be? And so I'm 
wondering how do they get by with this so long until somebody 
blows the whistle and they get caught.
    So what I'm hearing today is that the whistle-blower is the 
one that is looked at and intimidated and maybe the message 
there is that, you know, just keep still.
    Mr. Kucinich. The gentlelady's time has expired.
    Mr. Cummings.
    Mr. Cummings. I'm going to be very brief, but I have to 
tell you I'm confused. I mean, I have listened to this 
testimony, and I have tried to kind of put it together, and 
there is something wrong with this picture.
    On the one hand, we have our witness from the GAO talking 
about an employee problem; and I guess she is still trying to 
figure that out. And when I came in, Mr. Raymond, you were 
talking about how wonderful it is that you have all the 
employees you need and all the inspectors you need; is that 
right? Am I correct about that, Mr. Raymond? Do you have enough 
inspectors? You were ranting about it when I came in here.
    Dr. Raymond. Yes, we are always re-assessing our needs. But 
at this particular point in time, I feel confident in saying 
that we have the inspection work force that we need, sir.
    Mr. Cummings. And I'm looking at this report from Ms. 
Shames; and this is dated Thursday, April 17, 2008. And I'm 
looking in this report; and it says some very interesting 
things, Mr. Raymond. It says--on page 8, it says, while FSIS's 
budget authority has significantly increased since the late 
1980's, the number of SIS employees has declined. It is shown, 
in figure 2, for fiscal year 1995 to fiscal year 2007, the 
number of full-time employees at FSIS fell from 9,600 to about 
9,200, or 4 percent. Vacancy rates across FSIS have declined 
about 7 percent. OK. That is OK.
    Then let's go to page 10. It says, meat and poultry 
consumption in the United States has increased sharply. The 
quantity of meat and poultry inspected and approved by the 
agency has increased from about 65 billion pounds in 1988 to 
more than 100 billion pounds in 2007.
    And I'm just trying to figure out--on the one hand, Ms. 
Shames, you're saying that you question whether or not there 
are enough employees or you just haven't been given enough 
information yet.
    Ms. Shames. Right.
    Mr. Cummings. So you don't even--although you're sitting 
here today and Dr. Raymond is--is this your first knowledge 
that they have enough employees? I mean, has somebody told you 
all, GAO, we have enough employees before today?
    Ms. Shames. We were going by the data that was presented by 
the USDA in the government's budget, and those are the trend 
lines that we presented in the statement today.
    Mr. Cummings. You've got to keep your voice up. I'm sorry.
    Ms. Shames. I'm sorry. The data that we present in the 
statement today are from the U.S. budget. So these are actual 
figures that USDA has reported.
    Mr. Cummings. So help me, Dr. Raymond. Help me with this. I 
know I'm missing something.
    Dr. Raymond. First of all, sir, there are a lot fewer 
plants today than there were back in 1995, where this reference 
is to--that the GAO had made. A lot fewer plants, a lot more 
efficiencies, a lot larger plants. It doesn't take as many 
inspectors to do the poundage that goes through a large plant 
as it does inspectors to take care of very small plants where 
they have to travel from plant to plant to plant.
    Mr. Cummings. I want you to hold that thought right there. 
I don't want you to lose your train of thought. I want you to 
hold it.
    Because you've got sitting right next to you Mr. Painter, 
and he is shaking his head as if it is going to fall off. So I 
need to hear what he has to say, and then I want to hear your 
other points so I can hear what he has to say.
    Because this is what it is about. We are trying to get to 
the truth. Because people's lives depend on it. And I just want 
to hear the truth because we cannot solve a problem unless we 
know what we are dealing with. And there is something wrong 
with this picture. Something doesn't smell right. No pun 
intended.
    Mr. Painter. Yes, sir. And I appreciate you. My body 
language is hard to hide.
    Mr. Cummings. It is all right. You were dancing then.
    Mr. Painter. I can tell you where the money is going. The 
20 to 25 percent of the budget--I mean, 20 to 25 of the numbers 
the agency give you are management people. They are management 
people that are not doing any inspectional duties in the field.
    You know, a number of years ago, the first President Bush 
gave a mandate, cut numbers in Washington. They did. They just 
sent them all to Omaha, Nebraska, and developed a technical 
service center. And I would imagine President Bush's mindset 
was cut numbers, period. They just moved them. And, you know, 
we have basically one manager for every three field inspectors. 
That is where the money is going. The money is increasing, but 
every time the money increases, we see more managers.
    Mr. Cummings. And so what you are saying is you need more 
field inspectors?
    Mr. Painter. Yes, sir, that is correct.
    Mr. Cummings. And how did you come to that conclusion and 
why do you say that?
    Mr. Painter. Well, it is the agency's numbers. The agency 
just printed in a publication called the Beacon. It is a 
publication that comes out monthly, and it gives the breakdown. 
It gives the breakdown of how many field inspectors that you 
have. And in a recent publication of the Beacon, there were 
9,996 employees, and about 7,500 of those employees were field 
inspectors. So, therefore, approximately one-fourth of the 
agency is management people, which the field inspectors are--
about 75 percent of the field inspectors are GS-7s. You know, 
they start out as a 5, and after a year you go to a 7.
    And, you know, the agency first started the districts in 
1997, and there was a district manager and one deputy. Now in 
some locations you have as many as five levels of district 
managers at GS-14 and GS-15 pay making $100,000 a year. There 
is where the budget is going.
    Mr. Cummings. And I would take it that what we need is--and 
so if you had more field inspectors--and correct me if I'm 
wrong--we could do more inspections? Is that a conclusion--a 
reasonable conclusion?
    Mr. Painter. That is correct. For what we are paying one 
deputy district manager in a district office, we could hire 
about four field inspectors.
    Mr. Cummings. And that makes a big difference, doesn't it?
    Mr. Painter. It most certainty does, yes, sir.
    Mr. Cummings. All right. Now we are back to you, Dr. 
Raymond. Go ahead. I want to make sure that we stay on target 
here. I don't--you know, we just have one time to do this 
hearing, so I want to make sure we get all the information out.
    Dr. Raymond. Well, as I mentioned, there are a lot fewer 
plants now than there were. So that takes a lot fewer 
inspectors.
    Mr. Cummings. But does it take a lot more of these 
managers?
    Mr. Kucinich. Would the gentleman yield?
    Mr. Cummings. Yes. Of course.
    Mr. Kucinich. I just want to point out something to my 
colleague in light of the GAO report. The GAO report says that 
the quantity of meat and poultry inspected and passed by USDA 
has grown. So you might have less plants. People aren't eating 
less meat and poultry unless they are vegans. Now, Mr. 
Cummings, I just want to point that out, because that is quite 
germane to your line of questioning there. You know, I don't 
want to say that the gentleman is not forthcoming when he says 
that. But, you know, you have to admit that this report by GAO 
is correct when they are saying that the quantity is growing. 
You might have fewer plants, but you have more quantity.
    Dr. Raymond. Yes, sir. And the great majority----
    Mr. Kucinich. I yield back to the gentleman. Thanks.
    Mr. Cummings. Thank you.
    Go on, please. No, I want to hear this.
    Dr. Raymond. Of our plants that we have, about 2,500, 2,500 
are very small plants. These are plants of 10 or fewer 
employees. Another 2,500 are small plants. And then we have a 
small number, less than 1,000, that are large plants. But the 
large plants are becoming larger and more popular and more 
frequent.
    The very small plants are visited by a roving inspector 
once a day, once a shift; and they spend a lot of time on the 
road driving from plant to plant. So if you have four small 
plants that each are making 10,000 pounds of hamburger a day, 
that's 40,000 pounds of hamburger that is inspected by that 
inspector. If those four plants close and the big plant down 
the road starts slaughtering those few cows, that is just a 
little bit more ground beef out of the overall product that is 
done in that plant. It is more efficiencies----
    Mr. Kucinich. Will my friend yield one more time.
    Mr. Cummings. Of course.
    Mr. Kucinich. I want to share with my friend these numbers. 
11981--181 inspectors for 7 billion pounds of meat, excuse me, 
that's 1 billion. That's 1 billion--is that right, 1 billion? 
181 inspectors, to 1 billion pounds of meat. In 2007, 88 
inspectors to 1 billion pounds of meat. I just want to share 
that with my friend.
    Mr. Cummings. Why is that?
    Mr. Raymond. If a plant is slaughtering 400 cows an hour. 
And when you go to a public health veterinarian to observe 
those cows in motion to declare them fit for consumption and he 
does it 8 times a day observing those cattle in motion, that's 
one public health veterinarian doing that work. If there is a 
plant that slaughters 10 cows, and one plant that slaughters 20 
cows in another town that probably has to get the both of those 
to examine 30 cows for his day's work as compared to examining 
4,000 cows in a large plant. It is efficiencies.
    Mr. Cummings. And I--OK, I understand.
    Mr. Raymond. The other thing I would like to mention, sir, 
just to make sure it is on the record, that last year we did 
request from Congress $27.4 million to hire 184 more front line 
inspectors, primarily GS-7s and 5s. And that did increase our 
work force. We acknowledged that we were short, we worked with 
Mr. Painter. We acknowledged we were short, we came to 
Congress, we got the money, and we have increased and I think 
if you read the GAO report we are still below where we were in 
1995, but we're as high as we have been in the past 10 years 
for the number of personnel. At the time we hired those 
inspectors--Stanley, let me finish--we did decrease by 200 FTEs 
the number of employees within central office. We did not hire 
more managers, we decreased the number of people in central 
office, and in the last 10 years, we have also decreased the 
number of districts, therefore, fewer district managers.
    Mr. Cummings. And does that include Omaha?
    Mr. Raymond. In what way?
    Mr. Cummings. Well, he just said that you all moved----
    Mr. Raymond. Well----
    Mr. Cummings. You know what, I don't want us to get caught 
up in semantics, and then you say one thing and it means 
something else.
    Mr. Raymond. Yes.
    Mr. Cummings. He just said that when they said reduce 
central office you all just moved these top heavy people to 
Omaha, is that what you said Mr. Painter, a lot of them; is 
that right?
    Mr. Painter. That is correct.
    Mr. Cummings. What I'm asking you, is you just kindly, Dr. 
Raymond, gave me a wonderful statement about how you all are 
reducing folk. I want to make sure that doesn't mean that you 
all put them on a plane and send them to Omaha.
    Mr. Raymond. Mr. Cummings, let me give you the exact 
numbers of who came from where that went to the technical 
service center at Omaha, it was before my time, so I can't give 
you the exact numbers but they didn't all come from D.C. they 
came from some other offices that we are closing down 
throughout the country. And it is fewer people in Omaha now 
than it was 3 years ago when I took this job and I will get you 
the numbers.
    Mr. Cummings. Yes, do that for me. I know we have two more 
panels.
    Mr. Kucinich. Yes, we have two more panels.
    Mr. Cummings. Let me say religiously in here, you know, one 
of the reasons why I'm concerned about this culture of 
mediocrity is because what it does, eventually the rubber has 
to meet the road, and sadly when the rubber meets the road in 
so many of our agencies, we discover there is no road. We saw 
that in Katrina, and we are seeing it over and over and over 
again and we are waiting--we have a catastrophe waiting to 
happen.
    And I guess what I'm saying to you is that I think we need 
to probably do some evaluating, because I think Mr. Painter 
makes a very good point. And I don't know whether you all do 
analysis of exactly how to disburse your personnel, but I think 
we need to have as many inspectors as we possibly can, because 
what we are seeing over and over again throughout our agencies 
is a failure on the part of government to do what government is 
supposed to do. And I'm telling you, I'm telling you, you know, 
we worry about the enemy outside of the United States, at this 
rate we've got some enemy problems right here. And I'm not 
saying I don't know exactly where all of them are, but--I'm 
almost finished, Mr. Chairman.
    Mr. Kucinich. That was not intended.
    Mr. Cummings. I'm sorry.
    Mr. Kucinich. That was not intentional, go ahead.
    Mr. Cummings. Oh, what I am saying is that if our people 
cannot go to the supermarket and get food that's fit for 
consumption, that's a major problem, that's major. And so all 
I'm saying is that it is one thing to have the resources, it is 
another thing to use the resources effectively and efficiently, 
period. And it sounds like that might be, there might be a 
problem. Now if there is a problem, I think it is better to err 
on the side of at least doing an analysis to figure out 
effectiveness and efficiency as opposed to not doing it. And so 
it's nice to have people walking around managing, but if you 
don't have the people there on the ground where the rubber is 
supposed to be meeting the road, that's a major problem. Thank 
you, Mr. Chairman, thank you.
    Mr. Kucinich. I want to thank my colleague for his 
participation and the GAO report's instructive here because 
they have put Federal food safety enforcement on their high 
risk ratings for 2007, which has implications because that's 
kind of a danger watch. And so this committee, with your help, 
is going to--really is that a fair characterization to GAO?
    Ms. Shames. It is certainly an area that we feel deserves a 
lot of attention and a lot of oversight, yes. And we will be 
reporting out periodically for each new Congress as far as the 
progress that's made.
    Mr. Kucinich. This subcommittee is going to maintain its 
oversight responsibilities. Mr. Cummings, did you want to 
comment?
    Mr. Cummings. Yes, just one thing. So Ms. Shames, does that 
mean that they are like--these warning signals out there, I 
wanted to see red lights flashing, but is it like at least 
yellow lights flashing saying, watch out, we may have a 
problem. And if this problem is what it could be, a lot of 
Americans could be harmed; is that a safe statement?
    Ms. Shames. Yes, we place Federal oversight of food safety 
on a high risk list based on over 30 years of our work that 
found that ineffective coordination, inconsistent oversight, 
inefficient use of resources led to problems in terms of 
consumer confidence and food safety.
    Mr. Cummings. Based upon what you just said and what the 
chairman said, Dr. Raymond, it seems to me, it seems to me that 
I would be working night and day, day and night trying to 
figure out that thing that I talked about a moment ago, 
effectiveness and efficiency. Because let me tell you, one 
thing that's happening here and this hearing is evidence of it, 
is that you cannot say you have not been warned. You cannot say 
that it has not been placed out there in the universe and in 
the Department's head that there are--that people are worried, 
honorable people like the GAO and others and Members of 
Congress are worried about what's happening.
    I hope that--I pray, I pray that nothing happens, but I 
don't want anybody coming back here saying that you weren't 
warned. Thank you, Mr. Chairman.
    Mr. Kucinich. I want to thank the gentleman. Before we 
dismiss this panel, I want to say that our colleague, 
Congresswoman Watson, raised some interesting points in the 
questioning of Dr. Raymond. We cannot decouple humane handling 
from food safety issues. I just want to make sure that Dr. 
Raymond would agree with that observation.
    Mr. Raymond. Yes, I do agree, sir.
    Mr. Kucinich. I appreciate that. I want to thank the first 
panel, you've been on deck here, you've been with us for almost 
3 hours now. We--given the seriousness of this subject the 
committee staff will submit other questions to you for followup 
and we are going to maintain oversight on this matter. I'm 
going to dismiss the first panel and with our appreciation for 
your participation and call the second panel, thank you very 
much.
    [Recess.]
    Mr. Kucinich. The committee will come to order.
    I would like to introduce the second panel, we are 
fortunate to have outstanding witnesses from the second panel. 
I'll make some introduces and then we'll swear in the 
witnesses. Mr. Bev Eggleston is the owner of Ecofriendly Foods 
which is a slaughterhouse and meat processing facility in 
Moneta, Virginia. Ecofriendly Foods offers custom USDA 
inspected and organic meat processing to many restaurants and 
to consumers through home buying clubs and farmers markets.
    Joel Salatin; is that right?
    Mr. Salatin. Yes.
    Mr. Kucinich. And his family operate Polyface Farms in 
Virginia, Shenandoah Valley, they diversified a grass based 
livestock farm. Polyface has been featured in National 
Geographic, Smithsonian, New York Times, Washington Post, 
countless video, radio and other print media, he has authored 
six books, the latest being ``Everything I Want to Do is 
Illegal, More Stories from the Local Food Front.''
    Mr. Salatin. Thank you.
    Mr. Kucinich. Mr. Patrick Boyle is the CEO and president of 
the American Meat Institute. AMI is the industry's national 
trade association, it conducts government and media relations 
programs, scientific research and educational activities and 
annual trade show events. They do this on behalf of the 
Nation's $95 billion meat and poultry industry. Mr. Boyle 
serves with the Secretary of Agriculture and the U.S. Trade 
Representative on the Agricultural Policy Advisory Committee. 
He is a member of the U.S. Chamber of Commerce Committee of 100 
and is a director of the American Institute of Wine and Food. 
It is a good panel. I want to thank the gentlemen for being 
here today.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. I would ask that you rise now and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
have answered in the affirmative. As with panel one, I am going 
to ask each witness to give an oral summary of your testimony 
and keep your summary under 5 minutes in duration. I want you 
to bear in mind that your complete written statement will be 
included in the hearing record. Let's begin with Mr. Eggleston, 
thank you very much for being here.

  STATEMENTS OF BEV EGGLESTON, OWNER, ECOFRIENDLY FOODS, LLC; 
 JOEL SALATIN, OWNER, POLYFACE FARMS; AND PATRICK BOYLE, CEO, 
                    AMERICAN MEAT INSTITUTE

                   STATEMENT OF BEV EGGLESTON

    Mr. Eggleston. Thank you much, Mr. Chairman, and the 
members of the subcommittee for including representatives of 
Ecofriendly farming and owners and operators at today's 
hearing.
    I want to make just a few points in my oral statement. No. 
1, the American Meat Institute does not represent the views of 
small farmers, sustainable family owned farms and beef 
producers. In our view, the Meat Institute is the voice of 
corporate agribusiness and practices of giant corporations 
involved in commercial feed lots and those who operate huge 
packing facilities, many of which have illegal workers and 
engage in cruel practices to animals.
    The biggest meat packer in America is now a foreign-owned 
company, and these corporate agribusiness interests are 
responsible for most of the environmental and health 
catastrophes that we will discuss today.
    No. 2, let me be clear that factory farming is not 
environmentally friendly or sustainable, but it is a method 
that the meat--it is method of meat production that is favored 
by USDA. We believe that the USDA is on the side of corporate 
agriculture, not family producers who raise cattle--that raise 
cattle in the way that nature intends anyway, which is 
exclusively on grasses, with a grass finished diet, being able 
to graze. Grazing is farm talk for having cattle walk or roam 
around on cattle--on clean pastures on family owned farms.
    It is my belief the special interests and their well-paid 
corporate lobbyists in Washington have worked hard to ensure 
that preferred system of allowing giant herds to graze on land 
owned by taxpayers, in many cases, harming that land, which 
belongs to us and then shipping those animals across very large 
distances and having them stand for weeks in tiny spaces inside 
huge concrete feed lots. The cattle are fed an unnatural diet 
that may include table scraps, grain, factory waste, even 
telephone books, in some cases ground up animals.
    Point No. 4, feeding cows with an unnatural diet in factory 
farms is how mad cow disease started in the United States. The 
lobbyists for the corporate agriculture don't want to tell you 
that, though. During the mad cow disease crisis, the Federal 
Government deliberately withheld the inconvenient truth from 
the American people in my belief. This truth was the fact that 
mad cow disease was spread exclusively by feed. Mad cow can not 
be transmitted from one cow to another by physical contact. 
This meant that if you would slaughter a cow that had never 
touched any kind of feed other than grass or grass fed, then 
the meat would be 100 percent safe. But lobbyists from American 
Cattlemen and the Meat Institute made certain that the Federal 
Government would never tell the truth to the American people, 
and the reason is because the lobbying, money and power in 
Washington, not science, and certainly not truth.
    Special interest in corporate farming now want to wipe out 
the little guy through regulations that will suit factory farms 
only. This is designed to solve a problem which exists only in 
factory farms. If you like what big corporations and Harvard 
Business School have done with the mortgage industry, we will 
all love what big corporations want to do to small 
environmentally family friendly and owned and operated farms.
    I will quote an editorial by Eric Nelson of the Prairie 
Star newspaper, ``It's a shame that the National Cattlemen Beef 
Association and the American Meat Institute and the National 
Meat Association were so successful over the years in 
convincing those in cattle country and in Washington, DC. that 
a concentrated packing industry that fixes prices, denies 
market access and stuffs the market at key times with its own 
supplies.''
    All of this seems especially unfortunate as the government 
not only has allowed monopolistic practices to continue in the 
packing industry but also appear willing to allow the dominant 
player to be foreign-owned while leaving U.S. companies at a 
competitive disadvantage. Surely, our ancestors are rolling in 
their graves at the short-sighted, cold hearted even 
unpatriotic nature of these actions.
    So here is my simple answer to Congress: If you like 
polluted public lands, poison water that harms fish and water 
supplies, horrible smells from enormous waste pools, mad cow 
disease, illegal workers brought in to keep wages low and gas 
to make something that isn't fresh seem like it is, lobbyists 
sitting here behind me in the fancy suits representing the Meat 
Institute and the American Cattlemen are your guys.
    The only way to preserve environment, keep healthy food in 
the diet for children and promote families thriving in rural 
America is to have a food system that is run in a sustainable 
way.
    After the mess that the big corporations have created, 
maybe it is time to listen to the other side, we are that other 
side. We are the little guys, we are the family farms who 
protect the environment and we work for ourselves. We just 
don't have an expensive group of lobbyists in Washington. 
Bigger isn't better, it is worse for sure, do no harm to the 
family farm, better yet help American families compete against 
the giant corporations and foreign-owned conglomerates.
    No, we don't want the government--a government run system 
or a corporate welfare. We want a market system and for the 
government to stop favoring the special interests. Healthy food 
a cleaner sustainable environment, a bright future in rural 
America, if that's your agenda, please listen to our voice, not 
the voice of corporate agribusiness.
    Mr. Kucinich. I thank the gentleman.
    [The prepared statement of Mr. Eggleston follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.061
    
    [GRAPHIC] [TIFF OMITTED] T1700.062
    
    [GRAPHIC] [TIFF OMITTED] T1700.063
    
    [GRAPHIC] [TIFF OMITTED] T1700.064
    
    Mr. Kucinich. Mr. Salatin.

                   STATEMENT OF JOEL SALATIN

    Mr. Salatin. Mr. Chairman and honorable--Mr. Chairman and 
honorable committee members, thank you for inviting me to 
testify regarding exploring greater transparency in the meat 
industry. I've submitted my written comments, which of course 
go into much more detail than this 5-minute oral statement.
    The only potential solution I've heard rumored concerns 
videotaping in slaughterhouses. I have reason to believe that 
the reason I am here is because some people thought maybe I 
would be in favor of such a proposal. At the risk of 
disappointing and at the risk of straying from a preconceived 
solution agenda which has not been formally shared with me, I'm 
going to treat this topic in a wholistic manner, it might be 
odd in D.C. to look at something holistically.
    Clearly, the hearing title assumes that the meat industry 
is not transparent. An astute assessment with which I 
wholeheartedly agree. If that is a bad thing, perhaps we need 
to look at the root cause in broad context rather than in 
typical linear reductionist disconnected segmented fragmented 
fashion.
    On our farm we raised salad bar beef, pigaearator pork, 
Eggmobile eggs, pastured poultry, forage-based rabbits 
marketing everything to some 2,000 families, 20 restaurants, 
some in this city, and 10 retail stores. We process the poultry 
under the PL 9492 producer grower 20,000-head Federal 
inspection exemption. These chickens by the way have been 
tested compared to supermarket birds and found to be 25 times 
cleaner in colony forming bacteria.
    Beef and pork go to both custom and inspected facilities 
for different customers. In fact, we have just teamed with 
another family to purchase a local Federal inspected facility. 
Anyone is welcome to see our farm and our processing any time 
for any reason to go anywhere and see anything.
    About 8,000 visitors will enjoy our production and 
processing areas this year. While some may consider this 
reckless, our animals actually have a good immune system and we 
don't worry about disease. As for safety, it is a lot harder to 
drown in a compost than an industrial manure lagoon.
    We do not ship and only deliver within 4 hours in order to 
ensure that patrons can visit and return home in a day. 
Industrial farms on the other hand post huge no trespassing 
signs at their entrances. Our family Polyface has been featured 
in countless media outlets and the journalists who visit always 
complain about being denied access to industrial farms and 
processing. Why is this? Because industrial farms and 
processors are ugly and owners fear being seen.
    The transparency currently lacking in the meat industry is 
just a symptom of an industrial food paradigm that refuses to 
ask, does it matter if a pig can express its pigness? Viewing 
plants and animals as just so much inanimate protoplasmic 
structure to be manipulated however cleverly the human mind can 
conceive to manipulate it, disrespects and dishonors the 
foundation of food life. A culture with this attitude will 
inherently view its citizens in the same arrogant, egocentric, 
manipulative manner and other cultures.
    Over the years as industrial food became increasingly 
aesthetically and aromatically repugnant, villagers ran the 
butcher, baker and candlestick maker out of town. And when any 
economic sector sets up shop on the outskirts of humanity, it 
takes social, economic, environmental and nutritional 
shortcuts. The only way to create transparency is to re-embed 
the butcher, baker and candlestick maker in communities by 
using an aesthetically and aromatically romantic model. If you 
can't hire your neighbors, you don't have a transparent 
business. Americans yearn for transparency, but for the most 
part, the transferred models have been criminalized and 
demonized by the USDA industrial food fraternity, and I'm sorry 
they are not here to hear this.
    Not until we unleash the transparent food system on our 
culture will the non transparent sector feel pressure to 
change. Those of us in the transparent food system are more 
efficient, more productive more environmentally sound than 
certainly more animal sensitive than our industrial 
counterparts from production to processing.
    Why don't more of us exist? There is one reason, 
inappropriate food regulation. The abhorrent practices which 
stimulated this hearing were performed in a federally inspected 
facility, under the watchful eye of a government inspector who 
signed all the appropriate paperwork. Dear committee members, 
now down to one faithful, you need to understand the industrial 
food systems and the regulators are in bed together to 
annihilate the transparent competition. As long as no 
alternative exists, the non transparent system can continue in 
obscurity and abuse.
    Quickly then, here are possible legislative remedies that 
would unleash the transparent food system on America. No. 1, 
establish empirical thresholds for contamination, adulteration 
or pathogenicity without regard to infrastructure. 
Infrastructure requirements have never been about safe food, 
every state encourages its hunter citizens to go out on a 70-
degree day, gut shoot a deer that may have Creutzfeldt Jakob's 
disease, drag it a mile through the squirrel dung, sticks and 
rocks, display it prominently on the hood of the Blazer to 
parade around town in stifling afternoon sun, then take it 
home, cut it up and feed it to their children. That is 
governmentally accepted as a wonderful thing. Infrastructure 
requirements are not about food safety, they are about denying 
market access to prototypical transparent operations.
    No. 2, guarantee every American freedom of food choice for 
internal community of 3 trillion critters who until very recent 
years, never heard of feeding dead cows to cows, perhaps the 
largest industrial food debacle in history.
    No. 3, another option would be numerical exemptions from 
over burdensome regulations patterned after other sectors of 
the economy like day care and elder care.
    And finally four, an option would be to enable local 
prototypes. The problem with selling you on a transparent food 
is that it really doesn't exist because it has been destroyed 
by the USDA industrial food police. I can't show you where it 
exists and prove to you that it would work, except in very 
isolated cases. But if a village wants to have a transparent 
food system, it should be allowed to try without fearing 
Federal food police.
    I do not think we need more regulations against industrial 
slaughterhouses, even as much as I detest them. The answer is 
more transparency through expanded market competition by 
freeing up community based food systems to exist again. And 
that transparent alternative would attract more customers which 
would place positive pressure on those who enjoy hiding under 
government inspection skirts. Thank you for inviting me to show 
the perspective of the transparent food system with you. May 
you by blessed with an understanding of freedom with a love for 
truth and with a respect for life.
    [The prepared statement of Mr. Salatin follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.065
    
    [GRAPHIC] [TIFF OMITTED] T1700.066
    
    [GRAPHIC] [TIFF OMITTED] T1700.067
    
    [GRAPHIC] [TIFF OMITTED] T1700.068
    
    [GRAPHIC] [TIFF OMITTED] T1700.069
    
    [GRAPHIC] [TIFF OMITTED] T1700.070
    
    [GRAPHIC] [TIFF OMITTED] T1700.071
    
    Mr. Kucinich. I thank the gentleman, Mr. Boyle.

                   STATEMENT OF PATRICK BOYLE

    Mr. Boyle. Well, thank you very much, Mr. Chairman. I'm 
honored to be here today and to share the witness list with 
three other AMI members, Dr. Temple Grandin who testified 
albeit briefly on the first panel and Dr. John McGlone and Adam 
Aronson who will be participating on your third panel.
    I have never been sworn in before a congressional panel 
before, Mr. Chairman, but I never found myself seated next to a 
gentleman who wrote a book, ``Everything I Want to Do is 
Illegal,'' so I understand the additional rationale for the 
process here today.
    Mr. Kucinich. You're safe.
    Mr. Boyle. Thank you very much. I need to talk a little bit 
about what and who the American Meat Institute is and are, 
based upon Mr. Eggleston's testimony a few moments ago. We are 
the largest and we are oldest National trade association 
representing the meat and poultry company, the meat and poultry 
industry. We were established in 1906, a pivotal year in our 
industry's history and one of the reasons we're here today.
    That's when Congress passed the Federal Meat Inspection 
Act. It passed in the wake of public outcry that ensued from 
the publication of Upton Sinclair's best selling novel, The 
Jungle. The meat packers, shortly after the turn of the 
century, later in 1906, created the predecessor organization of 
AMI to represent their interest or advocate, if you will, their 
interest before the government.
    Today, that is largely the role that we continue to play. 
Mr. Chairman, I feel no reason to apologize for that. We do 
represent large companies, we are grateful for those 
memberships. Companies like Tyson and Smithfield and Oscar 
Mayer do belong and participate in the American Institute, but 
we represent 230 companies overall, more than 200 of which have 
fewer than 100 employees. And with an SBA definition of a small 
business at 500 employees and with the labor intensity of the 
meat packing and poultry processing industry, businesses in 
this sector of the agriculture economy with less than 100 
employees are truly small businesses. Most--many of them are 
family owned, many are multi generational businesses, companies 
like Uncle Charlie's Sausage, Lindy's Processed Meats in 
Pennsylvania, Parnell Sausage in Kentucky, all bearing the 
names of original founders going back generations.
    We represent companies in multiple niches of the industry, 
including organic or natural niches such as Laura's Lean Beef, 
or Coleman's Natural Beef. And our current chairman is the 
third generation CEO of a business in Chicago, Ed Miniat, a 
meat cooking business founded by his Lithuanian grandfather in 
the early part of the 1900's about exactly the same time that 
Upton Sinclair was writing about a Lithuanian immigrant in The 
Jungle.
    Much attention has been focused on the livestock and beef 
industry since late January when an undercover video depicting 
inhumane practices in a meat plant was released by HSUS. Our 
members universally agree these images were shocking, 
unacceptable, illegal and atypical. Proper and humane handling 
of livestock is not just a priority for AMI member companies, 
it is part of our culture. The meat industry knows that humane 
animal handling is a regulatory requirement, an economic 
necessity and a moral and ethical imperative.
    In partnership with Dr. Grandin, we have long sought not 
only to meet regulatory requirements but to exceed them. In 
1991, at AMI's, request she authored the first ever industry-
specific animal welfare guidelines. In 1997, we embraced her 
idea that animal welfare could be measured objectively and 
asked her to write an audit program for us again another first 
for animal agriculture.
    Today self audits are part of routine plan operations and 
third party audits are widely used by numerous restaurants and 
grocery retail chains as a condition of doing business.
    In addition to our best practices and third party audits, 
it is important to recognize that the meat industry is 
regulated more intensely than I think any other industry in the 
United States. We process live animals into wholesome meat 
products and do it over the continuous oversight of Federal 
inspectors who are in our plants during every minute of 
operation. And not one inspector per plant, or 1\1/2\ per--
inspector per slaughtering plant. The large high volume plants 
have 12, 15, 18, 20 Federal inspectors. The number of 
inspectors is determined by the volume of animals that are 
processed in each of those plants and those determinations are 
established under Federal regulations promulgated by FSIS.
    While humane animal handling is primarily the 
responsibility of the company and its employees these FSIS 
inspectors are empowered to take action any time they identify 
a deficiency or lack of compliance. And contrary to some 
testimony from a previous witness, a reviews of FSIS records 
will show that they actively use this authority.
    I do believe that the undercover video from a Chino, CA 
plant has left a lasting imprint on the minds of those who 
viewed it. In the interest of showing people what is truly 
typical today, we are making available a new video with footage 
from plants at our industry with explanatory interviews from 
Dr. Grandin and members of AMI's Animal Welfare Committee. The 
video is available on YouTube and may be accessed from the home 
page or dedicated Web site, animalhandling.org.
    Mr. Chairman, while not in my prepared testimony submitted 
for the record, given the nature of the exchange between the 
committee on the first panel, I would like to talk briefly 
about food safety. Particularly given the comments that were 
raised by Congresswoman Watson and Congressman Cummings. I 
think the concerns and impressions that they may have left 
with.
    Indeed, the testimony from Mr. Painter representing the 
inspector's union would be a cause of concern, if it were true, 
but in fact, I do not find it credible. And I won't refer to 
anecdotes or personal history, I will just refer to the facts. 
Facts can be stubborn things, and the facts show that the meat 
and poultry supply is safe and increasingly getting safer. For 
example, FSIS conducts food safety samples and tests for 
microbiological levels on meat and poultry products. They look 
for E. Coli in ground beef, they look for listeria monocytogene 
on ready-to-eat meat and poultry products, they look for 
Salmonella in a wide array of beef and pork and poultry.
    Since the year 2000, the incidents reported by the FSIS 
sampling program of E. Coli in ground beef has dropped 75 
percent, the incidents of listeria monocytogene in ready-to-eat 
produces has dropped 60 percent. More importantly however the 
food borne illnesses commonly associated with those pathogenic 
bacteria as evidenced by the data from the CDC, E. Coli related 
illnesses have dropped 40 percent since the year 2000. Listeria 
related illnesses are down 11 percent since 2000, 45 percent 
since 1996.
    It is the companies who are principally responsible for 
ensuring the safety of the product, as Mr. Issa mentioned 
during his comments, during the first panel's presentation, 
FSIS plays an important secondary role. But it is a secondary 
role, and the facts indicate that together plants principally 
with FSIS's oversight are producing and providing the American 
consumer with safer products. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Boyle follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.072
    
    [GRAPHIC] [TIFF OMITTED] T1700.073
    
    [GRAPHIC] [TIFF OMITTED] T1700.074
    
    Mr. Kucinich. I thank you very much, Mr. Boyle, for your 
testimony. Just let me ask you a question. The Westland 
Hallmark, were they a member of the AMI?
    Mr. Boyle. They were not, Mr. Chairman.
    Mr. Kucinich. I have some questions here that I'm going 
direct to each of the members of this panel, and I'd like each 
of you to respond briefly. There exists some large plants that 
have multiple shifts. In some instances, they operate 24/7, 
Westland Hallmark was one such plant that operated into the 
night. According to their 2007 audit, when livestock was 
delivered at night, the employees would check for downer cows, 
I know, after-hour truck deliveries.
    How do you recommend that such 24/7 operations be 
monitored, is it possible to monitor such operations? And in 
addition to inspectors on sight, what other tools can 
adequately monitor these operations? I would like to start with 
Mr. Boyle.
    Mr. Boyle. Thank you, Mr. Chairman. To the extent a plant 
is literally operating 24/7, it would be a highly mechanized 
processing plant, which requires few personnel and relies 
heavily on systems and equipment and technology. Slaughtering 
plants do not operate 24/7. And in today's economic environment 
for beef, many of them are operating less than 40 hours a week. 
But to the extent that there are three shifts in a plant that 
slaughters and fabricates meat, only two shifts would involve 
slaughtering and fabrication. The third shift is always a 
sanitation shift, a full 8 hours to clean the plant and prepare 
it for processing animals and food the next day.
    Mr. Kucinich. So you're saying that it shouldn't be any 
difficulty in monitoring such operations?
    Mr. Boyle. It would be true if a plant is beginning 
operation at, lets say, 6 a.m. to have livestock trucks 
arriving prior to that, unloading their animals into the pens 
of the plant. An inspector would not normally be there before 
the plant opens up, but under Federal regulations, the plant 
cannot begin operating until the inspector or inspectors 
depending on how many are assigned to the plant are onsite.
    Mr. Kucinich. Obviously you are very fluent on these 
issues. The question I would ask is does AMI as a matter of 
course recommend to these highly mechanized operations ways in 
which they can be in compliance with the law and also--and 
provide for safe processing in these high volumes? That must be 
part of the work of your industry, is it not?
    Mr. Boyle. Absolutely, Mr. Chairman, we have animal 
handling guidelines, audit tools for animal handling 
procedures, in fact, our audit tool is used internationally.
    Mr. Kucinich. Do you keep updating these ideas?
    Mr. Boyle. We developed the first guidelines in 1991, we 
updated them, I believe, in 1996 or 1997, we added the audit 
tool in 1997. We updated them again a year or two ago.
    Mr. Kucinich. So it is a culture that evolves, you're 
saying, is that your----
    Mr. Boyle. It's the process of what I would characterize as 
continuous improvement.
    Mr. Kucinich. OK.
    Mr. Boyle. Within our membership, we view certain issues as 
non competitive, food safety, environmental stewardship, animal 
welfare.
    Mr. Kucinich. I want to go to Mr. Salatin and ask him to 
answer this question. I'm going to ask the question again. You 
have these large plants of multiple shifts, some operates 24/7, 
Westland Hallmark was one of those plants. In the 2007 audit, 
the livestock was delivered at night and when the livestock was 
delivered at night employees, would check for downer cows on 
those after-hour truck deliveries. How would you recommend 
these continuous operations be monitored? Is it possible to 
monitor them effectively and what other tools could help 
monitor them, Mr. Salatin? .
    Mr. Salatin. That's a great question and please don't be 
offended at my response because the question assumed that these 
plants should exist. I'm going have the audacity here to honor 
myself in our position that these plants should not exist. The 
only reason they exist is because the butcher, the baker and 
the candlestick maker, the neighborhood community friendly 
plants have been run out of town by egregious, inappropriate 
regulations that make it impossible for a small scale plant to 
stay in business. We heard the prejudice and the worship of 
economies of scale in the previous panel; this is the answer 
for everything is this economies of scale. So there's clearly 
with the poll between the money and the number of inspectors 
and the number of eyes and the number of plants to get around.
    Dr. Raymond was very clear to say that the basic, main 
closures in facilities were where, in rural America, small 
neighborhoods. There's a reason for that, because there is a 
prejudice within the FSIS against going around and visiting all 
these little nondescript community's facilities. So what 
happens is in our experience, is that they pick, pick, pick, 
pick, pick, and because there is not enough overhead, 4,000 
head a day to spread the pick, pick, pick costs over, the small 
plant goes out of business.
    Mr. Kucinich. So your position then is our inherent defects 
in the design of large processing organizations that work 
intensively around the clock.
    Mr. Salatin. Not just design in the facilities, there is an 
inherent defect in the government oversight that discriminates 
and prejudices against competitive facilities that are open to 
the community that have an open door policy and allow people to 
come in and aren't trying to shove cows that have already been 
debilitated in the milking stream to lose their calcium in 
their skeleton and can't stand, and now we ask them to stand 10 
hours on a tractor-trailer and get up and walk, they have given 
it all.
    Mr. Kucinich. So the long distances you're saying 
debilitate the animal to where to where food safety issues come 
into play?
    Mr. Salatin. Yes, and that comes from centralized economies 
of scale facility that aren't located near where the cows are.
    Mr. Kucinich. Thank you. Mr. Eggleston, can you respond to 
the question?
    Mr. Eggleston. Thank you, Mr. Chairman. I agree that 24 
facilities are really based on economies of scale. In my 
written testimony, I speak about the benefits of the consumer 
perception when they are invited as opposed to excluded in the 
little sun shine sanitizes and goes a long way. So I won't 
belabor the situation, but I do--I do believe that if they were 
going to operate 24 hours, if after Joel Salatin's assumption 
that they are not a functional tool to represent transparency, 
we need a different tool.
    I believe that small is the answer and inviting is the 
answer because perception is reality in the minds of the 
consumer. So if the industry feels like they have nothing to 
hide and the industry feels like it is totally accountable, 
then what's the problem in showing. So i.e., you're going to 
want to consumer advocates or some type of technological 
surveillance on the off hours to make sure those animals are 
being offloaded. From the farm gate to the antemortem pen is 
where this surveillance is an issue. Just like Mr. Painter 
tried to refer to, nobody in their right mind thinks video 
surveillance is going to detect adulterated product or 
condensation above a product or cross contamination of any 
type.
    The surveillance issue is completely, in my opinion, about 
the handling of the animals from the trailers gate to the 
antemortem pen or the knock box even. So my experience with 
owning a facility, I can beg and plead and inspire laborers to 
act the way I want them to act and my own ethics instruct me to 
act. They do until some time they don't, you know. And so I'm 
not saying I'm going promote technology of video surveillance, 
I'd rather have a relationship with my employee that negotiates 
that, but at the same time, the industry doesn't have 
relationships with their employees, they don't know their 
employees, they don't care about their employees. That employee 
is as important to me as that cow, that cow is as important to 
me as anything else I do. So as--as a--coming from a position 
of a rural person working in rural agriculture, having come 
from suburban environment, coming from a vegetarian background, 
coming from a vegetarian in 10 years now owning a meat plant, I 
think we come with unique perspective and desires and practices 
and try and bring back the sacred to this gift. I believe that 
our customers know that.
    So if the industry wanted to reconstruct the perception 
that is nothing there to be overlooked and everybody's welcome 
to come look, then I think video cameras from the trailer to 
the antemortem pen would serve.
    Mr. Kucinich. I want to go back to Mr. Boyle. Mr. Salatin 
and Mr. Eggleston have offered sharply divergent views from the 
one that you've presented. I think in fairness we should give 
you a chance to respond to that. Is there anything you'd like 
to say in response?
    Mr. Boyle. Well, the comment that the companies that we 
represent at the American Meat Institute do not care about the 
workers, for example, is so contrary to my experience as a CEO 
of that organization for the last 19 years. In fact, 
coincidentally yesterday, at this time, I was in New Orleans 
presenting the annual worker safety awards to about 150 
facilities that participate in that joint venture between the 
American Meat Institute and the National Safety Council. We did 
have a workplace safety problem 20 years ago. We may have been 
the most dangerous workplace in America as we were still 
referred to frequently today.
    Again, I will go to the facts, workplace safety is a non 
competitive issue within the American Meat Institute. We have 
developed the first ergonomic guidelines of any industry in 
1990. They were the first approved and endorsed by the 
Department of Labor and the UFCW. We have been having an annual 
safety award conference for about 10 years, and if you look at 
the data from the Bureau of Labor Statistics today, we are not 
the most dangerous industry, we are not in the top 10, we're 
not even in the top 50, there are 63 sectors of our industrial 
economy that have more dangerous workplace sites than the meat 
packing industry.
    Mr. Kucinich. Let me ask you something, in listening as you 
have closely to the testimony, just out of curiosity, do you 
feel you could learn from anything that's been said in terms 
of, in a sense, they are holding up a mirror to the meat 
industry. And is there anything you can learn from what they 
said at all or do you think there--is there an ideological 
divide here, or do you think that there's something that as 
your culture evolves, that is worth thinking about?
    Mr. Boyle. I was not familiar with these two gentlemen 
until today. But this morning, I went on their Web sites. They 
have very unique, profitable, successful, I assume, 
sustainable, because of their unique practices, businesses, 
they are a unique, viable, credible niche in our industry. We 
represent all segments of the industry as I mentioned earlier 
in my comments, including those that produce----
    Mr. Kucinich. I want to thank the gentleman. I want to go 
on to the next question if I may and I thank you.
    Mr. Steve Mendell the owner of Westland Hallmark, wrote a 
letter to the subcommittee in which he explains that in 2007 
his plant was subjected to 29 audits, that all reported 
positive results.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.075
    
    [GRAPHIC] [TIFF OMITTED] T1700.076
    
    [GRAPHIC] [TIFF OMITTED] T1700.077
    
    Mr. Kucinich. Now, in your opinion, how could all these 
audits fail to catch what an undercover investigation showed 
us? And in your opinion, are these problems more characteristic 
to plants depending on their size, for example, a smaller plant 
will exhibit more disparate findings between an audit and an 
undercover investigation. Mr. Eggleston, let's start with you.
    Mr. Eggleston. I can only come from my own experience in 
working with my own crew. And in response to that question, I 
think that when--even if the laborer really believes what we 
are trying to tell them and teach them, if they have come from 
the industry, they fight it.
    Mr. Kucinich. Because?
    Mr. Eggleston. Because they don't do it this way. Because 
it takes too much time. Because for a variety of reasons.
    I have basically found in my business that I have to bring 
people outside the industry, similar to my own perspective of 
farming. I made a decent farmer. I make a decent farmer because 
I don't come with all the preconceived notions that my 
grandfather or father told me we can or can't do on the farm. 
So I think suburbanites make great farmers, and I think average 
consumers who want to be advocates can make great laborers. 
That is not very frequent.
    But in order to bring our standards to real practical 
aspects day in and day out, it is a never-ending--I have been 
in business only 5 years. I have been through 140 laborers. And 
that is because we try hard to find the right people to do the 
right thing and to understand why we are asking them to do 
that.
    I still believe it all comes down to relationship, 
intention, and in my--like I say, in my limited experience, 
even the people who I spend a lot of time with and make sure 
they do it the way I want to do it, because before they were 
there I did it myself. It is a small plant. We forged all these 
practices, my HACCP plan, all our HACCP plans, everything we 
did with an individual, myself, forging it forward, forcing it 
forward.
    And the fact of the matter is that your staff has to 
believe and buy into why you feel this way. I don't think that 
people--I don't think laborers become inspired by regulation. I 
don't think they get inspired by oversight. I think they get 
inspired to do the right thing and get paid well and be 
respected. That is how we build our business.
    Mr. Kucinich. Thank you, Mr. Eggleston.
    Mr. Salatin, do you have the question? You want me to 
repeat it?
    Mr. Salatin. The question is fine.
    Mr. Kucinich. Please proceed with your response. And after 
you get through responding I am going to take it to Mr. Boyle, 
and then we are going to go to Mr. Cummings for his questions. 
So, Mr. Salatin.
    Mr. Salatin. Thank you.
    I have two responses. No. 1 is you can't legislate 
integrity. Nobody can legislate integrity either into the FSIS 
or to the industry. At the end of the day, integrity is a 
personal thing.
    And I couldn't agree with Mr. Cummings more in his 
observations in the previous thing about Stephen Covey's book 
about when trust is lost. You can't legislate trust. You can't 
legislate integrity. I honestly don't know who to believe, 
whether it was Dr. Raymond or Mr. Painter. But you can't 
legislate integrity.
    But the second response I would say--I would like to tell 
you a very, very quick 30-second story. I had a visitor 1 day. 
He was the Washington counsel for the largest hamburger fast 
food corporation in America. And they were interested in 
perhaps putting in a line of grass-fed burgers, grass-feed beef 
as opposed to, you know, concentrated animal feeding 
operations, cows that eat dead cows and chickens and chicken 
manure. And so he came as a front man to find out, you know, if 
I would be cordial and accept him and all this before the 
executives came; and we were talking about these very issues.
    And he said, you have to understand there is no overt 
discriminatory or prejudicial treatment in, you know, against 
small plants or in favor of large plants. It appears that way 
only because--now he is a hired counsel by this corporation--he 
said, when we have a problem in one of our plants with, say, an 
aggressive inspector or some jot or tittle out of line, he said 
they pick up the phone and call me, I call FSIS and say remove 
that inspector, get rid of it, you know, let's get on with 
moving product.
    He said, when your little plant has that happen, you don't 
have a legal counsel in D.C. on retainer to, you know, to make 
that call. So you have to go back to the back room and fix it 
and whatever needs to be done.
    And so, to answer the question how could this happen and is 
it more characteristic in a large plant, I would simply suggest 
that as soon as the government is involved with something it 
becomes a political animal. The corporations are political. 
They wine and dine the, you know, the big wheels. And so there 
is absolutely more propensity to move political pressure.
    Mr. Kucinich. Let me ask you a followup with your 
observation.
    In 2007, FSIS issued 12 suspensions. All 12 were to those 
plants who were categorized as small. Now, in your opinion, 
what do think you this means? Large plants are performing 
better or small plants are performing poorly or the size of the 
plant has something to do with the ability of an inspector to 
adequately oversee plant operations?
    Mr. Salatin. I will answer that with another story, if I 
may.
    Mr. Kucinich. Could you first answer my question?
    Mr. Salatin. Yes, the answer is yes, on the scale, yes.
    Mr. Kucinich. On the scale.
    Mr. Salatin. Yes. Because we have chickens processed at a 
very small federally inspected facility in North Carolina. 
Several years ago, the inspector said our chickens, even the 
worst one, was better than anything he saw at one of the big 
integrator plants, but the reason that some of ours were 
condemned was because he actually had 30 seconds to look at 
them. When they are in the large plant, he doesn't have enough 
time to look at them.
    Mr. Kucinich. Mr. Eggleston, scale?
    Mr. Eggleston. Scale is a problem.
    Mr. Kucinich. Let's go to Mr. Boyle for a response to the 
question. And do you need me to repeat the question or do you 
have it down?
    Mr. Boyle. No, sir. I think the dichotomy, if you will, the 
gross dichotomy between the audits that the plant had in Chino, 
CA FSIS records in that plant and the gross practices captured 
on the video are just inexplicable. I mean, I don't have any 
rational explanation for the extreme disparity. It is clear 
that there were multiple failures that occurred in that plant, 
failures on the part of the farmer who wasn't culling these 
animals at the appropriate time, failure on the part of plant 
management supervision and the employee practices, and failure 
on the part of FSIS, who appeared to be MIA during that period 
of time when the taping occurred. That is why the Office of 
Inspector General's investigation is going to be of interest to 
all of us.
    Mr. Kucinich. Does the AMI send out bulletins to your 
members when you have an incident that is reported in the 
industry and warns them and also raises the kind of issues that 
you are raising in front of this committee?
    Mr. Boyle. We provide routine updates on regulations, 
directives, newsworthy developments, best practices.
    Mr. Kucinich. After Westland/Hallmark, did you send any 
note around the industry saying heads up?
    Mr. Boyle. It wasn't so much a heads-up note as much as it 
was a wake-up call note. I spent a lot of time in the last 2 
months working with my counterparts who are presidents of 
livestock-producing organizations. For our members, we have 
guidelines and audits. We think we need guidelines at all 
stages, from the farm through transport to our pens. We think 
we need audits at all stages. We think there need be to third-
party audits, and we are working hard our counterparts to get 
that done throughout the system.
    Mr. Kucinich. OK. I appreciate that, Mr. Boyle.
    Let's go to Mr. Cummings. Mr. Cummings, thank you for your 
patience.
    Mr. Cummings. I just have two questions, just two.
    You know, Mr. Mendel said--I mean, he responded to a letter 
I guess from the committee. He says, the only reason I would 
assume some owners would resist installing video monitoring 
would be the costs and accountability. If we assume for a 
second that small plants would be exempt from this 
consideration since they have inherent qualities that make them 
transparent, then how would you respond to this? And do you 
agree with Mr. Mendel that issues of costs and accountability 
would make some owners resistant to installing video 
surveillance or other means of enabling greater transparency?
    Mr. Boyle. I think it would be more cost than 
accountability, but I will defer to the economics of the issue 
to a witness on the next panel, Mr. Aronson, who runs a company 
that installs cameras in manufacturing facilities.
    Many of our AMI-member companies have cameras in their 
facilities. They have concluded from a management perspective 
it gives them a greater level of supervisory oversight. It also 
gives them a record when they find a dispute between themselves 
and the FSIS inspectors. But there are other ways to assure 
that best practices are being followed: intensive supervision 
and extensive employee training, certification of those 
employees, aggressive implants, self-audits, targeted 
incentives, awards recognitions. But a video camera is a tool 
that should be available; and many companies, as I say, have 
used them. And in the wake of Hallmark/Westland many more of 
them are looking at them.
    But Mr. Aronson can give you more detailed information on 
that, Congressman.
    Mr. Cummings. OK. Well, one thing is self-audit is nice as 
long as people are being honest. Am I right? And it seems to me 
that--you know, Mr. Issa asked a question a little bit earlier 
of the earlier panel. He said, would there be any incentive for 
people to shortcut and do the wrong thing? And I assume that, 
you know, people take these shortcuts, usually it has something 
to do with profit. People who take shortcuts, they don't assume 
they are going to get caught. As a matter of fact, if they 
assume they were going to get caught, they probably wouldn't do 
it.
    So the problem then takes place where if you have--I mean, 
you mentioned that is one of the ways you do it, the audit. 
But, you know, we got to make sure that there is a level of 
integrity. And I guess Ronald Reagan used to say, you know, you 
have to verify. You can believe it, but you got to verify it, 
too.
    And I think in the process, in listening to the earlier 
testimony, it seemed like there was some questions with this 
particular farm, where there was a question of whether the 
truth was coming out of the farm and then whether there were 
folks to appropriately look at that information to verify it.
    So I think that, you know, there are some problems that 
seem to be systemic. It seems as if, you know, when you get to 
a thing of dishonesty, it can just have just a phenomenal 
effect. And I think that is part of the problem in everything 
that I have heard, particularly with the earlier panel. And I 
think this thing of trust is kind of getting out of hand, and I 
think that we all need to work together to make sure that we 
create as much transparency as possible.
    But you said that it is more expense, as opposed to 
accountability. Well, what about accountability? I mean, do you 
see that as being significant at all?
    Mr. Boyle. I think accountability is essential. And I agree 
with Mr. Salatin, and your remarks as well, you cannot 
legislate or regulate intensity.
    Mr. Cummings. Right.
    Mr. Boyle. You can't just go out and hire it off the street 
and put it in your plants and make sure plants are going to 
operate efficiently and correctly and safely.
    Accountability is key. In order for a business to be 
successful, they have to find a way to ensure from their 
workers accountability to their standards. A video camera might 
be one way of adding to that level of accountability, but it is 
not the only tool. There are other ways that businesses achieve 
that level of accountability amongst their employees.
    Mr. Eggleston talked about finding the right person who 
shares his company's vision, the passion for his objectives. 
That instills the kind of values that translate to 
accountability.
    I do have to comment, however, on some of the observations 
of Mr. Painter from the prior panel. I mean, I have heard these 
allegations that our plants spend their time--our plant 
employees spend their time looking out for FSIS inspectors. In 
a big plant, which one of the 20 inspectors is going to round 
the corner any moment? And let's get on a walkie-talkie and 
warn the folks in the other part of the plant, who I guess are 
also looking out for inspectors.
    And who is performing the work? Who is maintaining the 
process controls? Who is ensuring that the best practices are 
being followed? No one has the time in our business or, I would 
submit, businesses in general to be on the lookout for 
inspectors or supervisors instead of focusing upon their job 
responsibilities. I don't know of any business school in the 
United States that teaches violating or circumventing Federal 
regulations as a long-term business strategy.
    Mr. Kucinich. If I may, I remember in my reading--if I may, 
to my friend--that maybe it was a generation ago, but it is my 
understanding that a certain Ivy League school taught a course 
in strategic misrepresentation--to the gentleman, Mr. Cummings.
    Mr. Boyle. I would be interested in learning more about it.
    Mr. Kucinich. We will talk.
    Mr. Boyle. I will look forward to that, Mr. Chairman. But I 
am submitting it is not a long-term strategy for business 
success.
    Mr. Cummings. It is a poor strategy. And, I mean, if you 
really think about it--I go back to what I said a little bit 
earlier. It is not a question of whether it is taught or 
whatever. It is that people find--some people just want to find 
shortcuts, and they assume they are not going to get caught, 
period.
    I think--I am just wondering, but going back to Mr. 
Painter, did it concern you that he said that every time 
somebody comes forward to do some whistle-blowing they are 
basically punished? Did that concern you?
    Mr. Boyle. If true, that would concern me. I don't have any 
evidence that it is true; and I believe that Dr. Raymond, who 
runs the agency today, stated from his perspective it is not 
true either.
    Mr. Cummings. Well, you know, I will just end with this. I 
think that one of the interesting things about whistle-blowers 
is that if they are operating in a culture that has that kind 
of--that does that, first of all, it takes a lot of guts to do 
it. And if there is a culture in an agency that clamps down on 
anybody who goes beyond the walls of that agency or goes to 
higher ups or whatever, if that agency does that, I mean, that 
is something that we need to take a look at.
    I often cite the case of a hospital in my district where 
they were giving HIV/AIDS tests and hepatitis B tests, and the 
whistle-blower had evidence that the machinery that they were 
doing the tests with was malfunctioning. And this went on--they 
gave literally thousands of tests. And the company--I mean, the 
hospital came down--not the hospital, but certain people, you 
know, supervisors came down hard on these folks. And other 
folks could have died.
    And I just--you know, that is why I talk about this culture 
of mediocrity, this culture of not worrying about our fellow 
man and woman, this culture which has this almost anti-empathy 
attitude. It just bothers me.
    And I am not saying that the meat industry is like that. I 
am just saying that all of us have to fight against this. And I 
have said it before. This is the United States of America, and 
we have gotten to where we have gotten to because of our moral 
authority, and we are the great Nation that we are because we 
do things right.
    And I just think, you know, we can't legislate that, but 
one thing that is for sure, that every single person, when they 
are being paid with taxpayers' dollars, we would expect that 
they would do the right thing and that they would not, when 
they see something----
    And I am going to tell you, that whistle-blower in 
Baltimore to me is a hero--shero--it was a woman. And she sat 
in my office for hours one Saturday, and I will never forget 
it, I mean crying because she had gone through so much. But she 
said, I would rather die, I would rather die than sit around 
and watch other people die because they got the wrong results.
    And I would think that when we put people in those 
positions that is the attitude I want them to have, because 
that is what it is all about. So, I mean, in most instances, 
that may be one of the only ways you are going to find out.
    So I just--Mr. Chairman, I say that--I know it may not 
apply so much to this panel, but I am just concerned. Of all 
the testimony that I have heard, I think that bothers me 
probably more than most.
    And with that I will yield back.
    Mr. Kucinich. Mr. Cummings has once again put his finger on 
something that has some general cultural concerns here, and 
that is the level of trust that we take for granted, that it 
takes, you know, just to eat the food that we eat and how each 
of us, in the case of the panel, you are all mindful of that. 
Trust is what holds your industry together, Mr. Boyle. Trust is 
why people will come to buy your products, Mr. Eggleston, Mr. 
Salatin.
    And, you know, we trust a technician about tests. We trust 
when we are starting our car we trust the tires. We trust when 
we get on a plane. Trust really holds everything together. 
There is no question about it.
    When there is a violation of that trust, for whatever 
reason, you know the Hallmark/Westland case, for example, they 
had a stamp, as I understand it. It was a USDA stamp was on 
those products, told people you could rely on that. When that 
system breaks down, it is a problem for the whole country. And 
so, you know, that is what this meeting is about today.
    This has been a very good panel, and I appreciate your 
participation. And this is a very long hearing already. We are 
about to begin the fifth hour of our testimony. But I want to 
say that each of you have brought something to this panel that 
is very important, and I appreciate your presence here.
    I am going to ask staff to get the third panel ready. We 
may followup with some questions to you gentlemen. But I want 
to express the gratitude of the committee for your presence 
here.
    And the second panel is dismissed. I would ask the third 
panel to please come up.
    The committee will resume. For those who may have joined us 
mid-day, this is the Domestic Policy Subcommittee of the 
Oversight and Government Reform Committee; and the title of the 
hearing today, ``After the Beef Recall: Exploring Greater 
Transparency in the Meat Industry.''
    We have heard from two panels already in a hearing that 
started around 1 o'clock, and we are going to hear from a third 
panel. I want to introduce that panel. We have outstanding 
witnesses on this panel.
    We are going to start with Mr. Wayne Pacelle. Mr. Pacelle 
is the President and Chief Executive Officer of the Humane 
Society of the United States [HSUS]. The Humane Society of the 
United States is the Nation's largest animal protection 
organization. Mr. Pacelle has testified before Congress well 
more than a dozen times on a wide range of subjects, including 
agricultural policy.
    In the 110th Congress, he appeared before the Senate 
Agriculture Appropriations Subcommittee to discuss the 6-week 
undercover investigation conducted by the HSUS at the Hallmark/
Westland meat packing company in California in late 2007.
    Mr. John J. McGlone is an animal and food sciences 
professor at Texas Tech University. His field of study includes 
the scientific basis of animal welfare. In his capacity as an 
institutional official at Texas Tech University, he oversees 
the animal care and use program on campus. He is also a fellow 
with American Humane and is on the board of trustees of the 
Association for the Assessment and Accreditation of Laboratory 
Animal Care International and serves as co-chair of the 
Federal--what is the name of that?
    Mr. McGlone. Federation.
    Mr. Kucinich. It is Federation of Animal Science Societies 
and is working on a revision of the Guide for the Care and Use 
of Agricultural Animals in Teaching and Research. Is that 
correct?
    Mr. McGlone. Yes.
    Mr. Kucinich. Now, finally, we have Mr. Adam Aronson. Mr. 
Aronson is the CEO of Arrowsight, and he founded ParentWatch in 
1998.
    I want to thank each of these witnesses. It is the policy 
of the Committee on Oversight and Government Reform to swear in 
all witnesses before they testify. I would ask that you would 
rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record show that the witnesses 
answered in the affirmative.
    Now, as with previous panels, I am going to ask that you 
give an oral summary of your testimony, to keep the summary 
under 5 minutes in duration; and your entire statement will be 
included in the hearing record.
    And as of this time I am going to ask unanimous consent to 
put in the record certain correspondence that this committee 
received. That will be done.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.078
    
    [GRAPHIC] [TIFF OMITTED] T1700.079
    
    [GRAPHIC] [TIFF OMITTED] T1700.080
    
    [GRAPHIC] [TIFF OMITTED] T1700.081
    
    Mr. Kucinich. Let's start this third panel with testimony 
from Mr. Pacelle from the Humane Society of the United States. 
Thank you very much for being here.

STATEMENTS OF WAYNE PACELLE, CEO, HUMANE SOCIETY OF THE UNITED 
     STATES; JOHN J. McGLONE, FELLOW, AMERICAN HUMANE, AND 
   PROFESSOR, TEXAS TECH UNIVERSITY; AND ADAM ARONSON, CEO, 
                           ARROWSIGHT

                   STATEMENT OF WAYNE PACELLE

    Mr. Pacelle. Mr. Chairman, thank you, and thanks for your 
typical great endurance on these many issues that you worked 
on.
    A lot of ground has been covered by the two previous panels 
in the questioning sessions. I want to make three major points 
and then address some of the policy solutions that we would 
like to see the Congress grapple with.
    One which hasn't come up much today has to do with the 
downer policy of the U.S. Department of Agriculture. In 
December 2003, the United States had its first BSE-positive 
animal found by the U.S. Department of Agriculture; and, in 
response, the USDA passed essentially an emergency rule to ban 
any downer cattle in the food supply.
    Yet on the very same day that occurred and USDA's 
Agriculture Secretary Ann Veneman issued an emphatic decree 
saying no downer animals will get into the food supply, USDA 
issued notice 5-04 behind the scenes instructing inspecting 
veterinarians how to carry out the regulations. And in contrast 
to both the public claims by USDA and the very clear wording of 
the internal rule itself, the agency instructed inspectors to 
allow downed cattle to be slaughtered for human consumption if 
they initially appeared otherwise healthy but went down within 
the slaughter plant itself due to an acute injury. So the USDA 
was telling the public no downers, yet behind the scenes they 
told the inspectors to allow downers into the food supply.
    We continue this very day to allow downers in the American 
food supply. We need a bright-line policy to stop this not just 
as a matter of humane handling but because of the food safety 
threats that downers pose in this country. I think this is 
outrageous, Mr. Chairman, that USDA is still allowing downers 
in the food supply.
    With all this rhetoric, we have had now the largest meat 
recall in the country. After the mad cow case, which involved a 
downer, of course, in Washington State, we had more than 50 
nations close their markets to U.S.-produced beef.
    Second is the issue of whether the compliance systems are 
adequate. Now we have heard a lot of comment on that today, and 
during some of the previous hearings that have occurred on this 
issue we have also heard from the president of Hallmark. And I 
think it is important to point out that he testified last month 
that his company, ``passed 17 outside audits and 12 additional 
internal audits.'' That is 29 audits.
    Even on February 1, 2008, just a day or two after our 
investigation became public, an audit conducted by someone who, 
``retired from supervisory positions'' in USDA's FSIS in 1997, 
after working there for 26 years, concluded, ``I have reviewed 
the records and programs you have at your plant, and these are 
the best I have ever seen in any plant. You have excellent 
records of all your training programs and ongoing training of 
all employees. Your plant has passed numerous audits on humane 
handling of animals in this plant in the year 2007 and has no 
failures, which you should be very proud of.''
    So we have a circumstance where USDA gave this plant 
consistent positives, third-party audits, internal audits, yet 
we saw some of the most revolting cruelty that this Nation has 
ever seen on these issues.
    Something is amiss here, Mr. Chairman. These systems are 
obviously inadequate. It is not just one audit. We are talking 
29 audits by third parties and internal, plus USDA's continuing 
daily presence with its full cast of inspectors of five people.
    I think this really--this is the third major point. The 
first point is the failure of the downer policy and the 
inconsistency of the policy. Second is the incredible disparity 
between these findings and the reality. The final point is the 
history of slaughter plant abuse.
    We heard from the AMI lobbyist president that, you know, 
this is isolated. We have seen it in many cases. We have heard 
from USDA it is isolated.
    Let me point out that every time an undercover 
investigation has exposed horrific treatment of animals at a 
slaughter plant, there are industry apologists who attempt to 
excuse it. If we look at the limited number of nonprofit 
efforts to investigate these plants, we see every time somebody 
has taken a close look there is a problem, not just Hallmark.
    A 2007 Mercy For Animals investigation documented House of 
Raeford workers in North Carolina mutilating, hitting, and 
kicking live turkeys at a slaughter plant there.
    In 2004, People for the Ethical Treatment of Animals 
documented Pilgrim's Pride employees at a West Virginia 
slaughter plant stomping on live chickens, ripping their heads 
off, slamming them into walls, and kicking them like footballs.
    In the same year, Compassion Over Killing revealed Perdue 
workers at a Maryland slaughter plant throwing live chickens 
and leaving dying birds to languish while they took their lunch 
breaks.
    In another 2004 case, a USDA inquiry found that inspectors 
at an AgroProcessors cattle slaughter plant in Iowa were 
sleeping and playing computer games on the job while cows were 
being abused in horrific ways.
    A 2001 Humane Farming Association investigation documented 
workers chained fully conscious, struggling cows upside down on 
an IBP slaughter line in Washington State as well as shocking 
cows who were confined in a chute.
    Every time we look, Mr. Chairman, there are problems. If 
the AMI and the USDA think everything is fine, they are living 
in an alternative reality.
    I know time is short. My testimony speaks to some of the 
policy reforms. We need to close the downer loophole. We need 
to strengthen enforcement. We need criminal penalties, criminal 
penalties for abusive acts toward the animals at the slaughter 
plants.
    We have a situation now where USDA--this is really a farce 
to say that this enforcement regime, they shut down a plant for 
an hour or two 12 times for humane handling. When we have 626 
cattle plants and 619 pig processing plants in the country 
operating most days of the year, 12 times for humane handling? 
That is a farce.
    I want to say that we need strong penalties for these 
criminal activities. Poultry, which represents 95 percent of 
all animals slaughtered in this country, more than 9 billion, 
are not even covered under the Humane Methods of Slaughter Act. 
There is legislation pending in Congress to address that issue.
    And there is a bill before this committee, assigned to this 
committee called the Farm Animal Stewardship Purchasing Act 
that is a government procurement program that sets up basic 
standards for humane care for government purchases of animal 
products.
    Those are just a small number of the policy reforms.
    Again, we appreciate the opportunity to testify.
    Mr. Kucinich. Thank you, sir.
    [The prepared statement of Mr. Pacelle follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.082
    
    [GRAPHIC] [TIFF OMITTED] T1700.083
    
    [GRAPHIC] [TIFF OMITTED] T1700.084
    
    [GRAPHIC] [TIFF OMITTED] T1700.085
    
    [GRAPHIC] [TIFF OMITTED] T1700.086
    
    [GRAPHIC] [TIFF OMITTED] T1700.087
    
    [GRAPHIC] [TIFF OMITTED] T1700.088
    
    [GRAPHIC] [TIFF OMITTED] T1700.089
    
    [GRAPHIC] [TIFF OMITTED] T1700.090
    
    [GRAPHIC] [TIFF OMITTED] T1700.091
    
    [GRAPHIC] [TIFF OMITTED] T1700.092
    
    [GRAPHIC] [TIFF OMITTED] T1700.093
    
    [GRAPHIC] [TIFF OMITTED] T1700.094
    
    [GRAPHIC] [TIFF OMITTED] T1700.095
    
    [GRAPHIC] [TIFF OMITTED] T1700.096
    
    [GRAPHIC] [TIFF OMITTED] T1700.097
    
    [GRAPHIC] [TIFF OMITTED] T1700.098
    
    [GRAPHIC] [TIFF OMITTED] T1700.099
    
    Mr. Kucinich. Dr. McGlone.

                  STATEMENT OF JOHN J. McGLONE

    Mr. McGlone. Thank you. I appreciate the opportunity to 
provide testimony in this important matter today.
    There is quite a lot of interesting discussion today. I 
would like to try and focus the summary of my testimony on 
science-based solutions to the problems, rather than 
identifying the problems. I think we know that they exist.
    People are uniformly concerned about bad actors that have 
damaged the industry and damaged animals. We know that this 
incident is of national importance. I have noticed considerable 
improvement in animal handling in recent years, which I agree 
with Temple Grandin on that point. But we are dealing with a 
biological process here, and a biological process is imperfect, 
and the question is to what degree of acceptable imperfection 
is allowable. And we can reach a few conclusions about the 
current situation.
    The first is that the current system of oversight is not 
sufficient to prevent rare events from happening. So even if 
less than 1 percent of the animals, less than 0.1 percent of 
the animals have a problem, whatever that is, noncompliance, 
that is not acceptable. And the current level of oversight 
doesn't prevent that. It is not intense enough.
    Given even if we had 100 percent oversight by human--a 
human being at a single observation point, that human would 
still experience observer fatigue, would develop a callousness 
over time, and there wouldn't be any checks and balances in 
place. So even 100 percent oversight wouldn't solve the 
problem.
    I think we all agree that persons found guilty of cruelty 
should be brought to justice. I think that is happening. I 
think people who observe acts of cruelty and don't report them 
in a timely manner should also be brought to justice and that 
we need to restore confidence in the food supply and the 
humaneness and safety of our food supply.
    I want to discuss one parallel enterprise that is going on 
in the United States, that is, oversight of research animal 
care, which is a different matter, but for which this same 
problem happens. At research institutions, at universities and 
companies, there is a lot of activity that happens with 
animals, animal research; and because the types of activities 
are diverse and complicated, there is no effective way of 
providing outside audits of that process.
    So what has developed is a process of intense internal 
audit that we call an Animal Care and Use Committee. And to 
make sure that the Animal Care and Use Committee is doing its 
job appropriately there is a third-party, a nongovernmental 
agency called AAALAC International, that will accredit the 
university. And what that accreditation does by a third party 
is assure that the internal processes are being taken care of. 
At the same time, USDA provides oversight, but they only go to 
research laboratories in some cases once a year to do the same 
thing that the accreditation body is doing.
    So it is a three-pronged approach: intensive internal 
audits, third-party oversight, and some government interaction. 
So whatever a successful outcome might be, it should develop a 
practical working relationship among the partners. It should be 
science-based. It should include a philosophy that includes 
acceptance of animal production consumption. It should agree to 
trust but verification of these behaviors; agreement that the 
goal is to prevent problems, not to be punitive, although 
punitive measures are necessary; agreement that when problems 
arise that they be brought to rapid resolution, not to where it 
takes weeks to discover that the problem actually took place. 
There has to be confidentiality of business practices, secure 
control of electronic data.
    And I think what would really drive this process would be 
an agreement that plant operations would not stop as long as 
these issues are resolved in a matter of minutes, rather than 
hours or weeks or, in some cases, even longer.
    I was also asked what the industry perspective was. Because 
I can ask questions, being an independent source of 
information. And I gathered the following observations.
    One is, the industry expressed uniform repulsion at the 
idea--at the events in California. People readily admit within 
the industry that the system in place now does not work very 
well because we have a very low error rate, way less than 1 
percent, and it is difficult to detect that error rate under 
the system that we have.
    USDA plants often develop an adversarial rather than a 
collaborative approach with humane oversight, and that is a 
problem. A punishment does not foster collaboration. I think it 
is necessary, but it really doesn't help the groups to 
collaborate. Laws do not protect plants from infiltrators who 
directly cause welfare problems in order to gain donations or 
public attention to their cause. Video surveillance 
specifically was first viewed negatively, but now we know that 
several meat companies are using them internally.
    I heard a strong sense from the industry, and I believe it 
works in other aspects of our society, that if the industry 
would take an extremely strong stance in policing itself, less 
outside oversight would be necessary.
    There is also a sense that the industry does not want the 
routine practices in the slaughter plant made available to the 
general public for, I think, obvious reasons. But yet they want 
to be held accountable themselves, and they want the government 
to be held accountable also for their actions and activities.
    Some industry groups have already installed video, and they 
did that to perform more effective internal audits, to provide 
proof of humane handling, and to keep the government out of 
their business, because they think they can do a better job 
themselves, and to provide an instant replay when there are 
questions that may arise.
    Hallmark's early response to its humane issue was to 
install animal handling cameras, which I think speaks to the 
resolution of the issue or a resolution.
    And I think that we really need a third-party partner that 
is an NGO, a nongovernmental agency that is respected and that 
shares the goals of the industry. And American Humane might be 
that organization. We would like to have professionally trained 
auditors using science-based approaches, intensive audits that 
have a zero tolerance for abuse and a rapid resolution of 
problems.
    With that, I thank you for being here.
    Mr. Kucinich. Thank you, Dr. McGlone.
    [The prepared statement of Mr. McGlone follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.100
    
    [GRAPHIC] [TIFF OMITTED] T1700.101
    
    [GRAPHIC] [TIFF OMITTED] T1700.102
    
    [GRAPHIC] [TIFF OMITTED] T1700.103
    
    [GRAPHIC] [TIFF OMITTED] T1700.104
    
    Mr. Kucinich. Mr. Aronson, you may proceed.

                   STATEMENT OF ADAM ARONSON

    Mr. Aronson. All right. We are going to put an overhead 
projector on.
    Mr. Kucinich. Staff prepared with that? OK.
    Mr. Aronson. Thank you, Mr. Chairman.
    Mr. Chairman, it is an honor and privilege to appear before 
you today.
    I am Adam Aronson, founder and chief executive officer of 
Arrowsight. Arrowsight has been providing remote video auditing 
services for the past 10 years to many industries, including 
food manufacturing, healthcare, and quick service restaurants. 
Remote video auditing of employee practices, combined with 
continuous performance feedback, can drive rapid and sustained 
improvements to business operations.
    To foster a healthy staff culture, we work with clients to 
promote positive reinforcement techniques that are centered 
around catching employees doing the right things instead of 
catching them doing the wrong things. Used proactively by 
customers, video auditing services can emulate having the best 
front-line manager present at all times throughout a facility.
    For companies not willing to thoroughly embrace a video 
services program, an alternative but less optimal solution 
would be to increase the number of front-line managers in high-
risk areas such as animal handle pens.
    In the case of the meat industry, we have successfully 
provided animal handling services for FPL Foods LLC, a cattle 
processing company located in Augusta, Georgia.
    I will be using a visual demonstration to describe 
Arrowsight's video auditing services. At the top of the work 
flow diagram on the screen are two 24-7 network operation 
centers that are staffed by trained Arrowsight video auditors. 
Through a secure Internet connection, our auditors randomly 
sample events throughout the day that are each 1 to 2 minutes 
in duration. As Arrowsight auditors classify process compliance 
either numerically or qualitatively, the data is automatically 
stored in Arrowsight's central data base. We provide continuous 
performance feedback in two ways, which is shown on the right-
hand side of the diagram.
    If a customer-defined noncompliance event is observed, we 
are instructed to call plant supervisors and to send e-mail 
alerts that also include hyperlinks to the examined video. 
Additionally, we deliver customizable daily and weekly 
performance reports that include hyperlinks to all examined 
video events.
    Please change the slide.
    We use the American Meat Institute's recommended animal 
handling guidelines as a model. We audit for proper live 
handling from the truck unloading area all the way through to 
the work stations inside the plant where the cattle are 
slaughtered.
    On the left-hand side of this image are the operational 
classifications for the truck unloading area, which define the 
various categories of staff noncompliance. As a standard 
operating procedure, we alert plant supervisors anytime a 
handling infraction is observed.
    Please change the slide.
    After the recent recall, we received many inquiries about 
our animal handling services. In response to these requests, we 
have recently implemented video auditing features with the 
ability to comprehensively identify high-risk nonambulatory 
animals. By sampling still pictures every 30 minutes on a 24-7 
basis, we are able to cost-effectively identify most 
nonambulatory animals and immediately notify plant supervisors. 
This new service is especially beneficial on third shifts 
inside plants that have overnight livestock delivery, which are 
typically overseen by a small group of employees with little or 
no managerial oversight.
    Please change the slide.
    Daily and weekly electronic scorecard reports are generated 
and e-mailed to clients, which segregate performance scores 
into several categories. The top two sections of the report 
summarize a score by plant and by area. The lower two sections 
show the specific work station scores and provide hyperlinks to 
all the examined video.
    Please change the slide.
    Given the low profit margins in the meat industry, 
Arrowsight focuses much of its effort on providing financially 
beneficial services to its clients. Utilizing Pan-Tilt-Zoom 
cameras with up to 64 preset positions, we have been able to 
drive significant savings to a large turkey processing company.
    As seen on this screen in the lower-left-hand image, the 
worker is supposed to carefully trim the edges of the turkey 
breast but instead has cut too deeply into the piece of meat. 
In this case, the trimmed portion of the meat will become 
ground turkey, which is worth only 35 to 45 percent of the 
value of the breast meat. Through the proactive use of our 
services, this customer has achieved roughly $1.25 million in 
savings from this one application.
    In closing, remote video auditing services benefit 
progressive meat companies by being able to combine safety, 
security, and welfare programs with a suite of process 
optimization services.
    Thank you for the opportunity to testify today, and I will 
be pleased to answer any of your questions.
    Mr. Kucinich. Thank you, Mr. Aronson, for your testimony.
    [The prepared statement of Mr. Aronson follows:]

    [GRAPHIC] [TIFF OMITTED] T1700.105
    
    [GRAPHIC] [TIFF OMITTED] T1700.106
    
    [GRAPHIC] [TIFF OMITTED] T1700.107
    
    [GRAPHIC] [TIFF OMITTED] T1700.108
    
    [GRAPHIC] [TIFF OMITTED] T1700.109
    
    [GRAPHIC] [TIFF OMITTED] T1700.110
    
    [GRAPHIC] [TIFF OMITTED] T1700.111
    
    [GRAPHIC] [TIFF OMITTED] T1700.112
    
    [GRAPHIC] [TIFF OMITTED] T1700.113
    
    [GRAPHIC] [TIFF OMITTED] T1700.114
    
    [GRAPHIC] [TIFF OMITTED] T1700.115
    
    [GRAPHIC] [TIFF OMITTED] T1700.116
    
    [GRAPHIC] [TIFF OMITTED] T1700.117
    
    [GRAPHIC] [TIFF OMITTED] T1700.118
    
    [GRAPHIC] [TIFF OMITTED] T1700.119
    
    Mr. Kucinich. We are going to go to questions of the 
witnesses. I would like to start with Mr. McGlone--Dr. McGlone.
    Dr. McGlone, you mentioned that some companies have already 
installed video monitoring systems. I understand one of these 
companies is Springer Mountain Farms.
    Mr. McGlone. Yes.
    Mr. Kucinich. And they are considered a large harvesting 
plant?
    Mr. McGlone. Yes.
    Mr. Kucinich. Can you tell us more about Springer Mountain 
Farms and speak to the effects they have experienced because of 
this increased transparency?
    Mr. McGlone. Yes. They are a company that sells a 
certified--American Humane-certified product. It is an 
alternative to conventional chicken. It is chicken that has a 
higher standard of animal welfare based on science-based 
standards, more space, for example; and at the processing plant 
they conduct an animal welfare audit.
    Now I will point out that poultry are excluded from, as was 
mentioned, from the Humane Slaughter Act. But they were feeling 
like--this is some time ago--that they weren't getting reliable 
data by having audits infrequently. Some plants audit for 
welfare once a day. Some do it once a week. But if you 
institute tight controls you may audit more often than that, 
perhaps continuously, or once an hour, continuously in the case 
of this new technology.
    So what it allowed them to do, and they did it purely for 
their own internal quality control, not because of outside 
groups that wanted it, they wanted to achieve a high standard 
of humane care, and they did that by policing themselves. I 
think that is a nice model, that once it is examined by outside 
parties they have some degree of comfort that----
    Mr. Kucinich. What about your customers' experience and 
response to the video surveillance service that you have been 
involved with?
    Mr. McGlone. Well, they are very positive about it. Is that 
what you mean?
    Mr. Kucinich. Yeah.
    Mr. McGlone. Sure. Yeah. They think it is--in the case of 
Springer Mountain, of course, they are pleased with it. But not 
just them. I need to point out--and not just beef but in pork 
plants, too, people have installed video monitoring, video 
surveillance of their activities for reasons that I give in my 
testimony. And they found that--as I said, they were resistant 
to it in the beginning. But once they started, they find it a 
useful tool to achieve a high standard of humane care.
    Mr. Kucinich. I want to ask a question about the 
technology. I understand there is the potential application of 
so-called fuzzy logic technology within the industry to improve 
humane animal handling and food safety. Can you tell us a 
little bit about how that technology works and if it addresses 
numerous concerns about the shortcomings of video surveillance?
    Mr. McGlone. Yeah. It doesn't solve all of the concerns. 
Now it works--it is easily described in this way. If a person 
is supposed to do a certain behavior, A, and they consistently 
do that behavior, then there is no noncompliance that arise in 
the software. But as soon as they do something different, then 
the software is alerted, the management is alerted, and it can 
be resolved quickly.
    But there are some things that happen that are 
unpredictable, because we are talking about humans and animals, 
and they are unpredictable. So, in addition to that, you need 
some kind of human oversight to account for unpredictable 
events. Over time, the software gets better. As more 
noncompliant events happen, the software can be refined to 
improve detection of noncompliance. But all along the way you 
still need a human element in there.
    Mr. Kucinich. Let me--I want to go over something that you 
said a moment ago--at least I think you said--that there are no 
laws that would prevent the infiltration of plants by people 
with ulterior motives----
    Mr. McGlone. Yes.
    Mr. Kucinich [continuing]. Such as raising donations, 
raising money.
    Mr. McGlone. Yes.
    Mr. Kucinich. Did I hear you say that?
    Mr. McGlone. Yes.
    Mr. Kucinich. Do you have a comment on that, Mr. Pacelle?
    Mr. Pacelle. I don't really know what Dr. McGlone is 
referring to, to be quite honest. Is there a circumstance that 
you are referring to?
    Mr. McGlone. Well, you know, in discussions with industry, 
they--well, I will take the Hallmark case specifically. And 
maybe----
    Mr. Kucinich. Are you saying people were just doing that to 
raise money for their cause?
    Mr. McGlone. Right. To put--well, in some cases--let's just 
take the Hallmark case. Why did it take so long to report the 
incident? How would a person be able to collect hours of video 
showing negative behavior when the very first occurrence should 
have brought down the government and the plant manager and 
everybody should have--you know, the situation should have been 
resolved the first day, not after several weeks.
    Mr. Kucinich. Mr. Pacelle, would you like to respond to 
that?
    Mr. Pacelle. Well, first, let me just say I am astonished 
by the comment to begin with. And, second, I think it reflects 
a lack of understanding about how investigations work. You have 
an investigator embedded in a plant with a highly 
sophisticated, very small camera, and he is not able to monitor 
it every day and review all of it. That is really not the job 
of the investigator, to make a determination about when you 
have crossed the threshold in terms of the aggregation of 
evidence.
    Mr. Kucinich. Why was an investigator sent in there? Was 
this a fund-raising technique for the Humane Society or did you 
have some other reason?
    Mr. Pacelle. Well, we have a mission of protecting animals; 
and we are concerned about the well-being of all animals, 
including those raised for food. And we really insist that 
animals raised for food be treated humanely during production, 
transport and slaughter. So we are just focusing our gaze--this 
plant was selected at random, and it turned up terrible things.
    I think it has done an incredible service to the Nation. 
Even the AMI president said that it has put the industry on 
notice, and it has modified behavior. I think our investigative 
unit at HSUS, unlike most other organizations, penetrates 
dogfights and cockfights and inhumane slaughter practices and 
puppy mills, and it has an extraordinary record of 
extraordinary service to the country. And we shouldn't have to 
do it. We should have government agencies really doing that 
work.
    Mr. Kucinich. If I may, is that your position, Dr. McGlone, 
that the government agencies ought to be doing that work?
    Mr. McGlone. It is my position that the government agency 
needs--government should be doing it, the industry should be 
doing it, and there should be some NGO involved to provide the 
trust factor. Because I don't trust the government, either. I 
think that is clear. And I don't always trust the industry, 
even though I work with them. I prefer to work from within to 
get positive change, rather than from the outside. But I think 
you need that triad of oversight, internal audits, government, 
and an NGO to make it fair and reasonable and trustworthy.
    Mr. Kucinich. Mr. Pacelle.
    Mr. Pacelle. You know----
    Mr. Kucinich. Let me just followup with a question, and you 
can include your answer.
    On the first panel, Dr. Raymond said that Hallmark 
represented an aberration in the industry. Now, in your 
opinion, are the animal handling abuses and food safety issues 
that were uncovered by your investigation a systemic problem in 
the slaughterhouse industry or an isolated incident, as the 
USDA has suggested?
    Mr. Pacelle. I think it is really impossible to know how 
frequent it is, because the third-party auditing system has 
demonstrated, certainly in this case, not to have picked up on 
this.
    We also--presumably, if USDA had known about these abuses, 
if the industry had known about these abuses, it would have 
stopped these abuses. But they didn't. And it took an HSUS 
undercover investigator to do it.
    I did mention in my oral comments that every time an animal 
protection group has looked into slaughterhouse practices in an 
undercover way they found terrible abuses. So the Charlotte 
Observer just had a major series about House of Raeford and a 
poultry processing plant that not only revealed inhumane 
treatment of animals but worker abuse and a variety of other 
things.
    I want to address Dr. McGlone's comment about working with 
the industry. We work with the industry a great deal. We don't 
get so close to the industry that we lose sight of what our 
mission is. An inside-outside approach can be----
    Mr. Kucinich. Your mission being?
    Mr. Pacelle. Mission to protect animals from needless 
cruelty.
    We work with the industry a great deal. But then sometimes 
we engage in undercover work to really test and see what goes 
on. In fact, I think the government should have a SWAT team or 
a strike force that travels around and occasionally does 
undercover work at some of the plants to really see what is 
going on.
    Because simply showing up with your USDA, you know, 
physical presence, they do know what is going on. And we saw at 
Hallmark, our investigator has said--and I don't think anyone 
has disputed it--that they were on their best behavior when the 
USDA was there. The USDA was there for just a couple of hours a 
day, and they were abusing the downers before he got there, and 
they were abusing them after he left, and there was not a 
continuous presence in the holding pens.
    And until we have greater transparency, which I think is 
really an important function of your hearing, and I am glad 
that the Arrowsight information has been advanced, that is 
really going to be the only way that we can have, you know, 
full-time forensic capabilities in this case.
    Mr. Kucinich. I would like to ask you a followup and then 
let Mr. McGlone respond, and then we are going to go to Mr. 
Cummings for some questions.
    When this video was released, what was the public's 
response and--as communicated to the Humane Society? Obviously, 
you had to have a response from the general public. Do you want 
to describe it for this committee?
    Mr. Pacelle. It certainly was overwhelming, and it has been 
nearly unanimous. We did hear the comment that folks who are 
watchdogs or whistle-blowers, we heard on a previous panel that 
there is retribution or there are attempts to discredit that 
effort. And we have heard a couple of industry voices criticize 
us. But the mass, the 98 percent of the public was very 
supportive.
    I don't think I saw any editorials from any major 
newspapers critical of our work. One hundred and twenty 
newspapers did editorials addressing this issue and commending 
the Humane Society and raising questions about the adequacy of 
current government programs.
    Now then, as the Congress has continued to look at it, as 
the press has continued to look at it, we have seen not only 
was there a problem with the government system but the third-
party auditing process. Again, I emphasize there were 12 third-
party audits at this plant, giving it the highest marks in the 
industry. Something is amiss.
    Mr. Kucinich. Dr. McGlone, you wanted to respond and I'm 
going to afford you that opportunity.
    Mr. McGlone. I was just going to add that myself and my 
students have been asked from time to time to do--I wouldn't 
call it undercover work--but to examine the welfare of animals 
at processing plants. And we've been in dozens, maybe hundreds 
of plants doing that. And we operationally find problems. But 
most of the time we don't find problems. So I just wanted to 
get it on record that, you know, we--to say that every time we 
look we find a problem, we don't find that. And I have looked 
at literally millions of animals in slaughter plants, and I do 
find problems. But it is not anything like every time. It is a 
rare event. And in any kind of process, particularly those that 
involve biological processes, it is a challenge to find the 
rare events.
    Mr. Pacelle. I think it is a systemic issue. It is not just 
that there is a malice and breaking of the law. We are talking 
about line speeds moving so rapidly that the animals are 
treated like a commodity. We are talking about animals thought 
of as objects and things and not living beings. You know, we 
heard from a couple----
    Mr. Kucinich. Would you--Dr. McGlone, would you agree with 
that?
    Mr. McGlone. They are a commodity. I mean, beef, pork and 
poultry are commodities. That's--by definition that's what they 
are.
    Mr. Kucinich. Mr. Pacelle.
    Mr. Pacelle. They are commodities after they are killed. 
They are not commodities while they are alive. I think that is 
the basic difference between----
    Mr. Kucinich. What about what Mr. Pacelle just said, they 
are commodities after they are killed, not when----
    Mr. McGlone. I think maybe we're discussing different 
definitions of commodities. You can buy live hogs, live cattle 
on the commodity futures market and they are commodities. And 
at the same time, they are a living being that deserves 
respect.
    Mr. Kucinich. OK. Thank you.
    Mr. Cummings. The Chair recognizes Mr. Cummings. Thank you.
    Mr. Cummings. Is it Pacelle?
    Mr. Pacelle. Pacelle, yes, sir.
    Mr. Cummings. I was listening to your testimony in the back 
and, you know, I think I found very alarming, what you said 
about--what you first started off saying about the FDA--I 
mean----
    Mr. Pacelle. The USDA.
    Mr. Cummings. Yeah. The Agriculture Department was saying 
one thing and doing another. Does--did that surprise you?
    Mr. Pacelle. We have been--we have been fighting this issue 
of the abuse of downer cows for quite a while, Congressman 
Cummings, and in fact the House in I think it was June or July 
2003 had a vote to stop slaughtering downer cows for human 
consumption, the concern being once--if they can't walk they 
are dragged or they are otherwise abused to get them into the 
kill box. But also they have a higher incidence of mad cow 
disease. And because they are wallowing in manure, they--and 
they are sometimes immunologically compromised, they have 
higher rates of E. Coli and salmonella.
    So it is a food safety issue and a humane handling issue. 
The Congress defeated--the House--the Senate passed it. The 
House defeated it 199 to 202. You were with us on the vote and 
the chairman was with us on the vote. But there were Members of 
Congress from the livestock industry who said a sick animal can 
never get into the food supply, can never get into the food 
supply. We don't need this downer policy because we have a 
screen, trust the industry. It was 6 months later that we had a 
BSE positive, a mad cow positive animal get into the food 
supply and trigger a worldwide scare that closed more than 50 
nations' markets to U.S. produced beef.
    So when USDA finally got with the program and said that 
they were banning downers, but then to subvert it with a--with 
a notice to the inspectors to allow some downers to get into 
the food supply, I consider it a dishonest move.
    Mr. Cummings. So----
    Mr. Pacelle. Thoroughly dishonest.
    Mr. Cummings. So that would be--that second--what do you 
call it, like a directive?
    Mr. Pacelle. Yes.
    Mr. Cummings. That second directive I would take it because 
of all the things you just said, that is that it was a major 
concern of the Congress of whether to vote--clearly a lot of 
Congress was concerned about it, folks were concerned that we 
might have a situation where the industry would be seriously 
affected. I would take it would be reasonable to think that 
quite a few people up and down the Department of Agriculture 
knew about this. I mean, if you were to guess--I mean, make a 
reasonable guess.
    Mr. Pacelle. Someone produced it. I mean, you know, USDA is 
a very, very in my view bureaucratic operation. People don't 
just go off and start writing notices without having superiors 
take a look at it. You know, I don't know if Secretary Ann 
Veneman knew about it, but somebody knew about it. And it 
clearly was at odds with the plain language of the Federal 
Register interim final rule that was one of the core reforms 
that USDA announced to address the enormous food safety scare 
that erupted after the first mad cow disease. You have to 
remember, contextually here we had seen a lot of people die in 
the United Kingdom and there were pyres, you know, there were 
cows that were killed and burned and enormous pyres. There was 
a major food scare, yet we have a subversion of their explicit 
rule. It really has come to light in the last few months after 
we did our investigation, another positive outcome of the 
investigation that we've forensically seen how USDA has handled 
this issue.
    Mr. Cummings. Is there a concern that maybe the government 
is too close to the industry? I mean, I heard what you said 
about you all--the Humane Society working with the industry, 
but at the same time doing your little investigations, and I 
also would like to know how you get access by the way. How does 
that work?
    Mr. Pacelle. That was an employee based investigation. Our 
investigators sometimes seek employment and they work in the 
plant and they document what goes on. It is not known to 
management. It is an undercover investigation.
    Mr. Cummings. They take pictures and everything?
    Mr. Pacelle. Yeah. There is a tiny little camera where the 
size of the lens is the size of the button on your shirt and he 
has a little trigger in the pocket and you can take footage. We 
make the cameras on our own and we want folks within industry 
to think that, well, there may be a Humane Society 
investigator, you better behave well and stop harming animals.
    Mr. Cummings. So you all--and you all--and they know--and 
they know that you all be doing these kinds of things; is that 
right?
    Mr. Pacelle. They certainly know now. They certainly know 
now, yes, yes.
    Mr. Cummings. So we can have full disclosure here, you all 
plan to continue to do those things? I want everybody to hear 
whether you are or not. I want that out there.
    Mr. Pacelle. Yeah, not just factory farm, but also abusive 
puppy mills, cockfighting arenas, other areas where there is 
systemic abuse of animals occurring or maybe not. You know, 
maybe a slaughter plant is complying and is--and, you know, 
there is lots of legal activity. And if they are adhering to 
the law, then they have nothing to fear from an assessment of 
what is happening.
    Mr. Cummings. You know, when you think about--you were just 
mentioning a moment ago the idea of in Britain, in Great 
Britain of them having to burn--is that what you said----
    Mr. Pacelle. Yeah.
    Mr. Cummings. All the cattle. I'm just wondering, do you 
think--when we think about the Agriculture Department putting 
out one set of rules and then come back and saying, no, this is 
exactly how you get around our rule, which is incredible to me, 
by the way, do you think that is driven--see, I'm trying to 
figure out what would be the--what would be the motivation for 
that? Because I think that is a critical question. You may have 
said it while I was out of the room.
    Mr. Pacelle. No, we didn't get into this, Congressman. And 
I think it is an important point. I mean, we are not the first 
at the Humane Society of the United States to say that USDA and 
industry have too cozy an alignment. It is well discussed, many 
of the editorial writers who praised our investigation 
commented on the collusion between USDA and industry. Rosa 
DeLauro, who is Chair of Agriculture Appropriations, has a bill 
to put food safety functions outside of USDA, to have a more 
independent agency that doesn't have as its core mission the 
promotion of U.S.-produced agriculture commodities. I mean, 
USDA for years has pushed U.S. commodity purchases. I actually 
wrote my senior thesis in college about this issue of USDA 
really kind of constructing what the ideal diet was as a means 
of marketing the commodities that are being produced by the 
industry. And I think we have seen time and time again they 
have a food safety function, they have an animal welfare 
function, they have a commodity promotion production and 
commodity promotion has trumped these other concerns. And 
Senator Durbin has legislation to deal with this issue of 
protecting food safety. We would really like to see many of the 
animal welfare enforcement programs moved out of the USDA to a 
more neutral agency, like the Department of Justice or some 
agency that doesn't have a built in conflict because it is so 
close to the industry.
    Mr. Cummings. Yeah. So they have to promote. And so 
therefore with promotion logically comes protection. You have 
to protect what you are promoting.
    Mr. Pacelle. I think, you know, many of the people who work 
in the agency come from the industry. It is their orientation, 
it is their world view. It may not always be a devious, you 
know, sort of scheme. It is just the orientation of the agency 
and the industry. It is just the historical pattern. It is 
inertia. And, you know, the folks who are part of that believe 
in what they are doing and animal welfare, food safety has not 
been their background for the most part.
    Mr. Cummings. This is my last question. I wonder if there 
is a--can you just explain to us a moment ago why it is that 
you don't want to have downer animals in your food chain? Is 
there a counter argument to that? Otherwise, I'm going back to 
what you just said. That you have people who may have been a 
part of the industry, then moves--I mean, may have been a part 
of the industry and then--the industry that moves the 
government--that moves the government. I mean, I'm just 
wondering if--and they see these things going on, they become a 
part of the system. And I'm trying in my head to say, OK, is--
are they saying that the government is crazy, the government is 
just too strict, the government should not--I mean, this is as 
an employee. The government--I mean, we are going to have all 
of this beef destroyed or whatever and this is good meat. Are 
there counter arguments to that?
    Mr. Pacelle. Well, the argument of the folks who want to 
slaughter downers is that they say that vets onsite can 
distinguish between an animal who is ill, whose illness may 
then be transmitted to human consumer, versus animals that have 
an acute injury, say they have broken a leg, they got their leg 
caught in the grate in the truck. And they claim that they can 
make that distinction and why sacrifice that animal and the 
profit of the farmer because you can make $600 or $1,000 on the 
animal if you process the animal versus condemning the animal. 
That is their argument. Our argument in response is that a 
veterinarian--we heard today there is one veterinarian in the 
pen areas if we're lucky in some of these areas and some of the 
sizes--some of the volume of the animals we are talking are 
thousands a day. How is the veterinarian going to make a 
medical judgment about the animal's condition? What's more, if 
an animal does have a neurological problem like BSE, or mad cow 
disease, that may cause the animal to stumble and break a leg 
which isn't an acute physical injury. So how can you separate 
the physical injury from the neurological condition? It is too 
much to ask of these veterinarians to make this distinction.
    Downers are a small piece of the industry. Temple Grandin 
here earlier today has said you can solve 90 percent of downer 
issues with humane handling practices. What happened at 
Hallmark/Westland was that we've genetically manipulated these 
cows to produce enormous volumes of milk. I mean, they are 
spent. These were spent dairy cows. They were Holsteins, these 
black and white cows. They were so spent that they could not 
walk very well. And those were the ones that were so battered 
and beleaguered, they were the ones they were trying to squeeze 
every last dime out of these animals. So they have given their 
life to produce milk and now we want to squeeze them a little 
bit more and make $500 to slaughter them.
    Mr. Cummings. Doctor----
    Mr. McGlone. I just want to added one bit of clarification. 
I don't necessarily disagree with what has been said, but there 
is more than one reason why an animal is a downer. And one of 
the major reasons is because they are tired, because they--they 
were an old animal or an animal that is finished with its 
productive life and it goes on a truck for a couple of hours 
ride. It gets to the plant, it has water but no food and it has 
to walk from here to there and it gets tired. And so it just 
stops. It lays down. So the position of people that look at 
that, the veterinarians and scientists, is that, well, if it 
doesn't have a bacterial or viral infection, if it doesn't have 
BSE and it is just tired, then why can't we just humanely 
slaughter it and put it in the food supply.
    Mr. Cummings. Well, you know, I'm not--I don't know a lot 
about farms because I have lived in the city all my life. But I 
assume that--and correct me if I'm wrong--if you have--I mean, 
do they let these animals get old? I mean--in other words, I 
thought--I just assumed----
    Mr. Pacelle. You're so right, Congressman. I mean, No. 1, 
the definition of a downer--to take issue with Dr. McGlone--is 
an animal who cannot rise from a recumbent position. If they 
are tired and then they get up, then they are not a downer 
anymore. But your point is correct. I mean, the beef cattle are 
slaughtered at a relatively young age. The dairy cows are not 
particularly old in the sense of aged. But they are just spent 
because they have been milked so much and they have been--they 
have been genetically manipulated to produce enormous volumes 
of milk. And their body just breaks down to some degree.
    Mr. McGlone. Congressman, I would be delighted to take you 
on a tour if you'd like to see modern agriculture, if you'd 
like to know more about where your food comes from. The problem 
is if they are spent--and it is kind of an old term. But there 
is nothing particularly wrong with the meat, though. And right 
now we have a situation in this country where the price of feed 
stuffs are very high, as I'm sure you know. The price of corn 
and so on and the price of meat and milk is going up 
dramatically. And if you take this food off the market, the 
price of food will go up even more and the only people that 
hurts is the poor people.
    Mr. Pacelle. You know, this is such----
    Mr. Kucinich. Excuse me. Maybe my colleague wants to 
respond to that comment and then I want to respond to it.
    Mr. Cummings. I was kind of--I tell you, I'm surprised you 
said that.
    Mr. McGlone. Really?
    Mr. Cummings. So what you are saying--you know, when I was 
a little boy, I remember, Doctor, going to the store--we used 
to have these little neighborhood stores. This is the inner, 
inner, inner, inner, inner city of Baltimore. You know what 
they used to do, Doc? I remember this like it was happening 
today. I was like 8 or 9 years old.
    Mr. McGlone. I'd like to know.
    Mr. Cummings. What they'd do is they would have meat in the 
corner--these little corner stores--have meat in the corner and 
they'd shine a red light on the meat to make it look fresh. And 
these were poor neighborhoods. So I guess what you are saying 
to me is that the only people that are getting--might be 
getting this downer meat is poor people? Is that what you're 
saying? That's not what you are saying, is it?
    Mr. McGlone. I didn't actually say that.
    Mr. Cummings. I know. I didn't say you did. I asked you if 
you did.
    Mr. McGlone. Well, I did not say that. But let's examine 
that for a second. Where do you think, you know, old dairy cows 
go?
    Mr. Cummings. I don't know. Tell me.
    Mr. McGlone. They go to hamburger.
    Mr. Pacelle. They go to the school lunch program is where 
they go. They give the lowest grade product to the schools and 
they give it to kids who would not be able to withstand the 
effects of salmonella and E. Coli as much. This was the No. 2 
supplier to the National School Lunch Program, Hallmark/
Westland, that we investigated.
    No. 2, 55 million pounds of ground beef went to the school 
lunch program. That's where it goes.
    Mr. McGlone. These downer animals are not the steak you eat 
in a fancy steak place.
    Mr. Kucinich. Will the gentleman yield?
    Mr. Cummings. I yield.
    Mr. Kucinich. The witness who speaks to the fact that this 
meat that was a result of--that we learned about through this 
undercover investigation was going to the School Lunch Program 
is not a small matter. The gentleman raised a question that if 
they start sorting out as all downer, everything identified as 
a downer, that could have an effect on increasing the price of 
meat, is that what you're saying?
    Mr. McGlone. Yes.
    Mr. Kucinich. Would the gentleman agree that poor people 
are entitled to the highest quality product?
    Mr. McGlone. Yes.
    Mr. Kucinich. I just wanted to make sure we establish that.
    Mr. McGlone. Yes. I agree.
    Mr. Pacelle. I dispute the notion on your economics, to be 
quite honest, that when USDA did restrict downers in 2004, not 
to the extent that it claimed it was, is they still are 
allowing downers into the food supply. No economist that I'm 
aware of said that we would have higher meat prices in the 
store as a consequence of the downer ban.
    Mr. Kucinich. I want to ask Dr. McGlone, under any 
circumstance, would you hesitate to yourself personally eat 
meat that came from a downer; under all circumstance, you 
wouldn't have any hesitation to eat meat that came from a 
downer?
    Mr. McGlone. I couldn't say under all circumstances.
    Mr. Kucinich. So some downers are different?
    Mr. McGlone. The ones that have BSE are different or the 
ones that might have salmonella or the ones that----
    Mr. Kucinich. But the point is that sorting these downers 
out isn't always an easy thing to do; isn't that correct?
    Mr. McGlone. No. It is a good thing to do.
    Mr. Kucinich. What does the precautionary principle say 
here?
    Mr. McGlone. Yeah. It's a good thing to sort them out.
    Mr. Kucinich. But let's talk about what would the prudent 
person do.
    Mr. McGlone. If you're not sure, you should segregate it, 
which is what happens now.
    Mr. Pacelle. Isn't that what Mr. Pacelle is advocating?
    Mr. McGlone. He is advocating, if I understand it right, 
not only segregating it, but not including it in the food 
supply. And what I am suggesting is that if you segregate it 
and then evaluate it for the safety of the product, that is--
that is an acceptable----
    Mr. Pacelle. And how do you evaluate BSE in a pen area 
and----
    Mr. McGlone. Well, you can't until the animal is dead and 
you have----
    Mr. Kucinich. I want to go back to Mr. Cummings here. But 
there are some things that are problematic clinically in terms 
of how something presents because--are they not? I just want to 
make sure that the perspective that is being offered here is 
one that to you, Dr. McGlone, based on your experience is 
plausible.
    Mr. McGlone. Which part is plausible?
    Mr. Kucinich. Plausible that Mr. Pacelle's perspective 
about downers with respect to food safety issues----
    Mr. McGlone. Yes. When the animal goes down and--before it 
can be consumed, there must be other things that happen. It 
must be observed live and it must be observed in carcass form. 
And in the case of the recent issue, that didn't happen. There 
wasn't a second inspection before the animal went into the food 
supply.
    Mr. Kucinich. Mr. Cummings. Go ahead, Mr. Cummings.
    Mr. Pacelle. American Humane doesn't support a no downer 
policy.
    Mr. McGlone. Actually I'm not sure what their policy is on 
downers.
    Mr. Pacelle. It would be the only humane organization that 
departs from that policy.
    Mr. Kucinich. Which is? Excuse me, Dr. McGlone. Do you want 
to state your policy? Yes.
    Mr. Pacelle. We have an unambiguous policy that animals who 
cannot get up, cows and pigs who cannot get up from a recumbent 
position for humane handling purposes as well as food safety 
should not be funneled into the food supply for the very 
reasons that we documented at the Hallmark plant that animals 
were kicked, they were--they had electricity put on their eyes 
and their anus, they were rammed with a forklift, they had high 
pressure water put in their nostrils and mouth to simulate a 
drowning effect. And the USDA inspector was there for 2 or 3 
hours a day; 2 or 3 hours a day.
    Mr. Kucinich. It was USDA approved?
    Mr. Pacelle. They weren't present to make judgments. And 
they were approving 35 or 40 animals--you know, the animals 
were that far away to the wall and they were making a visual 
inspection of 35 or 40 animals in a spot. The USDA inspector 
would approve the animals if they could stand.
    Mr. Kucinich. But the animals that you just described and 
the conditions that they were in, they were ultimately approved 
by the USDA. They had that----
    Mr. Pacelle. If the animal could stand, they were all 
approved.
    Mr. Kucinich. OK.
    Mr. Pacelle. This notion that somehow there was some 
medical evaluation of the animals is entirely false.
    Mr. Kucinich. Mr. Cummings.
    Mr. Cummings. The only thing--I just leave with this, that 
I--you know, I just think--when I think about health and 
safety, it is just so many ways that you can--that we can bring 
harm to people in this country and anybody who might consume. 
And we see it in all kinds of stuff. Right now, we are working 
on an issue with toys and lead. It just seems to me--I just 
want to encourage the Humane Society to continue to do what you 
do. Sometimes I think we have to have--and I'm not--I mean, if 
there are other societies that do the same thing, God bless 
them. Because we have to have--when government fails we have to 
have these types of organizations to put a light in some of 
these dark corners. Because if we don't have them, we are in 
trouble. We are like--it is like a train going down the track 
about to run into another train, period. And I think that if 
the American people knew that our--and see, this is a piece 
that a lot of people miss. People are paying taxes for certain 
protections. That is what they pay taxes for. I mean, that is 
why--I mean, when people talk about--you know, I always hear 
people say things like why do we need government? You know, 
what are my taxes being used for? Well, I don't need 
government. This is why you need government, right here. This 
is a perfect example. But when you are paying for something and 
you're not getting it, that is a problem, particularly when it 
comes to stuff that you're putting in your body. I mean, that 
is incredible.
    And so I just--I don't--I think, Mr. Chairman, I don't know 
all the answers but one thing I do know is that I think this 
hearing has certainly opened up my eyes to a lot of things I 
didn't know about this whole industry and what is going on 
here. And it is so easy for people to say that things don't 
matter. And as soon as something happens, then suddenly it 
matters. And it is easier for people to say things don't matter 
as long as it is affecting negatively somebody else. But as 
soon as it affects you, then suddenly it matters, you're on the 
morning shows and you have folk interviewing you.
    So I just hope that some kind of way this hearing and 
things like this will cause folk begin to do their jobs. Did 
you have something to say, Mr.----
    Mr. Pacelle. Thank you for the comments. You know, I do 
think you said it before. I mean, there are people who will 
take a shortcut. For whatever reason, they want to--they want a 
shortcut and that is why there needs to be some oversight in 
this area, precisely for the reason that you said. And here 
with food, we are dealing with food safety issues that affect 
every one of us, children, elderly and everyone in between, and 
we are also affecting the lives of these animals. These animals 
have the same spark of life that we have. They want to live 
just as much as we want to live. They don't want to suffer. But 
there are people who just think of them as things, and they 
will do whatever they wish to them because they have the power 
to do so.
    So someone has to come in, whether it is the Congress or 
others, and say, hey, we need some limits in society. We need 
some restraints, because an unfettered market where animals are 
just treated as commodities is not acceptable.
    Mr. Kucinich. I think this is a good point for us to give 
our third panelists an opportunity to enter into this 
discussion and ask if it is possible that the technology that 
you presented to this committee can capture what is happening 
in the area of a slaughterhouse or a meat packing plant?
    Mr. Aronson. Thank you for the question. You know, I'll 
point back to the experiences that we have had with FPL Food, 
which is a cattle slaughter plant down in Augusta, Georgia, and 
does about 1,200 cattle a day. So it is categorically a medium 
to large company in terms of volumes. And the methodology that 
we have employed, which I outline in the written testimony and 
talk a little bit about in the oral testimony, is a combination 
of random sampling with remote video auditing and continuous 
employee feedback. That is really the most important thing I 
would tell anybody about video. If you just put cameras in and 
you expect them to affect employee behavior, they are really 
not going to do much of anything. If you do employ a very 
progressive and regular, continuous feedback stream to the 
plant, focusing mainly on the supervisors that run these areas, 
we found not just in this industry, but in many industries that 
you can have a very quick and sustained impact on outcomes and 
employee behavior.
    Mr. Kucinich. Is the video only in realtime or is it 
possible to go back in time to review previous days, weeks, 
months?
    Mr. Aronson. It is both.
    Mr. Kucinich. So it is an archive?
    Mr. Aronson. Yeah. And I think, you know, a lot of the 
discussion on this panel and in previous panels is around the 
issues of downers and identifying them. And first of all, they 
don't happen very often. So they are hard to find in general 
and we use in a lot of our industry still picture technology, 
where we can go back in time and look at, say, a 30-minute 
window of time across 16 pictures which would each be 2 minutes 
apart. And the theory being is that if there is a 1,000-pound 
cow that can't move, it is not going anywhere in 2 minutes. So 
we are able to very quickly identify within a 30-minute window 
if there has been a downer animal. And what we do with that 
PL--and there is some other companies that are coming on board 
now with this program due to the work done by the Humane 
Society whereby on a 24/7 basis we are every 30 minutes looking 
at the video. And if we see any downers we notify the plant 
immediately and send them an e-mail with a link to the video so 
that they can do their own examination. Because it really is a 
needle in the haystack and what was interesting to us--and I 
didn't know this at the time. I wasn't aware of the volume of 
overnight delivery of cattle and most of our pre-existing 
services were random live sampling during the day, during the 
operations hours. And when we were able to look at the still 
imagery on the overnight shifts, it was very clear that there 
would be a lot of value there. So that is why we--you know, we 
moved away from just a live sampling model to a retroactive 
model.
    Mr. Kucinich. Thank you very much. I wanted to thank each 
of the panelists for your participation. This has been a very 
important discussion. I think, you know, with Mr. Aronson' 
participation it was important from the standpoint of providing 
a perspective of a possible technological solution.
    The exchange between Mr. Pacelle and Dr. McGlone has been 
important because, you know, this committee is trying to 
provide opportunities for give and take on these issues so that 
we can come to an understanding of the approach that we'll take 
in recommending some legislative improvements or some policy 
directions that will be important to USDA or any other relevant 
agency.
    So this has been a hearing of the Domestic Policy 
Subcommittee of the Oversight and Government Reform Committee. 
The title of this hearing has been ``After the Beef Recall: 
Exploring Greater Transparency in the Meat Industry.''
    We have had three panels and we began at 1. It is now 6. 
The witnesses who are here were here at the beginning. I want 
to thank you for your patience and your participation. I want 
to thank Mr. Cummings for staying with us throughout this 
hearing and also for the staff that supported our efforts here, 
and for Mr. Issa's participation.
    We do work in a bipartisan way. We are going to maintain an 
active oversight on this area, with the mind to not simply 
looking at the industry as it may have its difficulties and 
trying to expose them if necessary, but also looking at some 
solutions that could provide for more humane practices. So--and 
for more, you know, food safety.
    So thank you, all of you, and there being no further 
business before this committee, we stand adjourned. Thank you.
    [Whereupon, at 6 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
